<html>
<title> - OVERSIGHT HEARING ON THE U.S. FISH AND WILDLIFE SERVICE'S PLAN TO IMPLEMENT A BAN ON THE COMMERCIAL TRADE IN ELEPHANT IVORY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 THE U.S. FISH AND WILDLIFE SERVICE'S PLAN TO IMPLEMENT A BAN ON THE 
                  COMMERCIAL TRADE IN ELEPHANT IVORY
=================================================================


                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                  
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 24, 2014

                               __________

                           Serial No. 113-76

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          

                                 ______

                     U.S. GOVERNMENT PUBLISHING OFFICE 

88-502 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Bradley Byrne, AL
Doc Hastings, WA, ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 24, 2014...........................     1

Statement of Members:
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     4
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Lowenthal, Hon. Alan, a Representative in Congress from the 
      State of California........................................     3

Statement of Witnesses:
    Dreher, Robert G., Associate Director, U.S. Fish and Wildlife 
      Service....................................................     6
        Prepared statement of....................................     8
    Fields, Hon. Jack, Former Representative in Congress from the 
      State of Texas.............................................    61
        Prepared statement of....................................    63
    Hayes, Hon. David J., Vice Chair, Federal Advisory Council on 
      Wildlife Trafficking.......................................    55
        Prepared statement of....................................    57
    O'Grady, Scott, Retired, United States Air Force.............    73
        Prepared statement of....................................    74
    Quinn, Matthew, Quinn's Auction Galleries....................    69
        Prepared statement of....................................    71
    Sheets, Arian M., Curator of Stringed Instruments, National 
      Music Museum...............................................    65
        Prepared statement of....................................    67
    Somerhalder, Ian, President, Ian Somerhalder Foundation......    49
        Prepared statement of....................................    51
    Tendaupenyu, Itai Hilary, Principal Ecologist, Zimbabwe Parks 
      and Wildlife Management Authority..........................    13
        Prepared statement of....................................    15

Additional Materials Submitted for the Record:
    American Federation of Musicians of the United States and 
      Canada, Prepared statement of..............................    86
    American Federation of Violin and Bow Makers, Inc., Prepared 
      statement of...............................................    93
    Art and Antiques Trade Group, Prepared statement of..........    95
    Association of Art Museum Directors, Prepared statement of...    97
    Christies, Inc., Prepared statement of.......................    99
    CITES Press Release, June 13, 2014, ``Elephant Poaching and 
      Ivory Smuggling Figures Released Today''...................   135
    E&E article, June 13, 2014, ``Endangered Species: African 
      Poaching Down and Ivory Seizures Up--Report''..............   137
    E&E article, June 25, 2014, by Dylan Brown, ``Wildlife: GOP 
      Lawmakers, Witnesses Blast FWS Ivory Ban Proposal at House 
      Hearing''..................................................   137
    Elephant Database, 2012 Summary totals for Zimbabwe..........   134
    Forbes OpEd, June 23, 2014, by Judith McHale and David J. 
      Hayes, ``It's All About Saving the Elephants''.............   139
    Huber, Richard L., Letter submitted for the record...........   115
    Humane Society, Prepared statement of........................   100
    League of American Orchestras and International Conference of 
      Symphony and Opera Musicians, Prepared statement of........   105
    List of documents submitted for the record retained in the 
      Committee's official files.................................   143
    New York Times Op-Ed, March 26, 2014, by Godfrey Harris and 
      Daniel Stiles, ``The Wrong Way to Protect Elephants''......   140
    Sotheby's, Inc., Prepared statement of.......................   112
    Stone, Linda Karst, Prepared statement of....................   114
    Wall Street Journal article, June 23, 2014, by John Leydon, 
      ``Grandma's Cameo Becomes Yard-Sale Contraband''...........   141
    Washington Times article, February 18, 2014, by Doug Bandow, 
      ``Obama's Ivory-Trade Regulatory Overkill''................   142
    Wasser, Samuel K., Center for Conservation Biology, 
      University of Washington, Letter submitted for the record 
      along with his INTERPOL report.............................   121
                                     


 
   OVERSIGHT HEARING ON THE U.S. FISH AND WILDLIFE SERVICE'S PLAN TO 
       IMPLEMENT A BAN ON THE COMMERCIAL TRADE IN ELEPHANT IVORY

                              ----------                              


                         Tuesday, June 24, 2014

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Young, Duncan, 
Southerland, McAllister; Lowenthal, Shea-Porter, and DeFazio 
(ex officio).
    Also Present: Representative Daines.
    Dr. Fleming. The subcommittee will come to order.
    The Chairman notes the presence of a quorum.
    Good afternoon. Today the subcommittee will examine the 
Fish and Wildlife Service's decision to establish a ban on the 
sale of elephant ivory, to suspend sport hunting trophies from 
two African countries, and to arbitrarily limit the number of 
sport hunted trophies that Americans can legally import into 
the United States.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. It is clear that the rate of illegal killing 
that African elephants have experienced is tragic. So I was 
pleased to read the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora, CITES, June 13th 
press release, that the number of elephants poached in 2013 
decreased from the previous 2 years. According to the CITES 
Secretary General, ``We are seeing better law enforcement and 
demand reduction efforts across multiple countries.''
    In order to stop this killing, the world community must 
work together to stop the flow of illegal ivory and to provide 
ivory producing nations the resources they need to effectively 
arrest, imprison or kill the heavily armed and organized 
poachers.
    Based on a report to INTERPOL by Dr. Samuel Wasser of the 
University of Washington, who performs the DNA testing on 
seized ivory, we now know that the poachers are killing over 75 
percent of all elephants in about three locations in Africa. 
According to Dr. Wasser, the same locations keep recurring over 
and over again as the places of origin of major ivory seizures, 
suggesting that the number of major hot spots may be far more 
limited than previously thought. The international law 
enforcement community must target those hot spots.
    During the past 6 months, the Service has issued Director's 
Order 210, a revision to that order, and a promise to issue 
proposed final rules, which will establish, in the words of the 
Director, a ``virtual ban'' on the commercial sale of elephant 
ivory. Before establishing such a policy, it is usually 
important to understand the extent of the problem you are 
trying to fix. Regrettably in this case, the Service has 
indicated that they do not know how much elephant ivory is in 
the United States or, even more importantly, how much of it is 
illegal.
    It is apparently difficult and expensive to determine the 
origin and the age of ivory and, therefore, the Service 
believes the easiest thing for them is to simply declare that 
virtually everything is contraband, and for good measure, the 
burden will be on the individual and not the Federal Government 
to prove that the ivory items qualify for these limited 
exceptions.
    Today we will hear from some of the industries who may be 
adversely affected by the upcoming proposed final rules. 
Hopefully their suggestions and comments will be given serious 
consideration.
    Finally, I am interested in hearing whether the Service is 
prepared to allow Americans to again import elephant trophies 
from Tanzania and Zimbabwe.
    I also want to know why the Service would even consider 
establishing a limitation on American sport hunters when the 
African Elephant Conservation Act of 1988 clearly implies that 
no such limitation should be placed, and when even the Service 
admits that sport hunting is beneficial to the elephant 
conservation.
    The simple truth is that if wildlife has no economic value, 
then there is little, if any, incentive for the people who live 
in that habitat to conserve or save them.
    Some of the proceeds from legal elephant hunting are used 
to finance clinics, hospitals, roads, schools and other 
necessities of life in some of the poorest villages throughout 
Southern Africa.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
            Fisheries, Wildlife, Oceans and Insular Affairs
    Good afternoon, today, the subcommittee will examine the Fish and 
Wildlife Service's (Service) decision to establish a ban on the sale of 
elephant ivory, to suspend sport hunted trophies from two African 
countries and to arbitrarily limit the number of sport hunted trophies 
that Americans can legally import into the United States.
    It is clear that the rate of illegal killing that African elephants 
have experienced is tragic. So, I was pleased to read the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES) June 13th press release that the number of elephants poached in 
2013 decreased from the previous 2 years. According to the CITES 
Secretary-General ``We are seeing better law enforcement and demand-
reduction efforts across multiple countries.''
    In order to stop this killing, the world community must work 
together to stop the flow of illegal ivory and to provide ivory 
producing nations with the resources they need to effectively arrest, 
imprison or kill the heavily armed and organized poachers.
    Based on a report to INTERPOL by Dr. Samuel Wasser of the 
University of Washington, who performs the DNA testing on seized ivory, 
we now know that poachers are killing over 75 percent of all elephants 
in about three locations in Africa. According to Dr. Wasser, ``The same 
locations keep recurring over and over again as the places of origin of 
major ivory seizures, suggesting that the number of major hot spots may 
be far more limited than previously thought.'' The international law 
enforcement community must target those hot spots.
    During the past 6 months, the Service has issued Director's Order 
210, a revision to that order, and a promise to issue proposed final 
rules which will establish in the words of the Director a ``virtual 
ban'' on the commercial sale of elephant ivory. Before establishing 
such a policy, it is usually important to understand the extent of the 
problem you are trying to fix. Regrettably, in this case, the Service 
has indicated that they do not know how much elephant ivory is in the 
United States or even more importantly how much of it is illegal.
    It is apparently difficult and expensive to determine the origin 
and age of ivory and, therefore, the Service believes the easiest thing 
for them is to simply declare that virtually everything is contraband. 
And for good measure, the burden will be on the individual and not the 
Federal Government to prove that the ivory items qualify for these 
limited exceptions.
    Today, we will hear from some of the industries who may be 
adversely affected by the upcoming proposed final rules. Hopefully, 
their suggestions and comments will be given serious consideration.
    Finally, I am interested in hearing whether the Service is prepared 
to allow Americans to again import elephant trophies from Tanzania and 
Zimbabwe. I also want to know why the Service would even consider 
establishing a limitation on American sport hunters when the African 
Elephant Conservation Act of 1988 clearly implies that no such 
limitations should be placed and when even the Service admits that 
sport hunting is beneficial to elephant conservation. The simple truth 
is that if wildlife has no economic value, then there is little, if 
any, incentive for the people who live in that habitat to conserve or 
save them. Some of the proceeds from legal elephant hunting are used to 
finance clinics, hospitals, roads, schools and other necessities of 
life in some of the poorest villages throughout Southern Africa.

                                 ______
                                 

    Dr. Fleming. I am now pleased to recognize the Acting 
Ranking Member for any statement that he would like to make.

   STATEMENT OF THE HON. ALAN LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you, Mr. Chairman, and thank you to 
our witnesses for appearing today.
    Mr. Chairman, in February of 2013, 1 month into the 113th 
Congress, the Ranking Member of this Committee wrote to you and 
to Chairman Hastings to request an oversight hearing on the 
wildlife poaching crisis in Africa. Unfortunately, that request 
was not fulfilled, and since then more than 35,000 elephants 
and 1,000 rhinoceroses have been killed illegally for their 
tusks and their horns.
    Elephant ivory and rhino horn is bought. It is smuggled, 
and it is distributed by organized criminal enterprises, the 
same people who deal in heroin, assault weapons, and forced 
child labor. These crime syndicates are supplied with ivory by 
a new breed of formidable poachers who are equipped with night 
vision goggles, automatic weapons, and sometimes even 
helicopters. In some cases these poachers are simply out to 
make a few quick dollars, but in other instances more sinister 
forces are at work.
    The Lord's Resistance Army in Central Africa and Darfur's 
Janjaweed are financing their violent insurgencies in part with 
ivory profits, and Al-Shabaab, an Al-Qaeda affiliated terrorist 
group that killed 67 persons last year in Nairobi and 48 people 
in another attack just last week in Kenya derive 40 percent of 
its revenue from wildlife trade.
    Given these troubling facts, I was concerned to see that 
the purpose of this hearing appears to be to question one 
particular component of the Obama administration's strategy to 
deal with the poaching crisis. That is a proposal to tighten 
the ban on the import, export and sale of elephant ivory in 
order to prevent nefarious actors from using loopholes in the 
current system.
    While some legitimate concerns have been raised over the 
ability to sell and transport musical instruments and antiques 
containing ivory, one fact is inescapable. The United States is 
the second largest market for ivory, much of which is sold here 
illegally.
    Earlier this month a Philadelphia art dealer was sentenced 
to 2\1/2\ years in prison in order to pay a $150,000 fine for 
smuggling recently poached ivory and pawning it off as antique. 
This illicit activity has been going on for 9 years and was not 
an isolated incident.
    The judge in the case correctly noted that poaching funds 
criminal gangs operating in Africa. While I know that the Fish 
and Wildlife Service has been and will continue working with 
stakeholders to allow limited trade in items containing ivory, 
we must be cautious. It is too easy under current rules to 
disguise recently poached ivory as antique, which in turn 
promotes the slaughter of more elephants.
    I believe it is not too much to ask legitimate ivory 
dealers to take a few additional steps to verify that their 
products are bona fide antiques. We do want to be sure that 
this verification is thorough though, but the bottom line is 
that there is an international poaching epidemic that is 
devastating African wildlife, threatening the lives of wildlife 
rangers, and creating international security risks that most of 
us in the United States cannot even begin to understand.
    I would like to address the temporary ban on importing 
sport hunted elephant trophies from Tanzania and Zimbabwe. 
Based on population data and documented cases of the illegal 
killing of elephants, it is clear that both of these countries 
have been deeply afflicted by the escalating poaching epidemic. 
While nations that have populations of elephants are ultimately 
responsible themselves for their own management, the United 
States cannot legally allow the importation of elephant 
trophies in the absence of clear evidence that the hunting 
contributes to the survival of the species.
    Given the scale of the current poaching crises and the 
uncertainty of what happens to the money that hunters pay host 
countries, additional killing of elephants in Tanzania and 
Zimbabwe is only adding to the body count.
    I applaud President Obama and his administration for taking 
decisive steps to combat wildlife traffic, and I look forward 
to hearing from our witnesses today about how they can protect 
endangered African elephants and rhinos and stem the tide of 
poaching that is now reaching a crisis level.
    Thank you, and I yield back.
    Dr. Fleming. The gentleman yields back.
    And I believe Mr. DeFazio, the Ranking Member of the whole 
Committee, has an opening statement.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, today we will get a bit of history, which was 
new to me and would have a former member talk about that, about 
some successful bipartisan effort back in 1988, 1989, the last 
time we had a threat, which actually pales in terms of today's 
threat to the survival of elephants in the wild in Africa.
    And after the Congress came together on a bipartisan basis 
back then, the price of ivory tanked to about 5 bucks a pound. 
We made it like blood diamonds for a while, and now it is more 
than 200 times that. It is about 225 times that.
    So some of these terrorist groups, and of course, there was 
the incredible slaughter of 300 elephants in 1 day last year 
with poisoning, but you know, one elephant can finance a lot of 
ammunition for them and other weapons and things for a not 
particularly long period of time.
    There has to be major action taken by the United States and 
major action to motivate other countries to take action. This 
rule, you know, it is an extraordinarily broad rule. They are 
still refining parts of it, and how are you going to tell what 
is legitimate and what is not? It is very problematic.
    We are going to have to go after the middle men, the 
source, the other major consumers, but we are going to have to 
set an example here.
    And I just have one little demonstration on how difficult 
this all is. This gentleman, if I might call him that, although 
he currently has a number, he is a Federal prisoner, a guy 
named Victor Gordon, an antique dealer, of course, very 
legitimate guy, was sentenced to 2\1/2\ years in prison and a 
$150,000 fine, and they found in his collection one ton of 
antique/not antique ivory, and this has been dated, and this 
all is quite recent. But it has been made to look a bit older.
    So this is how difficult the problem is. I mean, I am 
hopeful some day we will have a very quick kind of test with 
something, a mass spectrometer or something and you can be able 
to bring in your ivory, and they will say, ``Oh, yeah, that is 
fine. That is old enough,'' and we do not have to have 
arbitrary standards.
    But this is the problem we are fighting, people like the 
current guest of the Federal Government, Mr. Gordon. Hopefully 
that sets an example to others who would traffic similarly in 
the United States, but we also have major problems overseas 
with corrupt governments. There is a lot of money in this and a 
lot of corruption follows that, in addition to the violence. We 
might hear a little bit about that today.
    And I am hoping that steps beyond what we are discussing 
today, which needs to be further discussed and refined, can be 
taken by the United States which will go to trade sanctions, 
meaningful trade sanctions against countries who knowingly, 
like China, traffic in these materials, and we have to hit them 
hard if we are going to get their attention.
    And I think the President has the authority under the Pelly 
Act to do that, and I am going to be organizing a letter to ask 
him to use that authority, but I am also looking at legislation 
to amend the Driftnet Act to also give more authority to use 
trade sanctions.
    Quite some number of years ago I was involved with some 
illegal whaling by Norway, and I was pretty junior then, but I 
introduced a bill to sanction them, and it got their attention 
very quickly. If we could put together something bipartisan, we 
can get the attention, I believe, of some of these countries 
that are facilitating the absolute slaughter of elephants.
    We are at a point if this goes on for another 4 or 5 years, 
we are going to be talking about captive breeding programs for 
elephants, in addition to what's also--there's also 
environmental depredation, illegal logging that is affecting 
elephants, but the slaughter right now is the Number-one issue 
we have to deal with, and I hope we can find a way to come 
together on that today.
    Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields back. Next I would like 
to ask unanimous consent that the gentleman from Montana, Mr. 
Daines, be allowed to sit on the dais.
    Hearing no objections, so ordered. We will now hear from 
our first panel of witnesses, which includes Mr. Steve Robert 
G. Dreher. Is that the correct pronunciation, Dreher? Did I say 
that right? OK. Thank you. Associate Director, U.S. Fish and 
Wildlife Service, and Mr. Hilary Tendaupenyu. Am I close? OK. 
Principal Ecologist, Zimbabwe Parks and Wildlife Management 
Authority.
    Your written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes as outlined in our invitation letter to you under the 
Committee Rule 4(a).
    Our microphones are not automatic. So please press the 
button. Make sure the tip of the microphone is close by because 
it does not pick up well, and the lights are, of course, very 
straightforward. You will be under a green light for the first 
4 minutes, yellow light the last minute, and when it turns red, 
if you have not finished already, please quickly come to a 
conclusion.
    Mr. Dreher, you are now recognized for 5 minutes to present 
testimony on behalf of the U.S. Fish and Wildlife Service.

 STATEMENT OF ROBERT G. DREHER, ASSOCIATE DIRECTOR, U.S. FISH 
                      AND WILDLIFE SERVICE

    Mr. Dreher. Good afternoon, Chairman Fleming and Ranking 
Member Lowenthal, Ranking Member DeFazio, and members of the 
subcommittee. Thank you for giving me the opportunity to 
discuss the current wildlife trafficking crisis and its 
epicenter, the ongoing mass slaughter of elephants in Africa.
    I cannot overstate the urgency of this crisis. If not 
halted, it threatens to eliminate wild African populations of 
elephants within the next decade. The unprecedented nature of 
this threat requires us to act together with the international 
community to do everything we can both on the ground in Africa 
and in domestic and international markets to reduce the demand 
for ivory that fuels the killing.
    Spurred by President Obama's executive order, the national 
strategy for combatting wildlife trafficking leverages 
resources and expertise of the Federal Government to crack down 
on poaching and trafficking that is devastating elephants and 
many other irreplaceable wildlife species.
    As part of this multi-pronged approach, we have taken steps 
to increase our ability to disrupt and destroy trafficking 
networks and to build the capacity of range states to protect 
elephant populations.
    And here at home, after careful consideration, we are using 
the full extent of our legal authority to implement a near 
complete ban on commercial trade in elephant ivory. This is not 
just an African or Asian problem. The United States is a major 
consumer of ivory and continued commercial trade hampers our 
ability to identify and prosecute the criminals who are 
trafficking in illegal ivory.
    Ongoing criminal investigations and anti-smuggling efforts 
indicate that significant amounts of illegally imported 
elephant ivory are entering the domestic market, and those 
cases demonstrate that the legal ivory trade serves as a cover 
for illegal trade.
    The basic fact is that it is extremely difficult to 
differentiate legally acquired ivory from ivory derived from 
elephant poaching. In a recent case that the members of the 
committee have just referred to, United States v. Victor 
Gordon, our investigation documented the large-scale smuggling 
of newly acquired ivory from West Africa disguised deliberately 
to pass as old ivory and antique tribal carvings, resulting in 
the seizure of over one ton of elephant ivory.
    Victor Gordon, the owner of an African art and antique 
store in Philadelphia pleaded guilty to smuggling elephant 
ivory from Africa via JFK Airport, ivory that he then sold to 
buyers as antiques.
    The first step we took to restrict commercial trade in 
elephant ivory was the issuance of Director's Order 210, which 
reaffirmed the African Elephant Conservation Act's moratorium 
and the Endangered Species Act definition of ``antique.''
    Following the issuance of the Director's Order, we met with 
a wide array of stakeholders including individuals and groups 
representing antique dealers, auction houses, musical 
instrument makers, museums and orchestras. As a result of these 
constructive meetings, we revised the Director's Order to 
address several of their concerns, allowing a broader class of 
non-commercial items to be imported into the United States and 
clarifying how we intend to enforce the Endangered Species Act 
definition of ``antique'' while still maintaining our goal of 
ensuring that the United States is not contributing to the 
poaching of elephants and illegal trade in ivory.
    We also improved our ability to protect elephants, rhinos 
and other CITES listed wildlife by publishing a final rule 
revising our CITES regulations. Under this rule, which becomes 
effective on June 26, items such as elephant ivory imported for 
non-commercial purposes may not subsequently be sold within the 
United States.
    For African elephant ivory imported prior to 1990 when the 
African elephant was listed in CITES Appendix 1 and 
international commercial trade was largely prohibited, the 
burden is now on the seller to demonstrate that this ivory was 
imported prior to this date.
    We also plan to revise the Endangered Species Act special 
rule for the African elephant. This action, which will include 
proposed limitations on the interstate sale of African elephant 
ivory will also include a public comment period. Using our 
authority under the Endangered Species Act, we will also 
propose limiting the number of elephant sport hunted trophies 
that an individual can import to two per hunter per year.
    The combined result of these administrative actions would 
be the elimination of most commercial trade in elephant ivory 
in the United States, with certain narrow exceptions. Taking 
these measures will affirm and enhance United States leadership 
and support diplomatic efforts to encourage consumer nations to 
take additional actions to combat illegal trade.
    The United States is one of the world's major consumers of 
illicit wildlife products, and we must lead by example. I look 
forward to working with your subcommittee to address this 
urgent issue. Thank you.
    [The prepared statement of Mr. Dreher follows:]
Prepared Statement of Robert Dreher, Associate Director, U.S. Fish and 
              Wildlife Service, Department of the Interior
                              introduction
    Good afternoon Chairman Fleming, Ranking Member Sablan, and members 
of the subcommittee. I am Robert Dreher, Associate Director of the U.S. 
Fish and Wildlife Service (Service), within the Department of the 
Interior (Department). I appreciate the opportunity to testify before 
you today to discuss the current wildlife trafficking crisis, which 
includes an escalating mass slaughter of elephants in Africa. If it is 
not stopped, the world may well lose wild populations of African 
elephants forever.
    To combat wildlife trafficking, the Service is working toward 
implementing a near complete ban on commercial trade in elephant ivory. 
Given the escalating threats to African elephants, we believe that a 
near complete ban on commercial elephant ivory trade is the best way to 
ensure that U.S. domestic markets do not contribute to the decline of 
this species in the wild. The United States is among the world's 
largest consumers of wildlife, both legal and illegal. It is difficult 
to determine the exact market value of black market items such as 
illegally trafficked wildlife goods; however, we know that the United 
States remains a significant ivory market, and we must continue to be 
vigilant to prevent this from masking the illegal ivory trade. By 
stopping illegal ivory trade at home and assisting elephant range 
states and consumer countries around the world, we can have a 
significant positive impact on elephant conservation. These actions 
will affirm and enhance U.S. leadership and support diplomatic efforts 
to encourage additional efforts to combat illegal ivory trade in 
consumer nations.
              the poaching crisis and illegal ivory trade
    African elephants once numbered in the millions throughout Africa, 
but by 1990, uncontrolled hunting for their ivory tusks had driven the 
wild population to fewer than 500,000. This rapid population decline 
led to a ban on international ivory sales and trade in 1990 through the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES). Following the 1990 ban, populations of African 
elephants began to recover in some countries. However, a recent 
resurgence of elephant poaching in Africa, is again threatening this 
iconic species. Populations of both savannah and forest elephants have 
dropped precipitously, and poaching occurs across all of Africa. 
Africa's elephants are being slaughtered for ivory at rates not seen in 
decades due to increased demand for ivory in consumer countries. Some 
of this increase in the demand for ivory is attributed to improved 
economic conditions in traditional ivory markets such as China and 
other parts of East and Southeast Asia. In these markets, ivory 
carvings rate high as a status symbol for economic elites, and as more 
Asian consumers have the financial resources to purchase ivory, the 
demand for ivory is significantly increasing. Continued poaching at 
current rates threatens the existence of elephants in the wild.
    Wildlife trafficking was once a local or regional problem, and has 
now become a global crisis, as increasingly sophisticated, violent and 
ruthless criminal organizations have branched into wildlife 
trafficking. What was once predominantly a crime of opportunity 
committed by individuals or small groups is now committed by 
international criminal cartels that are well structured and highly 
organized. These cartels are capable of illegally moving orders of 
magnitude more in wildlife and wildlife products. This lucrative 
business has been tied to drug and cartels, militant groups, and human 
trafficking organizations, all of which are destabilizing influences in 
many African nations. These organized criminal enterprises are a 
growing threat to wildlife, the world's economy and global security. 
There is also a terrible human cost associated with these losses. For 
example, during the past few years, hundreds of park rangers have been 
killed in the line of duty in Africa.
    The United States continues to play a major role as a significant 
consumer and transit country for illegally traded elephant ivory, and 
we must be part of the solution. At this crucial moment, the United 
States has the opportunity to exercise leadership on this urgent issue 
and encourage other countries to step up efforts to combat wildlife 
trafficking.
     u.s. fish and wildlife service's role in addressing wildlife 
                              trafficking
    The Service provides key leadership and capacity in addressing 
wildlife trafficking. For decades, we have worked in countries across 
the globe to conserve imperiled wildlife and address illicit wildlife 
trade through our Office of Law Enforcement and International Affairs 
program. We have a four-tiered approach to combat wildlife trafficking, 
including: law enforcement; technical assistance; CITES; and demand 
reduction.
Law Enforcement to Target and Stop Illicit Trade
    The Service is the primary Federal agency responsible for enforcing 
U.S. laws and treaties that address international wildlife trafficking 
and protect U.S. and foreign species from unsustainable trade. Working 
with limited budgets and a special agent workforce of 205 agents which 
has not grown since the late 1970s, the Service has disrupted large-
scale trafficking in contraband wildlife ``commodities'' that range 
from elephant ivory and rhino horn to sturgeon caviar and sea turtle 
skin and shell. Service special agents use both overt and clandestine 
investigative techniques to detect and document international smuggling 
and crimes involving the unlawful exploitation of protected native and 
foreign species in interstate commerce.
    Since the mid-1970s, the Service has deployed a force of uniformed 
wildlife inspectors at major ports of entry across the Nation to check 
inbound and outbound shipments for wildlife. These 124 officers ensure 
that wildlife trade complies with the CITES treaty and U.S. laws. They 
also conduct proactive inspections of air cargo warehouses, ocean 
containers, international mail packages, and international passenger 
flights looking for smuggled wildlife.
    The Service operates the world's first and only full-service 
wildlife forensics laboratory--a lab that is globally recognized as 
having created the science of wildlife forensics. Guidance from the 
lab, for example, provided an easy way for officers in the field to 
distinguish elephant ivory from other types of ivory, such as mammoth 
or walrus ivory. The Service continues to support a fiscal year 2015 
budget request to expand research at our lab to make it easier to 
determine the origin or geographic source of illicit wildlife material, 
particularly for species threatened by current patterns of illegal 
trade. Such work enhances our ability to provide law enforcement and 
justice officials with evidence to more effectively prosecute wildlife 
crime.
    Service enforcement officers and forensic scientists have provided 
specialized training to wildlife enforcement counterparts in more than 
65 different countries since 2000. These capacity-building efforts have 
included teaching criminal investigation skills to wildlife officers 
from sub-Saharan Africa at the International Law Enforcement Academy in 
Botswana on a yearly or twice-yearly basis.
    Wildlife trafficking is increasingly a transnational crime 
involving illicit activities in two or more countries and often two or 
more global regions. Cooperation between nations is essential to 
combating this crime. With assistance from the State Department and 
USAID, we have created the first program for stationing Service law 
enforcement special agents at U.S. embassies as international attachees 
to coordinate investigations of wildlife trafficking and support 
wildlife enforcement capacity building. The first attachee began work 
in March 2014 in Bangkok, Thailand. We anticipate placing four 
additional attachees in key regions by the end of fiscal year 2014, 
including Asia, South America, and two in Africa.
    One example of the Service's law enforcement efforts in combating 
wildlife trafficking is Operation Crash. This Operation is a 
continuing, multi-district investigation into all aspects of the 
illicit trade in rhino horns led by the Service, Office of Law 
Enforcement's Special Investigations Unit and the U.S. Department of 
Justice. More than 200 Federal, State, and local law enforcement 
officers in 40 States and 10 foreign countries have assisted the 
investigators and prosecutors working on Operation Crash. Since 
February 2012, 21 individuals have been apprehended and charged with 
numerous offenses such as conspiracy, smuggling, money laundering, tax 
evasion, and making false documents as well as violations of the 
Endangered Species Act (ESA) and Lacey Act. Defendants have been 
sentenced to significant terms of imprisonment and the forfeiture of 
millions of dollars in cash, gold bars, rhino horn, and luxury vehicles 
and Rolex watches. In United States v. Zhifei Li, the ring-leader of a 
smuggling scheme was responsible for smuggling more than $4.5 million 
worth of illegal wildlife and wildlife products, including 30 
rhinoceros horns and carved objects made from rhinoceros horn or 
elephant ivory, and was sentenced to 70 months in prison and $3.5 
million forfeiture.
    Another example is a recent case, U.S. v. Victor Gordon, where our 
investigation documented the large-scale smuggling of newly acquired 
ivory from West Africa disguised to ``pass'' as old ivory and antique 
tribal carvings and resulted in the seizure of over one ton of elephant 
ivory. U.S. businessman Victor Gordon, the owner of an African art and 
antiques store in Philadelphia, pleaded guilty to smuggling elephant 
ivory from Africa via JFK--ivory that he then sold to buyers as 
``antiques.'' On June 4, 2014, he was sentenced to 30 months' 
imprisonment, to be followed by 2 years of supervised release. As part 
of that sentence, the court ordered Gordon to pay a fine of $7,500 and 
to forfeit $150,000, along with the approximately one ton of elephant 
ivory that was seized by agents from Gordon's Philadelphia store in 
April 2009.
Technical Assistance and Grants to Build In-Country Capacity
    The Service has a long history of providing technical assistance 
and grants to build in-country capacity for conservation of wildlife 
species. Through the Multinational Species Conservation Funds, the 
Service provides funding in the form of grants or cooperative 
agreements to projects benefiting African and Asian elephants, rhinos, 
tigers, great apes, and marine turtles in their natural habitats. A 
substantial portion of the funding awarded through the Multinational 
Species Conservation Funds is invested in projects aimed at combating 
wildlife crime through improved law enforcement, anti-poaching patrols, 
demand reduction, and economic alternatives. Several of the Service's 
global and regional programs, including Africa, Asia, and the Western 
Hemisphere, also directly address wildlife conservation efforts, 
including combating wildlife crime.
    Through the Wildlife Without Borders--Africa Program, a technical 
and financial partnership with USAID, the Service has supported the 
development of innovative methods to conserve wildlife and fight 
wildlife crime in Central Africa, including improvement of 
investigations, arrest operations, and legal follow-up. A number of 
projects are geared toward building in-country capacity and providing 
technical assistance to reduce the poaching of African elephants. The 
Service is committed to working with in-country partners to halt and 
reverse this trend, most notably in Gabon, where two-thirds of the 
forest elephants in Minkebe National Park have been killed since 2004, 
a loss of more than 11,000 elephants.
CITES and Illegal Wildlife Trade
    CITES, an international agreement among 180 member nations, 
including the United States, is designed to control and regulate global 
trade in certain wild animals and plants that are or may become 
threatened with extinction due to international trade. As the first 
nation to ratify CITES, the United States has consistently been a 
leader in combating wildlife trafficking and protecting natural 
resources. Without regulation, international trade can deplete wild 
populations, leading to extinction. The goal of CITES is to facilitate 
legal, biologically sustainable trade, whenever possible. But in some 
cases, no level of commercial trade can be sustainably supported.
    Though a longstanding priority for CITES Parties, the focus on 
combating elephant poaching and illegal ivory trade is more intense 
than ever before. In March 2013, at the most recent meeting of the 
Conference of the Parties (CoP16), eight countries--China, Kenya, 
Malaysia, the Philippines, Tanzania, Thailand, Uganda, and Vietnam--
that were identified as significant source, transit, or destination 
points for illegal ivory trade agreed to develop time-bound action 
plans to actively address illegal ivory trade.
    Also at CoP16, the CITES Parties recognized the importance of 
addressing the entire crime chain by adopting several decisions to 
ensure that modern forensic and investigative techniques are applied to 
the illegal trade in ivory. The CITES Parties agreed to provide more 
effective control over domestic ivory markets and government-held 
stockpiles, and to promote public awareness campaigns, including supply 
and demand-reduction strategies. The decisions agreed upon at CoP16 to 
address the elephant poaching crisis were a significant step in the 
right direction. The United States played a major role in the 
development of these decisions and actions, and is committed to playing 
a significant role in their implementation, including ensuring that 
countries are held accountable for failure to take meaningful actions 
to curb elephant poaching and illegal ivory trade.
Reducing Consumer Demand for Illegal Wildlife Products
    Most of the international conservation work funded by the Service 
has focused on on-the-ground protection of habitat and wildlife, 
including enforcement efforts, with the Service providing approximately 
$10 million annually to enhance and support wildlife conservation 
throughout Africa and Asia. In addition, the Service supports 
government and non-government partners with public awareness and 
demand-reduction campaigns in Asian consumer nations.
    Over the years, the Service has also worked to educate and inform 
U.S. consumers about the role they play in wildlife trafficking and the 
impacts of this illegal activity on animal and plant species around the 
world. These efforts have ranged from partnering with nongovernmental 
organizations on a long-running ``Buyer Beware'' campaign and 
commissioning our law enforcement officers to present outreach programs 
on wildlife trafficking at the local, State, and national levels, to 
using airport billboards and social media to engage the public on this 
issue.
    Using our extensive network and experience, we are developing a 
strategy for the Service's role in addressing consumer demand. This 
includes working with the private sector and governments in key 
consumer countries, including the United States, to build public 
awareness about the impacts of illegal trade on wildlife and the 
potential penalties for engaging in such activities. The Service is 
also taking other actions to encourage attitudinal and behavioral 
shifts, all leading to measurable reductions in demand for illegal 
wildlife products.
                            u.s. ivory crush
    As part of our effort to combat illegal ivory trafficking, on 
November 14, 2013, the United States destroyed its 6-ton stock of 
confiscated elephant ivory, sending a clear message that we will not 
tolerate wildlife crime that threatens to wipe out the African elephant 
and a host of other species around the globe. The destruction of this 
ivory, which took place near the Service's National Wildlife Property 
Repository on the Rocky Mountain Arsenal National Wildlife Refuge near 
Denver, Colorado, was witnessed by representatives of African nations 
and other countries, dozens of leading conservationists, and 
international media representatives.
    This ivory crush sparked a new sense of possibility and 
collaboration--that we can work together effectively to halt this 
crisis before it is too late. This action signaled the United States' 
commitment to combat wildlife trafficking, and was carried out, in 
part, to encourage other nations to do the same. Following the U.S. 
ivory crush, a number of other governments destroyed most of their 
stockpiles of seized ivory, including China, France, Chad, Belgium, and 
Hong Kong. We now are in a much better position to work with the 
international community to push for a reduction of ivory stockpiles 
worldwide, and crack down on poaching and illegal trade.
          president's executive order on wildlife trafficking
    The Administration recognized that if illicit wildlife trade 
continues on its current trajectory some of the world's most treasured 
animals could be threatened with extinction. In response to this 
crisis, on July 1, 2013, President Obama issued Executive Order 13648 
to enhance coordination of U.S. Government efforts to combat wildlife 
trafficking and assist foreign governments with capacity building.
    The Executive Order establishes a Presidential Task Force on 
Wildlife Trafficking charged with developing and implementing a 
National Strategy for Combating Wildlife Trafficking. The Task Force is 
co-chaired by the Department of the Interior, Department of Justice, 
and Department of State, and includes a dozen other departments and 
agencies. Drawing on resources and expertise from across the U.S. 
Government, we are working to identify new approaches to crack down on 
poaching and wildlife trafficking and to more efficiently coordinate 
our enforcement efforts with interagency and international partners. 
The Executive Order also establishes an Advisory Council on Wildlife 
Trafficking comprised of individuals with relevant expertise from 
outside the Government to make recommendations to the Task Force.
          national strategy for combating wildlife trafficking
    In accordance with the Executive Order, the Presidential Task Force 
produced a National Strategy for Combating Wildlife Trafficking. The 
National Strategy establishes strategic priorities and guiding 
principles to help focus and strengthen the U.S. Government's efforts 
to combat wildlife trafficking, and to position the United States to 
exercise leadership on this urgent issue. The strategic priorities 
include: (1) strengthening the enforcement of laws that protect 
wildlife; (2) reducing demand for illegal wildlife and wildlife 
products; and (3) working in partnership with governments, local 
communities, non-governmental organizations, the private sector, and 
others to enhance global commitment to combat wildlife trafficking.
    The Service is integrally involved in all of these priorities, but 
I would like to highlight a few areas of particular importance in our 
efforts to stem illegal wildlife trade.
     administrative actions to address the current poaching crisis
    The United States has several laws and regulations in place that 
can help to address the poaching crisis. African elephants are listed 
as threatened under the ESA and are also protected under the African 
Elephant Conservation Act (AECA). Nations across the world regulate 
trade in this species under CITES. Under these U.S. laws, it is 
generally illegal to:

    <bullet> Import African elephant ivory.
    <bullet> Export it without CITES documents.
    <bullet> Buy or sell unlawfully imported African elephant ivory in 
            interstate commerce.

    Asian elephants are listed as endangered under the ESA. Import, 
export, and interstate commerce in ivory and other parts and products 
are generally prohibited.
    Though there is some ivory trade in the United States involving 
antiques and legally acquired ivory imported prior to the 1989 AECA 
ivory import moratorium, we believe a substantial amount of elephant 
ivory is illegally imported and enters the domestic market. It is 
extremely difficult to differentiate legally acquired ivory from ivory 
derived from elephant poaching. Our criminal investigations and anti-
smuggling efforts have clearly shown that legal ivory trade can serve 
as a cover for illegal trade. In addition to the Victor Gordon case 
noted above, Service and State wildlife officers seized more than two 
million dollars-worth of illegal elephant ivory from two New York City 
retail stores in 2012.
    Following the release of the National Strategy, the Service has 
taken steps toward implementing a near complete ban on commercial trade 
in elephant ivory. The first of these steps was the issuance of 
Director's Order 210, which re-affirmed enforcement of the AECA 
moratorium and addressed how the Service would enforce importation 
under the ESA antiques provision.
    Following the issuance of Director's Order 210 on February 25, the 
Service met with a wide array of stakeholders, including individuals 
and groups representing antiques dealers, auction houses, musical 
instrument makers, museums, and orchestras. As a result of these 
constructive meetings, we revised the Director's Order to address 
several of their concerns, allowing a broader class of noncommercial 
items to be imported into the United States and clarifying how we 
intend to enforce the ESA antiques provision, while still maintaining 
our goal of ensuring that the United States is not contributing to 
poaching of elephants and illegal trade in ivory.
    In addition to the provisions in the Director's Order, we improved 
our ability to protect elephants, rhinos, and other CITES-listed 
wildlife by publishing a final rule revising our CITES regulations, 
including ``use after import'' provisions that limit sale of elephant 
ivory within the United States. Under this new rule, which becomes 
effective on June 26, 2014, items such as elephant ivory imported for 
noncommercial purposes may not subsequently be sold within the United 
States. For African elephant ivory imported prior to 1990, when the 
African elephant was listed in CITES Appendix I and commercial 
international trade was generally prohibited, the burden is now on the 
seller to demonstrate that this ivory was imported prior to 1990. These 
regulations were previously published as a proposed rule with 
opportunity for public comment.
    In the coming months, we will also publish a proposed rule to 
revise the ESA special rule for the African elephant (50 CFR 17.40(e)). 
This action, which will include proposed limitations on the interstate 
sale of African elephant ivory, will also include a public comment 
period. Using our authority under the ESA, we will also propose 
limiting the number of elephant sport-hunted trophies that an 
individual can import to two per hunter per year.
    The combined result of these administrative actions would be the 
elimination of most commercial trade (import, export, and interstate 
and intrastate sale) in elephant ivory, with certain narrow exceptions. 
Taking these measures will establish U.S. leadership and support 
diplomatic efforts to encourage additional efforts to combat illegal 
trade in consumer nations. The United States is one of the world's 
major consumers of illicit wildlife products, and we must lead by 
example. These actions are also consistent with recent CITES 
recommendations adopted at CoP16.
Assess and Strengthen Legal Authorities
    While the Service is pursuing administrative actions to address the 
poaching crisis, the National Strategy also calls on Congress to 
consider legislation to recognize wildlife trafficking crimes as 
predicate offenses for money laundering. This action would be 
invaluable to the Service's law enforcement efforts because it would 
place wildlife trafficking on an equal footing with other serious 
crimes. It would also provide our special agents with the same tools to 
investigate serious crimes that other Federal law enforcement agencies 
have. This legislative change would help take the profit out of the 
illegal wildlife trade and end the days of wildlife trafficking being a 
low-risk, high-profit crime. Strong penalties provide a deterrent and 
assist the U.S. Government in unraveling complex conspiracies and 
combating trafficking. Offenders facing significant penalties are more 
likely to become key cooperating defendants than those facing a light 
penalty.
Save the Vanishing Species Semipostal Stamp
    The National Strategy recommends continuing the sale of the Save 
the Vanishing Species Semipostal stamp. This stamp, which went on sale 
on September 20, 2011, has been providing vital support for the 
Service's efforts to fight global wildlife trafficking and poaching. 
More than 25.5 million stamps have been purchased by the American 
public online and at their local post offices, generating more than 
$2.5 million for conservation. This money has been used to support 47 
projects in 31 countries in Africa, Asia, and Latin America to conserve 
elephants, rhinos, tigers, marine turtles, and great apes. These funds 
have been leveraged by an additional $3.6 million in matching 
contributions--making the stamp a key part of the United States' 
efforts to protect wildlife and address the ongoing worldwide epidemic 
of poaching and wildlife trafficking.
    The continued sale of the Save the Vanishing Species Semipostal 
stamp is authorized by legislation enacted by Congress. However, the 
requirement to sell the stamp for at least 2 years has expired and the 
Postal Service has discontinued the sale of the stamp at this time. 
Continuing to sell the stamp would extend an opportunity for the 
American public to support wildlife conservation abroad by directly 
contributing money to help rhinos, tigers, elephants, sea turtles, and 
great apes.
                               conclusion
    I would like to thank the subcommittee for your support of our 
efforts to combat wildlife trafficking. I want to leave you by asking 
you to consider this moment in history--and the choice we must all make 
as human beings and global citizens. We have a chance here, and now, to 
build on this National Strategy to ensure a secure future for 
elephants, rhinos, and hundreds of other wild plant and animal species. 
How will we answer when our grandchildren ask why some of these 
magnificent creatures no longer exist in the wild? I want to be able to 
tell them that the Service did everything we could to keep these 
amazing species from vanishing from our planet. I look forward to 
working with your subcommittee to make it a reality.
    Thank you for the opportunity to present testimony today. I would 
be pleased to answer any questions that you may have.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Dreher.
    Next the Chair recognizes Mr. Tendaupenyu for 5 minutes.

  STATEMENT OF ITAI HILARY TENDAUPENYU, PRINCIPAL ECOLOGIST, 
        ZIMBABWE PARKS AND WILDLIFE MANAGEMENT AUTHORITY

    Mr. Tendaupenyu. Thank you, Mr. Chairman and your 
committee, for affording me this opportunity to testify before 
this subcommittee.
    I am a principal ecologist here on behalf of the Director 
General of the Zimbabwe Parks and Wildlife Management 
Authority, an organization mandated to manage Zimbabwe's 
wildlife heritage.
    The suspension of April 4, 2014 by the U.S. Fish and 
Wildlife Services of all imports of African elephant trophies 
taken in Zimbabwe during the 2014 hunting season came without 
prior notice or engagement with the Government of Zimbabwe and 
did not have any scientific basis.
    The Service alluded to the fact that legal well regulated 
sport hunting as part of a sound management program can benefit 
the conservation of listed species by providing incentives to 
local communities and to conserve the species by putting much 
needed revenue back into conservation. The suspension acts as a 
contradiction to this.
    To establish the status of African elephant in Zimbabwe, 
systematic aerial surveys, waterfall and road counts, and 
ranger-based data collection and monitoring are used. In the 
four major elephant geographical ranges, the Northwest 
Matabeleland has an estimated population of 50,000 elephants; 
the Mid-Zambezi, 30,000; Sebungwe, 15,000; and the South-East 
Lowveld, 12,5000 according to a 2013 aerial survey. The surveys 
indicate a stable increasing elephant population.
    The ban has huge negative, social and economic impacts in 
Zimbabwe. Sixty-seven percent of elephant quota goes to local 
communities, and the private sector, 50 percent of which goes 
directly to communities. The ban will result in the loss of 
income to local communities who are the most vulnerable groups.
    The collapse of the hunting industry will result in the 
loss of income and employment to supporting services and will 
also result in an increased human elephant conflict due to 
reduced elephant ranges. Reduced funding for poaching efforts 
will result in increased poaching, hence increased decimation 
of all live populations.
    ZimParks manages 50,000 square kilometers, approximately 13 
percent of Zimbabwe, and has a statutory obligation to manage 
wildlife conservation beyond state protected areas. It receives 
no fiscal funding, and all of its revenue is generated from 
sustainable conservation activities and through limited donor 
support. The hunting industry contributes 30 percent of annual 
revenue generated and is used to fund conservation efforts.
    We should note that hunters on the ground also act as a 
first line of defense against poaching, through ground 
intelligence and surveillance, hence, act as a deterrent to 
poaching.
    The ban will affect resource protection activities, problem 
animal management, fire management, law enforcement, and 
environmental education and awareness campaigns.
    The Communal Area Management Program for Indigenous 
Resources, CAMPFIRE, is a brainchild of ZimParks and is a world 
renowned success story. It is a national strategy established 
with the primary purpose of helping rural communities to 
sustainably manage the natural and cultural resources, derived 
income from the resource, and determine how the income will be 
utilized.
    Fifty-eight out of 60 districts in Zimbabwe participate in 
the program. Ninety percent of CAMPFIRE revenue comes from 
sport hunting, 70 percent of which is from elephant hunting.
    CAMPFIRE income is used for community projects in the 
fields of education, health, and other livelihood support 
services in rural areas, and meat from sport hunting also 
benefits rural communities.
    The benefits from sustainable use of wildlife resources 
have served to increase the confidence of communities in 
wildlife management, thereby improving tolerance and survival 
of wildlife species. The guidelines for CAMPFIRE by the 
Government of Zimbabwe emphasize that communities must at all 
times receive the highest benefits.
    Once elephants are no longer economically important to 
local communities, those communities will have no incentive to 
tolerate elephants and protect them.
    Sixty percent of hunters in Zimbabwe are U.S. clients or 
citizens. I beg your pardon. The suspension already resulted in 
American hunting clients wanting to move their safaris 
elsewhere, which will result in loss of income to safari 
operators, professional hunters and guides, and also have 
downstream effects. It should be noted that the sector 
contributes significantly to anti-poaching funding.
    Since the Fish and Wildlife Service cited lack of current 
information on the status and management of elephants within 
Zimbabwe and that the suspension could be lifted after the 
Service had received sufficient information, ZimParks 
officially responded on April 17, 2014, addressing all 
questions that had been raised and supplying a host of 
pertinent additional information.
    Meetings have also been held between the Service, ZimParks, 
CAMPFIRE and safari operators together with the private sector, 
and to date no feedback has been received on these engagements.
    We strongly urge the Fish and Wildlife Service to reverse 
the suspension which clearly has negative impacts to 
livelihoods and conservation, and appeal to them to work with 
Zimbabwe in strengthening conservation efforts in a 
constructive manner. Shutting down the trade is not the 
solution. The ban will result in irreparable damage to wildlife 
conservation, our heritage and lead to impoverishment of rural 
communities.
    It will also lead to the reversal of the gains that we have 
achieved thus far in conservation.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Tendaupenyu follows:]
  Prepared Statement of Itai Hilary Tendaupenyu, Principal Ecologist 
 Representing the Director General of the Zimbabwe Parks and Wildlife 
                          Management Authority
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today to share my views on behalf of 
the Zimbabwe Parks and Wildlife Management Authority regarding the 
recent importation ban imposed by the U.S. Fish and Wildlife Service 
(USFWS) on sport-hunted elephants from Zimbabwe.
    My name is Itai Hilary Tendaupenyu. I am a Principal Ecologist 
representing the Director General of the Zimbabwe Parks and Wildlife 
Management Authority (``ZimParks''). ZimParks' mission is to conserve 
Zimbabwe's wildlife heritage through effective, efficient and 
sustainable utilization of natural resources for the benefit of present 
and future generations and stakeholders. We strive to be the world 
leader in sustainable conservation.
    ZimParks, much like the USFWS, has a mandate to manage the entire 
wildlife population of Zimbabwe, whether on private or communal lands. 
Although private landowners may utilize the wildlife on their land, 
they are still accountable to ZimParks for the welfare of the animals. 
Mandated with the protection, management and administration of the 
wildlife of Zimbabwe, ZimParks has a proud history of sound management 
that endeavors to conserve the unique flora and fauna heritage of 
Zimbabwe.
    Zimbabwe welcomes President Obama's directive that U.S. Government 
executive departments and agencies assist foreign nations in building 
capacity to combat poaching of protected species and the illegal trade 
in wildlife. Although we agree with the goals of the directive, we do 
not agree with some of the strategies the USFWS has used to implement 
the directive. Instead of working with our wildlife management 
authorities, your FWS has made unilateral decisions and has issued 
edicts. The National Strategy on Wildlife Trafficking and the Advisory 
Council should guide international partnerships with nongovernmental 
organizations, local communities, and the private sector to promote 
mechanisms that prevent poaching and illegal trade, rather than make 
decisions without including these important partners. Instead of 
collaborating with and assisting those who are directly involved with 
the day-to-day effort to combat illegal wildlife trafficking, the 
decisions recently made by the United States have undermined Zimbabwe's 
conservation efforts and the success of programs like CAMPFIRE, its 
revenue stream, and its anti-poaching work.
    Sport-hunting and the revenue it generates for Zimbabwe and its 
people play a significant role in the conservation of Zimbabwe's 
wildlife. Revenue from sport hunting is paid directly to ZimParks and 
the Forestry Commission (depending on where the hunting takes place). 
Revenue is generated from auction bids for the right to hunt on some 
lands, hunting lease fees (concession fees), trophy fees, and daily 
rates paid by hunters. Those sources of revenue contribute wholly to 
the conservation budget of ZimParks and the Forestry Commission. They 
also contribute to revenue generated on communal lands (see CAMPFIRE 
discussion below). A significant portion of the revenue from sport-
hunting comes from U.S. hunters. Zimbabwe's elephant conservation 
efforts and its anti-poaching strategies derive tremendous benefit from 
these sources.
    Hunting often occurs in areas that are too dry for agriculture 
pursuits and non-hunting tourism. Without hunting, such areas would be 
prone to poaching due to the absence of human activity. Hunting brings 
accessibility to such remote areas in terms of roads, airstrips, and 
water development, thus making the areas economically, environmentally, 
and socially beneficial.

1.0 BACKGROUND

    On April 4, 2014, the United States Fish and Wildlife Service 
(USFWS) issued a press statement whilst simultaneously informing 
Zimbabwe of the temporary suspension of all imports of African elephant 
trophies taken in Zimbabwe during the 2014 hunting season. The USFWS 
did not send Zimbabwe a request for information about these issues 
until the very day that they announced the ban. The USFWS in their 
communication advised that they could not make a positive finding that 
the importation of elephant sport-hunted trophies would enhance the 
survival of the species as required under their Endangered Species Act 
(ESA) and the African Elephant Conservation Act (AECA), both being 
stricter domestic measures. They also cited lack of current information 
on the status and management of African elephants within Zimbabwe and 
that the suspension could be lifted after the Service had received 
sufficient information.
    To date, the Zimbabwe Parks and Wildlife Management Authority 
(ZimParks) officially responded on the April 7, 2014 to the USFWS 
addressing all questions that had been raised and supplying a host of 
pertinent additional information. Meetings have also been held in 
Washington, DC between USFWS officials, ZimParks and representatives of 
communities (CAMPFIRE), Safari Operators and the private sector from 
Zimbabwe. The USFWS has now had these materials for 6 weeks and yet, 
has made no effort to lift the ban that they based on what they claimed 
to be a lack of information. Now that they have had adequate time to 
review the information we provided, Zimbabwe would like to see the ban 
immediately lifted.
    In all our submissions, we have been very clear and consistent 
about our displeasure with the manner in which this unilateral 
suspension was handled without prior engagement and notification, lack 
of transparency and science-based evidence to support this. We believe 
we have not been respected in all these processes.
    Whilst the USFWS alluded to the fact that legal, well-regulated 
sport hunting, as part of a sound management programme, can benefit the 
conservation of listed species by providing incentives to local 
communities and to conserve the species by putting much needed revenue 
back into conservation, the suspension acts as a contradiction to all 
this.

2.0 THE STATUS OF AFRICAN ELEPHANT POPULATION IN ZIMBABWE

    There are four major elephant geographical ranges in Zimbabwe 
namely North-West Matabeleland, Mid Zambezi Valley, Sebungwe and South-
East Lowveld. These ranges cover different land tenure categories in 
Zimbabwe which include state protected areas (parks estate and 
indigenous forest areas) privately owned land and communal lands. 
Systematic aerial survey and sampling techniques are used to estimate 
elephant numbers throughout the four major geographical ranges in 
Zimbabwe. A national aerial survey of large mammals that was last 
conducted in 2001, estimated the elephant population to be 88,123. 
Partial surveys that have been done over years through aerial surveys, 
waterhole and road counts as well as ranger based data collection and 
monitoring show an increasing trend in elephant populations in 
Zimbabwe. A national aerial survey for large mammals to determine the 
current population of elephants is planned for the 2014 dry season with 
funding from Paul G. Allen through an NGO ``Elephants Without Borders'' 
based in Botswana.

3.0 ELEPHANT DISTRIBUTION IN ZIMBABWE

    The distribution of elephants in terms of geographical ranges 
Zimbabwe is shown on Appendix 1.
3.1 North West Matabeleland

    This area constitutes the range for the largest elephant sub-
population in Zimbabwe occupying the Hwange-Matetsi Complex including 
several Forest Areas as well as Hwange and Tsholotsho communal areas. 
Based on national survey conducted in 2001, the elephant population for 
this area is now estimated to be 50,000.
3.2 Mid-Zambezi Valley

    The elephant sub-population in the area occupies the Parks and 
Wildlife Estate between Lake Kariba and Kanyemba. Based on national 
survey conducted in 2001, the elephant population for this area is now 
estimated to be 20,000.
3.3 The Sebungwe

    This area forms part of the elephant range and unlike other 
populations in Zimbabwe is largely closed, being isolated by Lake 
Kariba and surrounded by human settlements. Based on a survey conducted 
in 2006, the elephant population for this area was estimated to be 
15,000.
3.4 The South-East Lowveld

    This area forms part of the elephant range covering Gonarezhou 
National Park, Save Valley Conservancy, Bubye Valley Conservancy and 
the surrounding communal lands. Based on aerial surveys done in 2013, 
the elephant population for this area was estimated to be 12,500.

4.0 IMPLICATIONS OF THE SUSPENSION FOR ZIMBABWE

    The Zimbabwe Parks and Wildlife Management Authority was stunned by 
the unilateral decision by the United States Fish and Wildlife Services 
(USFWS) to suspend imports from elephant trophies hunted in Zimbabwe 
for the year 2014. This decision was taken without prior written notice 
or engagement with the Government of Zimbabwe. The suspension of 
imports of hunting trophies from Zimbabwe will have huge negative 
social and economic impacts on the national and local economies. 
Approximately, 67 percent of the annual elephant export quota is 
allocated to local communities and private sectors with more than half 
of this going to local communities. Sport hunting takes place in Safari 
Areas falling under the Parks and Wildlife Management Authority, 
Indigenous Forest Areas managed by the Forestry Commission, the 
Communal Lands where the Communal Areas Management Programme of 
Indigenous Resources (CAMPFIRE) occurs and the Private Game Farms and 
Conservancies.
    The CAMPFIRE programme has created expanded wildlife range. 
However, its collapse through the ban will reverse this situation and 
create increased human and wildlife conflict since the buffer for human 
and wildlife conflict would have been removed and ultimately there will 
be increased illegal off take in the core range. This move will 
certainly impact on wildlife conservation, the economy, community 
livelihoods and the effects of this ban are explained below;
4.1 Impacts of Suspension on the Parks and Wildlife Management 
        Authority

    The principal and most important form of utilization of elephants 
in Zimbabwe is safari or trophy hunting. Suspension on imports from 
elephant trophies hunted in Zimbabwe for the year 2014 and their 
products has adverse impact on the economic development by destroying 
the safari hunting industry which is anchored on a few key species of 
which the elephant is included. Since inception, the Parks and Wildlife 
Management Authority has not been receiving any funding from the Fiscus 
or Central Government budget to fund day-to-day operational activities. 
The Authority currently generates its income for funding operations 
from sustainable conservation practices including sport hunting which 
contributes 30 percent of the total income. The Authority is expected 
to raise enough financial resources and mobilize other resources for 
wildlife conservation within and outside state protected areas. The 
consequences of this ban will be deteriorating infrastructure and 
equipment due to resource constraints and increased illegal harvesting 
of the natural resources due to limited funding for resource protection 
and reduced community benefits through the CAMPFIRE programme. The 
Parks and Wildlife Act Chapter 20:14 as amended legally defines six 
categories of Protected Areas under the jurisdiction of the Parks and 
Wildlife Management Authority (Appendix 2). The six categories are 
National Parks, Safari Areas, Recreational Parks, Botanical Reserves 
and Gardens and Sanctuaries which in total cover about 13 percent of 
the country (5 million hectares).
    The Authority has also a statutory obligation to manage wildlife 
conservation outside state protected areas and this entails undertaking 
functions such as problem animal control, fire management, law 
enforcement, environmental education and awareness campaigns, as its 
contribution to safeguarding our natural heritage, public safety and 
security, food security, etc. The costs of all these activities are 
borne by the Authority without any financial benefits at a time when 
the Authority is expected to be financially viable.
    The Communal Areas Management Programme for Indigenous Resources 
(CAMPFIRE), a brainchild of the Authority (then Department of National 
Parks and Wildlife Management) is a national strategy that was 
established with the primary purpose of helping rural communities to 
sustainably manage their natural and cultural resources, derive income 
from the resource and determine how the income would be utilized. Out 
of Zimbabwe's total land area of 390,757 km<SUP>2</SUP>, CAMPFIRE 
manages about 49,700 km<SUP>2</SUP> or 12.7 percent of the country. 
CAMPFIRE manages for purposes of both wildlife conservation and other 
natural resources in areas with mostly rural communities. The basic 
premise of CAMPFIRE is that financial incentives are critical to the 
conservation and sustainable use of the country's wildlife and other 
natural resources. Natural resources in communal lands are communally 
owned. CAMPFIRE was designed as the answer to the management of this 
communally owned resource and an intervention that would prevent a 
chaotic situation derived from an open access regime. The demise of 
this community based natural resource management programme will 
therefore reverse the achievements of this programme.
4.2 Impacts of Suspension on the CAMPFIRE Programme

    Financial benefits from sustainable use have served to increase the 
confidence of communities in wildlife management, thereby improving 
tolerance and survival of wildlife species. Safari hunting is the key 
driver for Communal Areas Management Programme for Indigenous Resources 
(CAMPFIRE). Safari hunting benefits from large communal areas that are 
close to wildlife protected areas, have low density human populations 
and are set aside as concession areas leased for the purpose of sport 
hunting activities. CAMPFIRE was operationalized through the giving of 
Appropriate Authority status (AA) to the Rural District Councils. In 
the Parks and Wildlife Act of 1975 (Amendment of 1982), the AA is 
bestowed on the land holder and the RDC is the land holder in communal 
lands. Communities are only land occupiers under the jurisdiction of 
the RDC. Fifty-eight out of sixty districts in the country participate 
in CAMPFIRE.
    The Guidelines for CAMPFIRE issued by Government of Zimbabwe 
underline the fact that CAMPFIRE is a community programme and based on 
this understanding stipulate that, communities must at all-time receive 
the highest benefits. The guidelines also stipulate that if RDCs fail 
to deliver to the communities there is the need to have the AA status 
reviewed and or withdrawn.

    In this regard the guidelines stipulate the following:

  (i)  Not less than 55 percent of gross revenue shall go to producer 
            communities.

  (ii) RDCs shall receive a maximum of 26 percent of gross revenue for 
            the purpose of managing the Appropriate Authority status on 
            behalf of the communities. This entails law enforcement, 
            monitoring and capital development for wildlife.

  (iii) The CAMPFIRE Association shall receive 4 percent of the gross 
            revenue.

  (iv) RDCs also get 15 percent of gross revenue. This is to cover 
            overhead costs.

    In CAMPFIRE areas, a significant portion of the revenue generated 
from sport hunting is re-invested in wildlife conservation. It is 
noteworthy that revenue from elephant hunting contributes approximately 
60 percent of total earnings by Rural District Councils annually. On 
average, US$1.5 million per year in net income directly benefits local 
communities. This income is derived from the lease of sport hunting 
rights to safari operators. A lesser proportion of income is generated 
from tourism leases on communal land, and other natural resources 
management activities. Up to 90 percent of CAMPFIRE revenue comes from 
sport hunting and it is important to highlight that elephant hunting 
contributes more than 70 percent of CAMPFIRE's annual revenue. If 
hunting is no longer an economically viable form of land use, 
communities will choose pastoralism and unviable agriculture, which 
reduces habitat available for elephants. Taking space away from 
elephants means more human and elephant conflict and as a result, more 
retaliatory killing of elephants, poaching and collusion with poaching 
syndicates. Local communities will only find an incentive to protect 
elephants if they can derive economic value from such a resource.
    The ban will negatively affect Zimbabwe's efforts to meet the 
United Nations Millennium Development Goals through poverty reduction 
and rural development. The CAMPFIRE programme heavily relies on 
elephant trophy hunting for sustainable wildlife conservation. Apart 
from funding conservation, CAMPFIRE income is used, for community 
projects in the fields of education, health and other livelihood 
support services, in rural areas. Other benefits from elephant hunting 
include meat which is availed to rural communities providing the much 
needed protein in communal areas. The ban on elephant trophy imports 
into USA will result in reduced benefits flow to local communities in 
Zimbabwe (through the CAMPFIRE program). With the diminishing wildlife 
value, local communities may not support any conservation efforts and 
instead human-wildlife conflicts will be heightened and more wildlife 
land might be turned into other land use options that are deemed 
profitable by communities.
    Human and elephant conflict has been on the increase in most of the 
areas adjacent to the major elephant range. Appendix 3 indicates the 
extent of human-elephant conflict in four hot spot districts for the 
period 2009 to 2011. In addition to the loss and injury to human life, 
communities adjacent to wildlife areas suffer the following:

    <bullet> Destruction of crops which affects both the quality and 
            quantity of harvests and impacting negatively on food 
            security;

    <bullet> Destruction of property;

    <bullet> Depletion of water sources;

    <bullet> Destruction of water infrastructure;

    <bullet> Reduced grazing land;

    <bullet> Restricted access to essential commodities such as 
            firewood;

    <bullet> Loss of opportunities to carry out other activities due to 
            time spent guarding crops and property.

    The strongest and most efficient way to combat illegal trafficking 
of wildlife and wildlife products in communal areas is to provide local 
communities with the incentive to participate in the war against 
poaching. Furthermore, the best way to engage communities is to 
increase the value of wildlife above the value of these animals to 
poachers and to the illegal trafficking trade. Once elephants are no 
longer economically important to local communities, those communities 
will have no incentive to keep elephants and protect them.
5.3 Impact on the Private Wildlife Sector

    The local safari hunting industry, constituted by a healthy balance 
of indigenous and non-indigenous players will have huge losses in 
revenue as the hunts for the 2014 season had already been marketed. 
More than 50 percent of hunting clients coming to Zimbabwe every year 
are from the U.S. market. Besides direct benefits from safari hunting 
such as cash and employment, indirect benefits arise from the 
multiplier effect in downstream activities such as taxidermists, 
dipping and packing companies, freight companies, ivory manufacturers 
etc. The annual CITES export quota for Zimbabwe is a maximum of 500 
elephants (or 500 pairs of tusks). Between 2005 and 2009 total hunting 
receipts peaked $360,125,327 over the 5-year period (Reserve Bank of 
Zimbabwe figures). This translates to an average of $72,025,065 per 
year. Of the total hunting revenue in the country, elephant hunting 
contributes in excess of USD$14 million every year. Furthermore, sport 
hunters are the first line of defense and the most important factor in 
ground intelligence, surveillance and a deterrent to poaching. It is 
therefore clear that the collapse of the hunting sector will have a 
negative impact on conservation efforts.

6.0 RECOMMENDATIONS

    Elephant sport hunting and hunting in general in Zimbabwe 
contributes significantly to the national economy and should therefore 
be promoted. It has been demonstrated that the elephant as one of the 
Big Five, is the backbone for the hunting industry in the country. 
Hunting is therefore crucial to the flow of revenue for conservation 
and all the benefits to communities in terms of employment, community 
projects and protein. The aggregate effect of elephant hunting to 
communities is the reduction of poverty and improved living standards. 
In light of this, we strongly appeal the USFWS to reconsider the policy 
of banning the commercial trade in elephant ivory taking note of the 
serious negative consequences of such a policy. Zimbabwe earnestly 
looks forward to a favorable review of the suspension of the 
importation of Zimbabwe's sport hunted elephant trophies taken in 2014.

* Supporting materials are attached as Appendices 4-6.

                 Appendix 1: Elephant Range in Zimbabwe
[GRAPHIC] [TIFF OMITTED] T8502.001

   .epsAppendix 2: Categories and Numbers of Protected Areas in the 
                                Zimbabwe


------------------------------------------------------------------------
                                                   Number of Protected
          Category of Protected Area                      Areas
------------------------------------------------------------------------
National Parks................................                       11
Recreational Parks............................                       16
Sanctuary.....................................                        6
Safari Areas..................................                       16
Botanical Reserves............................                       14
Botanical Gardens.............................                        3
 
    TOTAL.....................................                       66
------------------------------------------------------------------------


 Appendix 3: Human and Wildlife Cases for Four Hotspot Districts from 
                              2009 to 2011


----------------------------------------------------------------------------------------------------------------
                      District                          Number of Cases      Humans Killed      Humans Injured
----------------------------------------------------------------------------------------------------------------
Binga...............................................                 36                   8                   0
Mbire...............................................                  6                   5                   1
Hwange..............................................                289                   2                   1
Tsholotsho..........................................                 41                   0                   0
 
    TOTAL...........................................                372                  15                   2
----------------------------------------------------------------------------------------------------------------


                          SUPPORTING MATERIALS

    Appendix 4: Zimbabwe Professional Hunters and Guides Association
[GRAPHIC] [TIFF OMITTED] T8502.002

.eps[GRAPHIC] [TIFF OMITTED] T8502.003


        .epsAppendix 5: Safari Operators Association of Zimbabwe
[GRAPHIC] [TIFF OMITTED] T8502.004

.eps[GRAPHIC] [TIFF OMITTED] T8502.005

.eps[GRAPHIC] [TIFF OMITTED] T8502.006

.eps[GRAPHIC] [TIFF OMITTED] T8502.007

.eps[GRAPHIC] [TIFF OMITTED] T8502.008


   .epsAppendix 6: Professional Hunters' Association of South Africa
[GRAPHIC] [TIFF OMITTED] T8502.009

.eps[GRAPHIC] [TIFF OMITTED] T8502.010


                                 .eps__
                                 

    Dr. Fleming. Thank you, Mr. Tendaupenyu.
    At this point we will begin Member questioning. To allow 
all Members to participate and to ensure we can hear from all 
of our witnesses today, Members are limited to 5 minutes for 
their questions. However, if Members have additional questions, 
we can have more than one round and we usually do.
    I now recognize myself for 5 minutes.
    Mr. Dreher, how long have you been with the service?
    Mr. Dreher. I have been with the Service for just about a 
month.
    Dr. Fleming. Just about a month. OK. Is there a significant 
problem with illegal, that is, I guess, smuggling, illegal 
transfer of ivory into the United States?
    Mr. Dreher. Yes.
    Dr. Fleming. OK. In a statement by your Service--September 
2012, Fact Sheet, indicating ``we do not believe that there is 
a significant illegal ivory trade into this country.''
    Can you explain?
    Mr. Dreher. I think we have had since that time substantial 
law enforcement evidence of illegal activity coming into the 
country.
    And let me add, by the way, Mr. Chairman, that I came to 
the Service from a position as the Acting Assistant Attorney 
General for the Environment and Natural Resources for the 
Department of Justice, and the Department of Justice, of 
course, prosecutes these criminals.
    Dr. Fleming. Right. But to save time here, instead of going 
through your resume, the point is: what significant thing has 
occurred? What disaster has occurred in the last 2 years?
    Mr. Dreher. Well, first the disaster, I think, is the 
mounting awareness of the crisis in the killing of elephants in 
Africa. What we are seeing in terms of law enforcement, Mr. 
Chairman--I do not intend to be evasive--in law enforcement we 
are seeing mounting evidence in our law enforcement operations 
of substantial illegal importing of ivory into this country.
    Dr. Fleming. OK. Now, last month, this is from the Federal 
Register. This is last month. ``We do not believe it is 
necessary for ensuring the conservation and sustainable use of 
the species to retroactively apply current import-export 
restrictions to domestic activities involving specimens that 
were legally imported prior to the imposition of those 
restrictions.''
    So, again, 2012 there was not a problem. In fact, I heard 
the Acting Ranking Member mention that the United States is the 
second most illegally transferred Nation while, in fact, CITES 
says in 2013--I am sorry--2014, it is not among the top eight. 
In fact, it is not even listed at all.
    So why is it that all of a sudden after years of things 
being fine in terms of not what is happening in those 
countries, in Africa, but what is happening here, the illegal 
importation of ivory?
    2012, 2013, 2014, no problems. All of a sudden you are here 
a month and you say there are huge problems. What has happened 
in the last month?
    Mr. Dreher. Well, let me again say that I have been 
responsible for prosecuting these criminals for much longer 
than a month in my role at the Justice Department, but in 
answer to your question about what has changed in our 
perspective, first, the United States as a government has 
recognized the importance of taking all steps possible----
    Dr. Fleming. Again, sir, you are not answering my question. 
My question is what has changed in recent history. What is new?
    Has the crime rate tripled, quadrupled? What has happened 
here?
    Have your prosecutions--and we will check this--have your 
prosecutions increased? Have you sent many more, scores of more 
people to prison as a result?
    What is different?
    Mr. Dreher. Well, as I explained, I think our law 
enforcement operations are, in fact, detecting the illegal 
import of African----
    Dr. Fleming. You think it is. It does not matter what you 
think. I want to know what is documented. What is documented 
that has happened in the last 2 years to make Fish and Wildlife 
say one thing in 2012, that there is no significant problem, 
and you all of a sudden, you are here on-line for a month, and 
you say there is a significant problem?
    What has happened? Tell me what is different.
    Mr. Dreher. The evidence we have seen from our law 
enforcement operations, which includes, for example, the 
prosecution and----
    Dr. Fleming. Well, what is it?
    Mr. Dreher [continuing]. And incarceration of----
    Dr. Fleming. I know you are saying that, but what is the 
evidence?
    Mr. Dreher. A ton of illegally imported ivory disguised to 
look like antiques seized in a case that we have just discussed 
before you.
    Dr. Fleming. One case.
    Mr. Dreher. Two tons of illegally imported ivory seized at 
JFK Airport in 2012. These are not the only law enforcement 
operations that have shown evidence of illegal import of 
disguised ivory into this country.
    Our law enforcement officials believe that this is a 
significant problem, and we are doing everything we can to 
address it.
    Dr. Fleming. So as a result of one or two cases of 
significant, substantial amounts that you claim today--we have 
not seen the evidence of it, documentation of it--you are 
saying that we should now deem all owners of ivory, perhaps 
owning it for generations in their families, that it no longer 
has any value, cannot be transferred to someone else, and that 
the burden is on that individual to prove that it is legal 
ivory, which is impossible in most cases, because of something 
that happened in the last year or so?
    Mr. Dreher. If I may remind you, sir, the policy of the 
United States expressed in the Endangered Species Act generally 
is that trade in endangered species is prohibited, and there 
are exceptions to that. We have a special rule for African 
elephants. The special rule was adopted many years ago when it 
was not as obvious as it is today.
    Dr. Fleming. Well, I am out of time. Again, you are not 
coming forward with any real information.
    I yield to the Ranking Member for questions.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I just want to clarify something. When I talked about in my 
opening statement in the past year over 35,000 elephants and 
1,000 rhinoceroses have been killed illegally for their tusks 
and horns, the issue about where we rank is clearly this. Where 
does the United States rank in terms of a market for ivory?
    Do not talk about legal-illegal. We are just talking about 
a market. Where are we in terms of that world market?
    Mr. Dreher. Mr. Lowenthal, I am sorry to say that as with 
any kind of illicit trade, it is very difficult to establish 
exact dimensions.
    Mr. Lowenthal. We are not talking about illicit trade. We 
are just talking about market. I believe that we are the market 
for ivory. The United States ranks second in the world in terms 
of a market for ivory that is sold. Is that true?
    Just a moment. We are not talking about illicit. We are 
just talking about all ivory.
    Mr. Dreher. I cannot confirm that we are second. I can 
confirm that we are a very major market for----
    Mr. Lowenthal. I can confirm that we are second, Mr. 
Dreher. I can confirm that.
    Let me go back and talk about why and with just the 
understanding of what the underlying problem is because that is 
really why we are here. We are not really here just to talk 
about, although some of the things that have occurred in the 1-
year ban of ivory, sports elephants from Tanzania and Zimbabwe; 
in the 1800s, ladies' hats were made of feathers and they were 
made of eagles, hawks and herons. They were very popular, so 
popular that their desire or their market almost wiped out 
populations of migratory birds in the Western Hemisphere.
    In 1918, this Congress passed the Migratory Bird Treaty 
Act, or MBTA, which implemented a strict ban on the trade of 
migratory birds. Populations of these species have rebounded 
and there is no demand today for these feathered hats.
    Why do you think that MBTA and similar laws like the Bald 
and Golden Eagle Protection Act have been so effective?
    And do you think it is time to bring protections for 
African elephants more in line with the protections that we 
provide now for migratory birds?
    Mr. Dreher. I think it is certainly true that the 
conservation laws that were enacted to protect migratory birds 
have been enormously successful. They have been successful both 
in immediately restricting trade in wildlife that was 
decimating the populations of migratory birds.
    They have also been successful, I think, in creating long-
term changes in popular culture and taste. You know, we no 
longer see ladies' hats that are of the same even with 
artificial bird feather and that sort of thing.
    I think that is one of the things that we can attempt to do 
here, is to try to both be vigilant in trying to crack down on 
the illicit trade in ivory. We can also attempt to send a 
message that commercialization of wildlife that leads to its 
extinction is not acceptable, and that I think is certainly a 
message that we are trying to send here.
    We crushed ivory, for example, at the ivory crush out in 
Denver, six tons of ivory that had been taken as illegal 
imports by law enforcement officials. We crushed that ivory to 
send a very clear signal that the ivory was not meant to be 
seen as items of value. It was meant to be seen as evidence of 
the destruction of wildlife.
    Mr. Lowenthal. And the question has also been raised that 
these are onerous regulations. I would just like to clarify 
that: is it not true that the ivory import ban under the 
African Elephant Conservation Act is stricter than what the 
Administration is proposing now?
    Is it not also true that the Endangered Species Act, 
Section 4(d), for African elephant ivory is more lenient than 
the rules for trading other types of ivory, and that a revision 
of this rule will still be more flexible for importers of 
antique ivory than the provisions of the African Elephant 
Conservation Act? Is that not true?
    Mr. Dreher. That is absolutely true, that the African 
Elephant Conservation Act moratorium is absolute. We are 
administering it with some sensitivity and flexibility. We are 
trying to work closely with stakeholders.
    The same is true of the prohibitions of the Endangered 
Species Act that would otherwise apply if it were not for a 
special rule that we have adopted and which we are proposing to 
revise, not rescind, but revise in order to make it more 
effective in achieving conservation, but still being sensitive 
to legitimate owners of ivory and their needs.
    Mr. Lowenthal. Maybe you can tell us then just in my last 
question how tightening restrictions on domestic ivory trade 
will help reduce the poaching and trafficking crisis that 
Africa is facing today.
    Mr. Dreher. Well, the major thing driving the poaching is 
the illegal trade in very high value artifacts, and it is 
disguised in this country and elsewhere around the world as 
legitimate ivory trade, reaching very high value. If we can 
limit the market and if we can eliminate the ability of the 
legal trade to cover and to disguise the illegal trade, it will 
help us enormously in terms of reducing the market for this 
ivory and in cutting out the economic incentive for these 
criminals to kill wildlife.
    They are not killing elephants because they hate elephants. 
They are killing elephants because they see them as sources of 
money, and if we can take the money out of the equation, they 
will stop killing elephants.
    Mr. Lowenthal. Thank you, and I yield back.
    Dr. Fleming. The gentleman yields back.
    Mr. Young is recognized.
    Mr. Young. I thank the members. I have another meeting I am 
chairing.
    Mr. Hilary Tendaupenyu; is that correct?
    Mr. Tendaupenyu. Tendaupenyu.
    Mr. Young. Were you contacted by the Fish and Wildlife, 
being as you are the head of the Fish and Wildlife in Zimbabwe?
    Mr. Tendaupenyu. When, sir?
    Mr. Young. Relative to the suspension.
    Mr. Tendaupenyu. No, before that there was no 
communication.
    Mr. Young. It would seem to me that they would have the 
courtesy to at least contact the country which the elephants 
are supposedly a problem.
    The elephant population is healthy in your country?
    Mr. Tendaupenyu. It is actually on the increase, sir.
    Mr. Young. The elephant is a consumer of forage and a 
destroyer of other property; is it not?
    Mr. Tendaupenyu. That is correct.
    Mr. Young. And in your opinion, what do you think will 
happen if, in fact, this hair-brained idea from Fish and 
Wildlife becomes a reality? What do you think will happen to 
the elephant herd in Zimbabwe?
    Mr. Tendaupenyu. It will result in the decimation of 
populations.
    Mr. Young. And you base that upon the poaching primarily? 
There is no value so they take the elephants for food or what 
do you base that on?
    Mr. Tendaupenyu. Well, basically we are saying that if we 
are no longer able to fund conservation activities and 
communities are no longer able to derive benefit from it, it 
will be a free-for-all and poaching will increase, and as that 
it will result in the decline in our elephant population.
    Mr. Young. Well, I hope that some of my colleagues follow 
up, sir, because I am disgusted right now with our government 
and the Fish and Wildlife Department for putting up a 
``fuscade''--I call it a ``fuscade''--for saying this is for 
conservation. It is not.
    This is to make somebody feel good, Friends of Wildlife, 
Defenders of Wildlife, and I can go right down the line. This 
will kill elephants. It has happened before.
    Mr. Dreher, how do you differentiate between elephant ivory 
and walrus ivory?
    Mr. Dreher. There are actually tests that we can use 
readily in the field to differentiate between them.
    Mr. Young. So this will not affect walrus ivory?
    Mr. Dreher. No.
    Mr. Young. What kind of test do you have?
    Mr. Dreher. I believe it is a chemical test, but----
    Mr. Young. Well, it says here that you are backing off of 
required DNA tests. Now, what are you going to do to test the 
two different ivories?
    Mr. Dreher. My understanding is it is actually visual 
inspection.
    Mr. Young. Visual inspection although carved.
    Mr. Dreher. And our agents can determine the difference 
between then.
    Mr. Young. That is horse nosey. If you do not know what 
horse nosey is, it is related to the back end of the horse.
    Mr. Dreher. I was going to----
    Mr. Young. OK. You know this, and the Fish and Wildlife up 
there in the State of Alaska, your agency, now has the gall to 
make it their interpretation of, in fact, what can be done and 
how it can be identified of other species under the Endangered 
Species Act, primarily the sea otter. That is an agent that 
does not know Shinola.
    Now, do you have a standardized test that is going to be in 
the field?
    Mr. Dreher. My understanding is that our law enforcement 
officers can, in fact, determine the difference and are doing 
so in the field.
    Mr. Young. But your agents cannot tell if ivory is this 
year or 10 years old or 50 years old.
    Mr. Dreher. No, that we cannot do readily, unfortunately. 
That takes a laboratory analysis, and it is expensive, and it 
is destructive.
    Mr. Young. So I have an ivory pistol, an ivory handled 
pistol that is 100 years old, and I want to import it or export 
it, and this would preclude me from doing it?
    Mr. Dreher. It would depend on your documentation for the 
age of the pistol.
    Mr. Young. I have no documentation. I inherited it.
    Mr. Dreher. You can probably show some evidence of when you 
inherited it or when your parents had it. I mean, it is not as 
if you----
    Mr. Young. I inherited it from my Uncle John, and he had 
nothing, but I inherited it. It was in his will, but he's my 
uncle. So I can now import or export. It is not going to be 
prohibited.
    Mr. Dreher. If it is over 100 years old it is an antique 
under the----
    Mr. Young. Well, how do you tell? You just told me you 
could not tell if it was 100 years old.
    Mr. Dreher. That is actually going to be the burden that 
you will bear, sir.
    Mr. Young. Oh, I will bear it, but that means the 
government can seize it.
    Mr. Dreher. If you cannot document your attempt to import--
--
    Mr. Young. There we go, guys. There is the Chairman. Here 
we come. Uncle Sam is going to take and say you have to prove 
it. You are guilty because we say you are.
    That is wrong. That is wrong, and this is not going to save 
the elephants.
    For those in the audience who think you are saving 
elephants, you are going to be killing these elephants. There 
is a value when they can be hunted. There is a value when they 
can be, in fact, managed. There is a value if you let the 
country manage its game.
    We are sticking our nose in somebody's business, very 
frankly. We are not going to solve a problem you are trying to 
seek, and I have been a sponsor of saving the elephants with 
conservation for years, but what you are going to do in this 
so-called department--the Fish and Game Department has gone 
wacky on me--is, in fact, is, in fact, going to fail to save 
these elephants. Shame on you.
    Dr. Fleming. The gentleman yields back.
    Mr. DeFazio I believe is next on that side.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I think what we need to keep in mind here is we need new 
solutions. You know, what worked in 1988, 1989, and the 
contributions of sport hunting to these countries was very 
valuable. Today a sport hunter with a bolt action rifle is no 
longer a deterrent to large groups of crazed militants 
slaughtering elephants with automatic weapons and poison.
    Times have changed. So we cannot say that sport hunting is 
the solution. It is still incredibly valuable to the local 
communities and potentially to the nations involved. That is 
good. That gives them some incentive, but the other thing was 
it was actually a deterrent value because you had people out 
there who were similarly armed or maybe with ratty weapons who 
were poaching the elephants.
    Now it is organized, armed fanatic militants, which really 
needs some sort of military or paramilitary response on the 
part of some of these governments, and that is perhaps 
something to be discussed in another committee at another time 
in terms of what the U.S. appropriate role is in facilitating 
that.
    But we have to stop talking past each other here and we 
have to find some viable solutions. We have to find viable 
solutions that go to people who have had things in their 
families for generations. Mr. Young was his usual dramatic 
self, but the point here is that I read of one case where 
someone was trying to bring in a piano from Japan. You know, 
apparently we have now resolved that issue individually, but 
there are problems here with the way this rule was promulgated 
and its impact, but we also want to send the strongest message 
to the world that we are not going to tolerate this.
    Perhaps the gentleman whom I mentioned earlier should have 
gotten a longer sentence and a bigger fine, but that is another 
issue.
    Are we researching a way for a test? I mean, we can carbon 
date stuff pretty exactly. We have all sorts of things out 
there, you know, a mass spectrometer. Is there not some 
researching test that would make it easy for people to prove 
age?
    Mr. Dreher. We are researching tests. I mean, unfortunately 
the ones you mentioned are among the ones that we can draw 
upon, and they are destructive and they are expensive. They are 
destructive in the sense that they require some sample, some 
portion of the item to actually be destroyed in order to 
chemically analyze it, and they are not foolproof, but we can 
use them effectively to date things.
    Right now the tests we are using to date ivory cost us 
$1,000 per test, which is not too high when you have a major 
criminal prosecution, but it is very high for field agents to 
use, and it requires the consent of the property owner to 
permit it to be tested because it does involve some sampling.
    So there are limits to what we can do. We are, 
unfortunately, stuck in our law enforcement effort by our 
inability to distinguish readily between fake antique ivory and 
real antique ivory, and that has been used around the world and 
in this country by the criminals. They know this. They have 
whole factories that are set up to do this, to artificially age 
ivory, to carve it so that it looks like it is exactly like a 
tribal carving from 100 years ago, and then to bring it into 
this country.
    That is exactly what Victor Gordon was doing. He was 
sending instructions back to his factories in Africa, saying 
make it look like----
    Mr. DeFazio. Where was the factory located?
    Mr. Dreher. It was from East Africa. I do not know where 
though.
    Mr. DeFazio. OK. Did the U.S. Government take any action to 
pursue that with the government involved, whichever government 
it was, to close down this factory?
    Mr. Dreher. I am not aware of what we have done with that.
    Mr. DeFazio. See, we need to be reaching overseas in a very 
strong way, and I mean, that seems to me kind of minimal if we 
have finally got a line on an illegitimate factory mass 
producing this stuff out there. We should be using every tool 
we have to go after that and go after that country and close 
that stuff down and doing that around the world in addition to 
what I mentioned earlier, which are some trade sanctions 
against these countries, that little country and the big 
countries that are overtly importing.
    I have to say we just have to begin to think out of the box 
and come up with a creative solution. I mean, as we sit here 
and talk past each other, I think it is four elephants an hour 
that are being slaughtered. So we've been here more than an 
hour. Four more elephants unless they did another poisoning 
today and killed many dozens or hundreds, who knows?
    So this is something that begs a solution instead of a 
partisan brawl, which is very usual for this committee.
    With that, Mr. Chairman, I yield back.
    Dr. Fleming. The gentleman yields back.
    Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Dreher, do you hunt?
    Mr. Dreher. I do not, sir.
    Mr. Duncan. So I guess you are a fisherman. You trout fish. 
You big billfish.
    Mr. Dreher. I have fished, yes.
    Mr. Duncan. You have been, but are you active in that at 
all?
    Mr. Dreher. Not today, but I have been.
    Mr. Duncan. OK. Are you a member of Ducks Unlimited, 
National Wild Turkey Federation, Safari Club International, any 
of those conservation organizations?
    Mr. Dreher. I am not.
    Mr. Duncan. OK. So let me just ask you this. Are you aware 
of the role that hunters play in conservation?
    Mr. Dreher. I am very aware of it.
    Mr. Duncan. OK. Hunters have contributed millions upon 
millions upon millions of dollars for conservation efforts to 
restore the white tailed deer, the wild turkey, the trout, the 
Billfish Association for billfish, and the oceans. Hunters play 
a part of conservation.
    Let me point out the New York Times article, and I am not 
one to tout the New York Times on a regular basis, but the New 
York Times had an article, ``The Wrong Way to Protect 
Elephants.'' In this article the authors state that ``the new 
Obama administration policies would merely cause the price to 
balloon and the black market to flourish, pushing up the profit 
potential of continued poaching. These new rules proposed by 
the Fish and Wildlife Service may well end up doing more harm 
than good to the African elephant.''
    Why is the New York Times wrong?
    Mr. Dreher. I mean I have to say for what it is worth the 
approach we are taking for law enforcement in trying to 
interdict illegal contraband coming into this country is the 
same approach we take for other forms of illegal activity.
    Mr. Duncan. Law enforcement is having a hard time in the 
African countries doing conservation because they do not have 
enough manpower, and this is going to hurt their economic 
ability to actually hire more law enforcement officers to 
combat poaching.
    American hunters traveling to Zimbabwe or Tanzania, other 
places, they are actually catching a lot of these poachers out 
there in the field, and guess what else they are finding. They 
are finding the snares, and they are dismantling the snares and 
destroying those because the countries do not have the ability 
to hire the number of officers necessary.
    The money that goes into the economy from active hunting on 
the African Continent supplies the money and the resources for 
these countries to have the conservation officers that can 
actually do the job. Your policies will do nothing but curb the 
ability of American hunters to actually travel to Africa and 
provide those dollars that those economies desperately need.
    I do not believe there is enough money in the conservation 
effort to actually pump into those countries to provide those 
dollars and to provide those officers, those conservation 
officers.
    Would you not agree with me that unless the range states 
are effectively able to stop poaching, African elephants will 
simply continue their march toward extinction?
    Mr. Dreher. I would agree with you.
    Mr. Duncan. OK. So we are on the same page there.
    In the final analysis, you can close the U.S. market and 
destroy the value of millions of legally obtained ivory 
products, but unless we stop poaching, it is very unlikely that 
those who traffic in these illegal wildlife will simply find 
another market. You are already seeing an emerging market in 
China.
    Will this ban stop poaching of elephants in Africa?
    Mr. Dreher. Not by itself, but this ban is only part of the 
effort that my Service and that of the U.S. Government is 
engaged in to try to combat this problem. This ban is one 
important strand of that which involves law enforcement to 
crack down on the criminals involved.
    When you put someone like Victor Gordon in jail, admittedly 
only for 2\1/2\ years, that is a very significant deterrent to 
other criminals who are----
    Mr. Duncan. Well, let me stop you right there. I will tell 
you who you are targeting. I have had numerous cases where 
people have lawfully obtained African ivory through hunting 
efforts with valid tags and valid transportation permits to 
bring them into the country, and they have been jerked around 
by this agency trying to bring that ivory in. That is who you 
are targeting.
    You are not targeting the illegal ivory trade in this 
country or the world. You should work with the Government of 
China. You should work with the countries that are actually 
stockpiling a lot of ivory.
    I will tell you what we need to do. We need to work with 
countries like Tanzania and Zimbabwe and allow hunting, allow 
conservation efforts through hunting, allow more permits and 
allow these guys to actually set quotas, allow X number of 
elephants to be harvested annually, and allow that money to 
actually funnel to the communities that have crops destroyed 
because the elephants are destroying homes and crops and 
communities. Actually provide the dollars so they can have the 
conservation officers out there to stop this poaching.
    You are exactly right. Poaching is terrible. The numbers do 
not lie at all. But it is not through hunting and it is not 
through some, and I will say, asinine ban by the Fish and 
Wildlife Service that is politically driven.
    Now, with that, Mr. Chairman, I yield back.
    Mr. Dreher. I would be happy to respond. I have not so far 
been able to respond to any of the allegations.
    Dr. Fleming. The gentleman has already yielded back.
    Mr. Duncan. That was my time. Thank you.
    Dr. Fleming. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much.
    And please feel free to respond.
    Mr. Dreher. First I need to say that the Fish and Wildlife 
Service fully recognizes the importance and the value of sport 
hunting in the history of conservation and in the current 
conservation efforts around the world. Sport hunters in this 
country have been the backbone of conservation of wildlife in 
this country, including the backbone of support of the programs 
that the Fish and Wildlife Service administers. They are an 
important factor in conservation worldwide.
    We have a special situation in the two countries that are 
at issue here. That is that under our regulation we must make a 
finding that sport hunted trophies or that allowing the import 
of sport hunted trophies will enhance the conservation of the 
species, and we have been able to make that for a number of 
countries. We have no concern with hunting of elephants in 
South Africa or in Botswana. Those are countries that have well 
regulated programs.
    We have significant concerns about Tanzania. The population 
of wildlife of elephants in Tanzania is crashing, as has been 
recognized by CITES and by world authorities.
    There is mounting concern that government authorities in 
Tanzania are unable to manage or protect their wildlife, and it 
is no longer clear to us that the dollars that American hunters 
bring into that country are used in any meaningful way for the 
conservation of elephants.
    Ms. Shea-Porter. Thank you. Thank you.
    Mr. Dreher. OK.
    Ms. Shea-Porter. I am glad you cleared that up.
    I do have a couple of questions here, and I am sorry. I am 
going to make a mistake with your name, Mr. Tendaupenyu.
    Could you please tell me first of all who paid for your 
trip here?
    Mr. Tendaupenyu. The Zimbabwe Parks and Wildlife Management 
Authority.
    Ms. Shea-Porter. The Zimbabwe government?
    Mr. Tendaupenyu. The Parks and Wildlife Management.
    Ms. Shea-Porter. OK. Thank you.
    And has your population of elephants been going up or down?
    Mr. Tendaupenyu. It is actually on the--on the----
    Ms. Shea-Porter. Going down. So----
    Mr. Tendaupenyu. On the increase, ma'am.
    Ms. Shea-Porter. So in spite of the hunting and the 
conservation and the income coming in and your management 
efforts, your population is dropping.
    Mr. Tendaupenyu. No, no, ma'am. The population is on the 
increase.
    Ms. Shea-Porter. By how much?
    Mr. Tendaupenyu. I can give you the figures.
    Ms. Shea-Porter. OK. I would like to see those. We will do 
another round.
    I also want to know, you indicated that you also received 
some income from tourism, right? But you did not say what 
percent was from eco-tourism. How hard have you worked on that? 
And is that something that you see in your future to be able to 
perhaps bring more income and help the people in the area and 
help protect the elephants?
    Mr. Tendaupenyu. OK. Tourism is rather suppressed right 
now. So the income realized from that is quite low compared to 
that revenue stream that I talked about from----
    Ms. Shea-Porter. Do you have an aggressive program for it?
    Mr. Tendaupenyu. We are doing our marketing. There is an 
aggressive program for that, yes, ma'am.
    Ms. Shea-Porter. OK. And what percent of the income that 
comes in for your program is from tourism right now?
    Mr. Tendaupenyu. I do not have the figures readily 
available right now, but those can be available to you, ma'am.
    Ms. Shea-Porter. OK. Is that going up or down?
    Mr. Tendaupenyu. Tourism figures, slightly on the increase 
now in recent years.
    Ms. Shea-Porter. On the increase.
    Mr. Tendaupenyu. Yes.
    Ms. Shea-Porter. All right. So your tourism is on the 
increase, and your number of elephants, the population, is on 
the increase and you will get back to me about the number.
    Mr. Tendaupenyu. Yes, ma'am.
    Ms. Shea-Porter. OK. Thank you.
    And I have a question. Now, you said how many tons of ivory 
in 2013?
    Mr. Dreher. That we have seized?
    Ms. Shea-Porter. Yes.
    Mr. Dreher. Well, in the one case we have been talking 
about it was one ton of African ivory, new ivory. There was a 
seizure of two tons at JFK Airport in 2012.
    Ms. Shea-Porter. How many elephants is that?
    And can you take a guess of how many elephants are being 
killed just for that, not for any other reason, but for the 
ivory?
    Mr. Dreher. We are converting kilograms into pounds. I am 
sorry. We can get back to you with an answer for that, but the 
tusks can weigh 100 pounds or 80 pounds. So you have some sense 
that there were a large number of individual elephants that had 
to have been killed in order to supply three tons.
    Ms. Shea-Porter. Right. OK. Thank you for that.
    Now, is there some kind of compromise here? You know, 
listening to both sides, and by the way, I come from a State 
where they hunt and they fish. I live in New Hampshire, and it 
does not mean that you do or you do not. That does not make any 
statement about what kind of person you are, about whether you 
care about the environment or do not care about the 
environment. I am not really sure where that questioning was 
going, but let me just say that I cannot understand why we 
cannot find something that helps, and what would help your 
government to continue promoting conservation and still be able 
to protect your elephant population?
    I cannot understand why it is like either/or when you are 
talking to us about your country and your situation in 
Zimbabwe. Why is it either/or? Either they have to hunt at a 
high level and we have to just stay out of it or from what you 
said everything will just fall apart, that the land will be 
taken, that the elephants will be killed, that there will be 
more mayhem.
    I was not really following your argument.
    Mr. Tendaupenyu. OK, ma'am. My point was ZimParks does not 
rely on the government for funding, and it has to generate its 
income from sustainable conservation efforts. We have limited 
donor support, and this is from our wildlife. We believe that 
wildlife should pay for itself.
    And from that, that is where we are looking at that. It 
should. The revenue that we want to generate that protects the 
wildlife comes from the wildlife itself. That is the principle.
    Ms. Shea-Porter. But it seems to me that if you are 
experiencing this great loss and this is a treasure for your 
country and that you will actually--do you want me to do 
another round?
    Dr. Fleming. Unfortunately we have another large panel and 
then we have a vote in about an hour. So unfortunately, we will 
just have to submit questions for the record.
    Ms. Shea-Porter. OK, and could I please have the answers to 
the questions that I asked?
    Mr. Tendaupenyu. Those will be answered.
    Ms. Shea-Porter. Thank you. Thank you. I will look forward 
to seeing them.
    Mr. Tendaupenyu. Yes.
    Ms. Shea-Porter. Thank you.
    Dr. Fleming. Thank you. The gentlelady yields back.
    Mr. McAllister, for 5 minutes.
    Mr. McAllister. Thanks, Chairman.
    First let me just say that I and all of this panel believe 
that we should protect the elephants. No one wants to see them 
become endangered and not be able to enjoy God's creation that 
we all watch wildlife shows, go on safaris and all that.
    But when it comes to the question she just asked about the 
middle ground, I believe you just said it. The efforts are 
working. You said the elephant population is on the rise in 
Zimbabwe; is that correct?
    Mr. Tendaupenyu. That is correct.
    Mr. McAllister. So I mean, it seems like it is working. So 
here is the issue I have, and I want to hear from Mr. Dreher on 
it.
    A few things: one, back in 1978, the amendment to the 
Endangered Species Act clearly established an exemption for the 
import and export and sale of antique items that are at least 
100 years of age. In fact, a former Congressman from my State, 
David Treen, stated, ``My proposal was adopted in Committee by 
voice vote. All the witnesses at the hearing supported the 
concept of exempting antiques since the purpose of the Act is 
to protect living species rather than those that lived 150 
years ago.''
    So here is my question: are you not trying to rewrite the 
statute and congressional history?
    Mr. Dreher. Congressman, no, not at all. We have, in fact, 
recently just clarified the way in which we will interpret and 
enforce the antiques exception. We certainly fully recognize 
the importance of that exception to the congressional intent 
behind the Act.
    So there was no restriction here under the ESA that will 
affect legitimate antiques that meet the statutory definition.
    Congress also passed the African Elephant Conservation Act, 
and that imposed an absolute moratorium on the import of 
African ivory without regard to age, absolute moratorium on the 
import of African ivory. We are administering that in as 
flexible a way as we can to recognize legitimate needs, such as 
those of householders who are bringing in goods as part of 
their household, musical instruments, orchestras, traveling 
exhibitions.
    But it is Congress in that Act which has banned all imports 
without regard to age. Now, we----
    Mr. McAllister. But you are putting the proof upon us as 
the citizens to prove it is an antique or not.
    Mr. Dreher. Well, quite frankly, the proof, the burden is 
on us as citizens to prove our ownership of property in many 
circumstances, to prove that our claims of exemptions from 
income taxes. I mean, it is not unusual that we would expect 
someone claiming the benefit of an exemption to prove lawful 
possession of an item that is claimed to be exempt.
    Mr. McAllister. Correct. Well, I just do not understand why 
are we not spending more efforts on going after the poachers, 
going after the criminal trafficking syndicates, the terrorist 
organizations instead of trying to go after the import and 
export of antiques.
    I have a few pictures here that kind of explains what you 
are going after and what it is going to do, and I got these off 
of Sotheby's Web site, and I will give them to the Chairman. It 
just shows what little bit of ivory is in some of these 
antiques that are being sold, and these are just your everyday 
antiques. I mean, we are talking a minimal amount of ivory.
    So let me explain what my opinion, what this is going to 
do. What you are trying to do is take countries like Zimbabwe 
and all and take the ability to govern themselves, the ability 
to conserve their animals out of their hands, and what you are 
going to do is you are going to create a black market now to 
where more new ivory is being poached to create more antiques 
like this because the black market sells more than legal 
markets ever sell.
    I think we should be going after those who are violating 
the laws. I agree with Congressman DeFazio. That punishment is 
not severe enough for those who are poaching ivory. I think 
there ought to be another statute on top of it that says 
whenever you try to imitate an antique there is even a more 
harsh punishment to go along with the poaching.
    I believe there is common ground that we can find, and as 
to allow countries that are increasing their elephant habitats, 
but yet also make sure that we are making people pay the price 
for doing and make sure that we go after these terrorist 
organizations that are just slaughtering elephants and that is 
by assisting these countries with it.
    I do not believe in penalizing people that truly are doing 
justice and being honest and making life harder on them to live 
in this country and to do just what they enjoy, whether it be 
bird watching or antique collecting. That is not what our role 
is to do, to make life harder on them.
    Our goal is to protect the animals and support other 
countries in their ability to protect, and I will let you 
answer that, but I appreciate you taking the time to come today 
and testifying for us.
    Mr. Dreher. Thank you, Congressman.
    And I certainly agree with the fact that we need to address 
all of those things. We cannot address this wildlife 
trafficking crisis without engagement with the range countries 
overseas, without trying to reduce consumer demand and also 
without trying to build partnerships with foreign countries and 
partnerships with interests and stakeholders like the sport 
hunting community.
    The Fish and Wildlife Service has a very good relationship 
with the sport hunting community in this country and cherishes 
that. We have shared conservation goals for decades, since the 
foundation of the Service.
    Dr. Fleming. I am sorry. We are going to have to keep 
moving on if we are going to hear from other witnesses.
    Mr. Southerland, 5 minutes.
    Mr. Southerland. Thank you, Mr. Chair.
    I do not even know where to start really. I am astonished. 
Mr. Dreher, I am going to direct my comments first to you.
    I am amazed. I notice here that you had spent time in the 
Justice Department before you came to the Wildlife Service. I 
am rather astonished by your belief that it should be the 
burden of proof by the American citizens to prove something 
that is perhaps in many cases unprovable. You know, I hope that 
is not a philosophy that you gained while in the Justice 
Department. That is terrifying to think that that might be a 
contagious thought process there. But we certainly are seeing 
evidence that that might be germinating in other areas 
throughout the Justice Department.
    I am blown away by people's assertion here that you've got 
it all figured out when it comes to our species. We know the 
red snapper in the Gulf of Mexico that are being destroyed by 
the thousands by artificial reefs being removed from the oil 
rigs, idle iron, and really these efforts, this government 
could care less about the fish because they just want to make 
sure that humans cannot pick up those fish once they have been 
destroyed. It has nothing to do with the fish.
    I am curious though as to what I am hearing. We talk about 
Kenya and Zimbabwe and what is going on, and, sir, I know you 
are here. You came a long way obviously to testify. I am most 
interested by your comments that your elephant population 
through the systems you have in place is on the rise, and I 
just want to make sure that that is stated because I think some 
on the other side of the aisle just were hoping and praying you 
would say that your elephant population is on the decrease. But 
yours are, in fact, on the increase, correct?
    Mr. Tendaupenyu. They are on the increase.
    Mr. Southerland. I find it interesting that Kenya outlawed 
hunting in 1973, and yet their herds are absolutely just the 
opposite of yours. They are continuing to decline, and Kenya 
cannot even protect a 50-year-old bull from being slaughtered 
very, very recently.
    Tell us, sir. You came over here to testify today. You 
know, we have already had Mr. Dreher admit that the Wildlife 
Service did not alert your government prior to suspending the 
importation of sport hunted elephant trophies from those 
countries.
    Does it irritate you or do you find it bothersome that our 
government, who seems to be swimming outside of its lanes here, 
did not even communicate with you?
    Mr. Tendaupenyu. Very much so, sir.
    Mr. Southerland. Very much so.
    Mr. Tendaupenyu. Yes.
    Mr. Southerland. OK. Could you expound on that? I mean, do 
you feel like we are being a little meddling into something 
that is pushed rather by ideology rather than good conservation 
practices?
    Mr. Tendaupenyu. Indeed, we base our efforts or whatever we 
do on scientific evidence, and if it had that scientific 
evidence to substantiate, at least it would make sense.
    Mr. Southerland. Right. So you're saying that absolutely to 
my question and that you need good scientific data, and it 
needs to make sense. I know some people cannot perhaps hear 
your answers, and I want to make sure that I help get your good 
common sense message out because I can tell you in this room on 
a weekly basis we see insanity here, insanity.
    [Laughter.]
    Mr. Southerland. OK? We do. We do. And so we keep talking 
about good data. There are people on the other side that could 
care less about good data. I can tell you we certainly are not 
using good data in the Gulf, and we are making sure that we do 
not have good data because we do not want to see what that data 
proves because then we would have to make common sense, self-
evident practices that would be good for freedom as well as 
good for the stock we claim to care about.
    Is there any reason imaginable why the Service did not 
reach out to you? Can you imagine any good reason why they did 
not do so and give you that professional courtesy?
    Mr. Tendaupenyu. No. We actually fail to understand why 
that happened.
    Mr. Southerland. You fail to understand that.
    Well, Mr. Dreher, with the time we have remaining, can you 
address----
    Mr. Dreher. I would be very happy to.
    Mr. Southerland [continuing]. Why he fails to understand?
    Mr. Dreher. I would be very happy to.
    Mr. Southerland. You all have been rude really.
    Mr. Dreher. We asked for information in 2007, and we have--
--
    Mr. Southerland. You asked for information.
    Mr. Dreher. Yes, and we have been in contact with them 
every year since at international----
    Mr. Southerland. And contact, did that contact----
    Mr. Dreher. Personal, face-to-face contact. There is no 
question----
    Mr. Southerland. Right.
    Mr. Dreher [continuing]. That they understand we had 
concerns about their program.
    Mr. Southerland. Can you provide that proof to us?
    Mr. Dreher. I can and I will be happy to. Let me also say 
that we acted based on International Union of Conservation of 
Nature data showing that the population of elephants in this 
country may have dropped by as much as 50 percent----
    Mr. Southerland. Right. And I hope that organization----
    Mr. Dreher. So we have very different----
    Mr. Southerland. Reclaiming my time, sir, I hope that I do 
not have--I hope they do not share your beliefs that the 
American people or anybody in this world must prove by 
documentation something that they inherited maybe from a 
grandfather or great grandfather. What a dangerous, dangerous 
belief you have, sir.
    I yield back.
    Dr. Fleming. The gentleman's time is depleted.
    Mr. Daines, you are recognized.
    Mr. Daines. Thank you, Mr. Chairman.
    So I represent the State of Montana, and I can tell you, 
lawfully owning firearms is a very important part of our 
heritage, including many which would contain pre-ban ivory. The 
Director's order, as best we can tell, though well intended was 
issued without consideration of law abiding citizens who trade, 
sell, or own firearms containing elephant ivory or enthusiasts 
for the music and arts who use their ivory containing 
instruments to enrich many people's lives.
    I think we are all in violent agreement here today that we 
want to make sure we stop poaching and protect the African and 
Asian elephants. Many of us are active sportsmen and women, and 
as Congressman Duncan mentioned, hunting oftentimes is the best 
way to preserve a species, and I think we have seen that 
example certainly from our witness here today.
    But I was made aware recently that the Budapest Orchestra 
was coming into JFK Airport here on June 3. Stefan Englert, the 
Executive Director of the orchestra, said in an interview that 
the ensemble had taken steps to comply with new rules governing 
ivory. The orchestra had documentation for each bow, including 
photographs, letters from the bow makers stating they contained 
no banned ivory.
    But even with this documentation the bows were not allowed 
to be used. My understanding is that one person in the ensemble 
brought two identical bows from the same maker, same materials. 
One was allowed to be used; the other was not.
    In fact, doing a little further research, in April an 
orchestra came from Austria to perform at Carnegie Hall, and 
they were stopped from getting their bows through, and it was 
through the intervention of the officials of the Carnegie Hall 
that at the last minute got the bows through because they were 
going to cancel the concerts because of the harassment they 
were receiving here in trying to get the documentation, which 
they all had, through the system.
    Given the limited resources of Fish and Wildlife Service 
and the enormous, enormous poaching problem in Africa, is 
confiscating bows from the Budapest Orchestra really the best 
use of taxpayer dollars? Mr. Dreher.
    Mr. Dreher. First, I think for what it is worth, my 
understanding is that the issue of importation of artifacts, 
musical instruments that contain CITES listed material is one 
that has been with us for a long time. I mean, the incidents 
you described would have occurred exactly the same way last 
year or the year before had they attempted to enter the country 
with musical instruments that did not have proper CITES 
documentation.
    Mr. Daines. They are referencing, by the way, they are 
referencing the May 12 edict that came out in the Federal 
Register Notice was the issue here coming through JFK.
    Mr. Dreher. My understanding is that this was an issue of 
CITES documentation, and sort of the unhappy truth is, and we 
are trying very hard to be sensitive to the legitimate interest 
of musicians, the legitimate interest of orchestras and of 
traveling exhibitions. That is, in fact, why we have created 
exceptions to what otherwise would be the implementation of an 
absolute ban on the import of ivory under the congressional act 
to reflect that, but they still need to provide adequate 
documentation for CITES, and that has always been an issue in 
terms of importing material into the country. There is going to 
be a check to see whether they have that.
    We are working continually with the interested stakeholders 
that you have mentioned to try to figure out ways that we can 
respect their genuine needs to be able to perform with and 
import into the country for performance purposes instruments 
that may contain ivory or other CITES material.
    Mr. Daines. Right.
    Mr. Dreher. And we will continue to work with them.
    Mr. Daines. And we have two examples in the last 90 days, 
one in April and one in the first week of June, where renowned 
orchestras with what they thought was all the proper 
documentation were stopped, nearly canceled the concert at 
Carnegie Hall, and through a diving catch here with the 
Budapest Orchestra they were able to get through.
    But I think this is an example of the concerns we have of 
the regulations. They just do not have common sense. They are 
going to stop law abiding men and women, American citizens and 
citizens coming in perhaps in the performing arts.
    The challenge is here of wanting to move forward here in a 
common sense fashion. These regulations, I think, seem a bit 
arbitrary and difficult to follow and are not going to 
ultimately get to the bottom of this, which is, we are trying 
to protect and save these African elephants.
    Mr. Dreher. I understand your concern, and I understand the 
concern about what the highest priority should be. It certainly 
is not our highest priority to do this, but we are nonetheless 
responsible and the Border and Customs Patrol people are 
responsible for monitoring imports into the country.
    I do think the underlying issue that we need to grapple 
with is that it is precisely the trade in these artifacts, 
artifacts made of wildlife that is killing wildlife, and there 
are circumstances as you said where sport harvest of wildlife 
is an essential part of a well-managed conservation program, 
and we recognize that and work closely with folks all the time.
    There are other circumstances where the marketing of 
artifacts made of endangered species drives them toward 
extinction, which is why the general rule under the Endangered 
Species Act is there cannot be any trade in endangered species.
    Mr. Daines. Just the concern we have, and I will conclude 
my questioning here, is just that you have law abiding 
musicians and so forth here that are caught right now by these 
regulations that are wreaking havoc on law-abiding citizens and 
not really getting to the core issue here, which is how do we 
stop the poaching and the killing here of these African 
elephants illegally.
    Thank you.
    Dr. Fleming. That concludes the first panel, but before I 
release the first panel I want to take a moment of the 
Chairman's privilege here for a couple of reasons.
    First of all, Mr. Tendaupenyu, you have come a long way, 
and I want to be sure that you have a last word with us here 
today because I think what you have to say is very important.
    But I want to frame the issue carefully for everyone. There 
is not a single person on this dais, in this Congress, I 
suspect, or in this room that wants anything but the 
sustainability of our elephant population. There is no one 
here. I mean, we all basically want the same outcome.
    Where we differ is in how we apply certain rules and 
principles and we receive that outcome. But we have two 
problems, really two issues.
    Number one is the fact that many people have ivory, ivory 
musical instruments, ivory art, other forms of ivory that are 
very old. It is simply impossible to have the documentation 
necessary. This is not the same as the IRS. When you incur an 
expense, you have a paper trail, and you know that that is 
going to be a deductible expense. This is not the same thing. 
It is not equivalent, and it is inappropriate, in fact, I think 
unconstitutional to require someone to be guilty until proven 
innocent. And so that is something we have to deal with in an 
outright ban.
    The other part of this is, and I want to make sure everyone 
here is clear on it, the money that is necessary in Zimbabwe to 
protect the elephants comes from the hunters themselves. When 
the hunters leave, the elephants die. The elephants die why? 
Number one, if a herd grows, it runs out of sustainability. It 
does not have the habitat. So some are going to starve. Some 
are going to go through a painful death.
    Mr. Lowenthal. Mr. Chairman, we have another panel, and----
    Dr. Fleming. I understand that.
    Mr. Lowenthal [continuing]. And we are never going to get 
to it.
    Dr. Fleming. But I want to be sure that this gentleman, and 
as Chairman it is my privilege to do this, and so in terms of 
Zimbabwe and the protection of the elephants, what has been 
working and increasing the herd has been simply allowing 
hunters to take a certain number of trophies and then also 
allowing for growth of that herd and then last, of course, the 
fact that they protect against the poachers.
    So I want to give you the opportunity to kind of 
encapsulate that and make sure we understand the issue when it 
comes to Zimbabwe.
    Mr. Tendaupenyu. Thank you, Mr. Chairman.
    I think in my closing statement I said it exactly as it is. 
We are saying that the proceeds from hunting actually 
contribute toward the conservation efforts. It also 
incentivizes the elephants toward the communities, and once 
this aspect is removed, people will no longer treasure these 
and, hence, it will lead to increased poaching because less 
money goes to conservation, less protection, and this will 
result in the decimation of our wildlife populations.
    Dr. Fleming. I thank you for that, sir, and as a result we 
are not going to have time for a second round. We would love to 
have one. So we will ask you to step down and we will ask the 
next panel to step up, and we will hear more testimony on this 
important issue.
    OK. As our panel moves into place, I want to go ahead and 
begin introductions because we are limited in time.
    First we have today Mr. Ian Somerhalder, President of the 
Ian Somerhalder Foundation; The Honorable David J. Hayes, Vice 
Chair, Federal Advisory Council on Wildlife Trafficking; The 
Honorable Jack Fields of Texas; Ms. Arian M. Sheets, Curator of 
Stringed Instruments, National Music Museum; Mr. Matthew Quinn, 
Quinn's Auction Galleries; and Air Force veteran Captain Scott 
O'Grady.
    Your written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes as outlined in our invitation letter to you under 
Committee Rule 4(a).
    I think you have heard the instructions on the microphone. 
So we will not go forward with that and dispense with it.
    So, Mr. Somerhalder, welcome to the subcommittee, and you 
are now recognized for 5 minutes.

   STATEMENT OF IAN SOMERHALDER, PRESIDENT, IAN SOMERHALDER 
                           FOUNDATION

    Mr. Somerhalder. Thank you, Chairman, and good afternoon, 
Chairman Fleming, Ranking Member Lowenthal, and members of the 
subcommittee.
    My name is Ian Somerhalder. I am an actor and President of 
the Ian Somerhalder Foundation, which is a not-for-profit 
organization that is dedicated to empowering, collaborating and 
educating with people to help them collaborate and impact the 
planet positively and its creatures.
    I am grateful to say that I was also just named United 
Nations Goodwill Ambassador to their Environmental Programs.
    I would like to thank the subcommittee for giving me the 
opportunity to speak here today, and I would like to especially 
thank Chairman Fleming, who represents my home State of 
Louisiana. So thank you, sir.
    I am honored to be here, able to speak today to the need 
for redoubled efforts to protect rapidly declining populations 
of African elephants. I appreciate and admire the work of the 
Wildlife Conservation Society, which continues to identify 
opportunities for me to have an impact on U.S. Government 
conservation actions.
    Some of you might remember my last testimony from 3 years 
ago when I first had the honor of addressing this subcommittee 
in support of Multinational Species Conservation Funds, MSCF. 
These funds play a critical role in saving wildlife populations 
from many of the world's most iconic species, including the 
African elephants, which are the topic of our hearings today, 
by supporting programs that control poaching, reduce human 
wildlife conflict and protect essential habitats.
    The MSCF are due for reauthorization, and I encourage the 
subcommittee to take up the bipartisan bills to extend these 
important programs. I would also urge the subcommittee to 
extend the MSCF semi-postal stamp enabling the public and 
empowering them to provide funding for anti-poaching 
activities.
    So as you all know, I am not a policy expert or a park 
ranger. I have been fortunate to have success as a--well, some 
success as an actor, and with that comes what I see as a 
privilege.
    Dr. Fleming. You are too humble.
    Mr. Somerhalder. But I see it as a privilege ultimately to 
be able to raise awareness about issues that I am passionate 
about that need to be raised.
    So in my previous testimony I called attention to several 
global priority species, but today the plight of the elephant 
demands our undivided attention. There is really no word you 
can use to describe the situation of elephants in the wild 
today. They are simply in crisis.
    Quite frankly, there is no way to even overstate how 
catastrophic the last few years have been for these elephants 
because now they are under threat as they have never been 
before by agents of transnational crime rings and terror 
organizations who are mutilating helpless animals and murdering 
park rangers on a scale not seen since the international ivory 
ban went into effect.
    The most current studies done by the Wildlife Conservation 
Society show that in 2012 alone poachers killed approximately 
35,000 African elephants for their tusks, and Central Africa 
has lost more than half of their elephants in the last decade.
    So at this rate the African forest elephants will be 
extinct in 10 years, and the East African Savannah elephants 
will be right behind them.
    So what will the world look like without elephants? I mean, 
I think the question that we should ask ourselves is: how can 
we actually justify allowing this species, which is considered 
as intelligent as dolphins and great apes, to go extinct?
    The situation is dire. Kenya Wildlife Service park rangers 
describe the efforts against poachers as a war that they are 
losing, and also let me add that there is growing evidence that 
organizations like the Lord's Resistance Army and al-Shabaab 
fund terrorist attacks, recruitment efforts, guns and 
explosives with the proceeds of illegal ivory sales.
    There is a silver lining, however. There is ample evidence 
that conservation efforts have a significant positive deterrent 
effect when protective forces are adequately staffed, trained 
and armed. The number of forest elephants, the most threatened 
subspecies, are seven times higher when they are protected.
    The support of the U.S. governmental agencies, governmental 
agencies like Fish and Wildlife Service and USAID, play an 
essential role in supporting conservation forces 
internationally. Sadly, the United States is also an important 
market for wildlife products.
    In 1988, this Congress led the world by banning the 
commercial ivory trade, and it is time for us to take on the 
mantle of leadership once again. Continued vigilance by the 
U.S. Fish and Wildlife Service is critically important and also 
lets the international community know that we are serious, 100 
percent serious about eliminating demand for illicit ivory 
products.
    This is an issue I know that the American public deeply 
cares about because when I talk about this on social media, the 
retweets and favorites on Twitter number in the tens of 
thousands, and on Facebook hundreds and hundreds of thousands. 
So we know that this is important to the people.
    The outpouring of emotion is strong, and the message is 
clear. We, the people, look to you to enforce tough laws and 
build global partnerships to address wildlife crimes. As 
Jacques Cousteau said, we protect what we love. So on behalf of 
the Ian Somerhalder Foundation, I urge the subcommittee to work 
with the U.S. Fish and Wildlife Service and the Administration 
to quickly move ahead on tightening the ban on commercial ivory 
trade so that the United States can once again show its 
leadership in saving the African elephant.
    Thank you for this opportunity to testify, and I look 
forward to any and all of your questions.
    [The prepared statement of Mr. Somerhalder follows:]
   Prepared Statement of Ian Somerhalder, President, Ian Somerhalder 
                               Foundation
    Good morning Chairman Fleming, Ranking Member Sablan, and members 
of the subcommittee. I am Ian Somerhalder, an actor and founder of the 
Ian Somerhalder Foundation, a not-for-profit organization dedicated to 
empowering, educating, and collaborating with people to help them 
positively impact the planet and its creatures. I was also recently 
named a United Nations Goodwill Ambassador for their environmental 
programs.
    I would like to thank the subcommittee for giving me the 
opportunity to speak here today and I'd like to especially thank 
Chairman Fleming, who represents my home State of Louisiana. I am 
honored to be able to speak to the need for redoubled efforts to 
protect rapidly declining populations of African elephants, wild 
habitats and wildlife. I appreciate and admire the field-based and 
policy work of Wildlife Conservation Society who continues to identify 
opportunities for me to have an impact on U.S. Government conservation 
actions.
    Some of you might remember my testimony from 3 years ago, when I 
first had the honor of addressing this subcommittee in support of the 
Multinational Species Conservation Funds (MSCF). These funds play a 
critical role in saving wild populations of many of the world's most 
iconic species, including the African elephants that are the subject of 
today's hearing, by supporting programs that control poaching, reduce 
human-wildlife conflict, and protect essential habitat. The MSCF are 
due for reauthorization, and I encourage the subcommittee to take up 
the bipartisan bills to extend these important programs--H.R. 39 and 
H.R. 1329, offered by Mr. Young and Mr. Pierluisi, two highly respected 
members of this subcommittee, and H.R. 1328, offered by Congressman 
George Miller. I would also urge the subcommittee to pass H.R. 262, 
which would extend the MSCF Semipostal Stamp, enabling the general 
public to continue to voluntarily provide funding for anti-poaching 
activities through purchases of the stamp.
    As you all know, I'm not a policy expert or a park ranger. I come 
here today as a grateful amplifier representing a vast, global, 
interwoven tapestry of voices deeply invested in the future of our 
environment and its creatures. Because of our united and unending 
reverence for all vessels of life, the threat of ongoing habitat 
destruction and wildlife poaching is painfully all too real to us. I 
spent my childhood entangled with the raw, majestic ecosystem of rural 
Louisiana. From a very young age, my family instilled in me our 
obligation to protect this delicate balance. Even beyond that, they 
illuminated how there was no distinction between the ecosystem and 
myself. What I had perceived as ``outside'' was also inside. When the 
Gulf Oil Spill devastated the bayous I know as home, I became aware of 
just how true this really is. Refusing to surrender to a harrowing 
sense of vulnerability, I united with an international span of 
changemakers ready to heal and restore the planet and its creatures. 
These changemakers are the IS Foundation family. Armed with compassion 
and equipped with a vast array of actionable skills, we knew our 
interdependent collaboration was necessary to reconcile both the 
environment we see as external as well as within. This understanding of 
our environment's ultimately borderless and symbiotic nature is pivotal 
to the work of ISF today.
    I'm grateful and fortunate to have achieved success as an actor, 
and with that comes what I see as the privilege of being able to raise 
awareness about issues I am passionate about. As the founder of the Ian 
Somerhalder Foundation, I have committed my time and financial 
resources to advancing environmental causes, land and wildlife 
conservation, animal welfare and the empowerment of our youth. In my 
work with oceans, I came across a quotation that rings particularly 
true to me by the legendary explorer and documentary filmmaker Jacques 
Cousteau, who said, ``People protect what they love.'' It is with that 
mindset that I am motivated to share my love and knowledge of the 
natural world with the American public and with all of you here today.
    In my previous testimony, I called attention to several global 
priority species, including tigers, rhinoceroses, marine turtles, and 
the great apes. Today, I'd like to focus on the plight of elephants, 
both in Asia and Africa.
    There's really only one word that can describe the situation of 
elephants in the wild today; they are in crisis. The characteristics 
that make elephants so iconic around the world--their beauty, majesty, 
and power--are precisely what make them so desirable to poachers. Quite 
frankly, there's no way to overstate how catastrophic the last few 
years have been for elephants. They are now under threat as never 
before by agents of transnational crime rings and terrorist 
organizations, who are mutilating helpless animals and murdering park 
rangers at a scale not seen since the international ivory ban went into 
effect.
    For these criminals, the black market in illegal ivory is no 
different than that of drugs, weapons, and counterfeit goods--it's just 
more lucrative. Today, numerous research organizations and nonprofits 
report that the illegal wildlife trade is the fourth largest in the 
world, more sizable than the trafficking of small arms, diamonds, gold, 
and oil. In a study \1\ released by the Stimson Center in January of 
this year, illegal wildlife trafficking was estimated to be worth $19 
billion. The same study reported that rhino horn (which is considered 
analogous to elephant tusks) is now worth about $50,000 per pound, more 
than gold or platinum.
---------------------------------------------------------------------------
    \1\ Berganas, J. (2014) Killing Animals, Buying Arms: Setting the 
Stage for Collaborative Solutions to Poaching and Wildlife Crime. 
Washington, DC: The Stimson Center. http://www.stimson.org/images/
uploads/research-pdfs/killing_animals_buying_arms_WEB.pdf.
---------------------------------------------------------------------------
    As a rule of thumb, wildlife is most vulnerable in regions where 
the rule of law is weakest. Therefore, it stands to reason that Dr. 
Iain Douglas-Hamilton,\2\ Founder of Save the Elephants, testified 
before the Senate Committee on Foreign Relations that Central Africa 
has been the most severely impacted by the dramatic increase in 
elephant poaching, losing more than half of its elephants in the last 
decade. The most current studies done by the Wildlife Conservation 
Society show that in 2012 alone, poachers killed approximately 35,000 
African elephants for their tusks. At this rate, African forest 
elephants will be extinct in another 10 years, and East Africa's 
savannah elephants will be right behind them.
---------------------------------------------------------------------------
    \2\ Douglas-Hamilton, I. (2012) Ivory and Insecurity: The Global 
Implications of Poaching in Africa. Washington, DC: Hearing before the 
Committee on Foreign Relations, U.S. Senate. http://www.gpo.gov/fdsys/.
---------------------------------------------------------------------------
    When we see an elephant, we are inspired with a special sort of 
wonder and reverence. They are truly amazing animals. Elephants live in 
close-knit families and can only be separated by death or by capture. 
When an elephant dies, it is mourned and buried by other members of the 
tribe. They are the only mammals besides humans that are known to have 
rituals for death. Elephants have been observed responding to the 
distress of other humans and animals by protecting them or intervening 
in harmful situations. The saying, ``An elephant never forgets,'' has 
been backed up by neuroscience, which has identified neural structures 
similar to dolphins, humans, and the great apes. Elephants use tools, 
exhibit self-awareness, engage in collaborative problem-solving and an 
especially talented elephant named Shanthi here at the National Zoo in 
DC can even play the harmonica and horn instruments.
    What will the world look like without elephants? How can we ever 
justify allowing this species, which is considered to be as intelligent 
as dolphins and the great apes, to become extinct?
    The situation is dire. The aforementioned Stimson Center report, 
Killing Animals, Buying Arms, cites Kenya Wildlife Service park rangers 
as describing their efforts against poachers as a war that they are 
losing. There is growing evidence that organizations like the Lord's 
Resistance Army and al-Shabaab fund terrorist attacks, recruitment 
efforts, guns and explosives with the proceeds of illegal ivory sales. 
Decades of war and instability in Central Africa have created a power 
vacuum in which these actors are free to do more or less whatever they 
want, from poaching to illegal mining to enlisting child soldiers to 
trafficking in sex slaves.
    There is no reason for us to give up hope. The desperation and 
greed driving elephant poaching and illegal ivory sales can be 
reversed. There is ample evidence that funding conservation efforts has 
a significant and positive impact in protecting wildlife and the humans 
tasked with guarding them. Research by the Wildlife Conservation 
Society shows that forest elephant densities, the most threatened 
subspecies found in Central Africa, are seven times higher where they 
are protected.\3\ Iain Douglas-Hamilton, who I mentioned earlier, also 
described the slaughter of elephants and other endangered wildlife as 
largely opportunistic, with poachers ``target[ing] the softest 
populations . . . mov[ing] from one population to another.'' \4\ 
Clearly, protective forces act as a deterrent when adequately staffed, 
trained, and armed. The support of U.S. governmental agencies like the 
Fish and Wildlife Service through the Multinational Species 
Conservation Funds and U.S. Agency for International Development play 
an absolutely essential role in supporting conservation forces 
internationally, from assisting in training eco-guards and supporting 
prosecutions to bolstering surveillance of key border crossings and 
investigating financial assets and much, much more.
---------------------------------------------------------------------------
    \3\ The Elephant Poaching Crisis: A Call for Action. Washington, 
DC: The Wildlife Conservation Society.
    \4\ Douglas-Hamilton, I. Ibid.
---------------------------------------------------------------------------
    There is also reason to hope that we can have an impact on reducing 
the demand for ivory and other endangered species products as well. All 
the research by governmental and non-profit organizations indicates 
that most illegal ivory is sold to the Chinese market. Far from being 
dispassionate to the plight of elephants, however, the Chinese 
government strictly protects its own forest elephants.\5\ What this 
would suggest to me is that there's a fundamental lack of understanding 
about the connection between the large-scale poaching of elephants (and 
rhinoceroses, for that matter), and the presence of ivory in the form 
of trinkets and potions for commercial sale. I see this as a personal 
challenge to raise awareness about the incredible costs of wildlife 
trafficking, and I hope that U.S. diplomacy will continue to work 
toward that goal as well.
---------------------------------------------------------------------------
    \5\ Douglas-Hamilton, I. Ibid.
---------------------------------------------------------------------------
    Although China may be the biggest market, the United States is also 
one of the largest, ranking as high as number two worldwide in some 
assessments.\6\ This gives the United States the opportunity to lead 
the international community's response to the elephant poaching 
crisis--much as it did when this Congress passed the initial U.S. ban 
on the commercial ivory trade in 1988. Just a year after passage of 
that important legislation, the international community agreed to a 
similar ban on the global trade in ivory. The actions of the U.S. Fish 
and Wildlife Service to tighten the U.S. ban on the commercial trade in 
ivory are critically important, not just to ensure that the United 
States will no longer be a destination for illegal ivory, but to show 
the international community--and China in particular--that the United 
States is absolutely serious about confronting the mass poaching of 
elephants and is willing to assume the leadership role once again to 
shutdown the demand for illicit ivory products.
---------------------------------------------------------------------------
    \6\ Elephants in the Dust: The African Elephant Crisis. United 
Nations Environment Programme, et al. http://www.unep.org/pdf/
RRAivory_draft7.pdf.
---------------------------------------------------------------------------
    If we do not lead, who will? And if we do not lead now, how much 
longer will there still be elephants left to save? When I reach out to 
my followers on social media about elephant poaching and wildlife 
trafficking, the response is powerful and positive. Retweets and 
favorites on Twitter number in the thousands, and the response on 
Facebook is in the hundreds of thousands. The outpouring of emotion is 
strong, and the message is clear: the American people want decisive and 
meaningful action from their government. It's up to you to enforce 
tough laws and build global partnerships to promote global enforcement 
to address wildlife crimes.
    Although I understand that the focus of this hearing is on the 
elephant poaching crisis and the ban on commercial trade in ivory, I'd 
like to take a moment to talk about a related topic that is under the 
jurisdiction of this subcommittee that affects all wildlife, and that 
is the vital importance of protecting wild habitats, both at home and 
abroad.
    Since I last testified before this subcommittee, I've had the 
opportunity to travel to parts of the world that are under mounting 
pressure from environmental and human threats. In particular, I've 
spent significant time over the last year in Africa, where 
desertification, agriculture, and urbanization have all played a role 
in displacing crucial grassland and forest landscapes that are the home 
to thousands of species, large and small.
    There are many strategies for pursuing land conservation. Some 
organizations focus on protecting land- and seascapes with the greatest 
density of biodiversity, which include tropical rainforests, coral 
reefs, floodplains, and more. Other organizations focus on managing 
land- and seascapes that are the most productive in terms of 
agricultural and fishing output or mineral and timber resources. 
Regardless of the approach, strong governance structures are 
fundamental to protecting habitats and pursuing smart and sustainable 
land use management policies.
    The plight of Great Ape species worldwide illustrates the 
importance of maintaining wild habitats. In Sumatra and Borneo, the 
orangutan is considered critically endangered due in large part to the 
decimation of tropical forests for logging and agricultural interests, 
both legal and illegal.\7\ Their native habitat is increasingly 
fragmented by human activity, which results in an orangutan population 
that is at the same time more disparate and more concentrated. 
Consequently, unusual disruptions like disease, resource scarcity, or 
fire have an outsize impact on an already vulnerable population, making 
them unable to rebound from adversity. The splintering of a once-large 
population due to fragmentation also poses serious problems in 
maintaining genetic diversity, which is necessary for the species to 
remain strong and vital. Orangutans are not alone in this plight--
gorillas, chimpanzees, and bonobos are similarly threatened by habitat 
disruption.\8\
---------------------------------------------------------------------------
    \7\ Orangutans. WWF International. http://wwf.panda.org/what_we_do/
endangered_species/great_apes/orangutans/.
    \8\ Great Apes. WWF International. http://wwf.panda.org/what_we_do/
endangered_species/great_apes/.
---------------------------------------------------------------------------
    As a nation, the United States also has an interest in promoting 
the political and economic stability of other countries throughout the 
world. Habitat conservation must take place in partnership with 
economic development, not at odds with it. Coastal communities will 
only become more vibrant and prosperous with clean water, unpolluted 
beaches, and carefully managed fisheries. At times, conservation 
programs are even synonymous with economic revitalization. As Dr. John 
Robinson, Executive Vice President of Conservation and Science at the 
Wildlife Conservation Society, who testified alongside me in 2011,\9\ 
said, ``Strengthening the Virunga National Park in the Democratic 
Republic of Congo provided jobs for hundreds of rangers during that 
nation's long civil war. These rangers both protected mountain gorillas 
and their habitat and helped control illegal logging and charcoal 
manufacturing that provided revenues to the insurgencies.'' The illegal 
exploitation and trade in wildlife and natural resources that fuels 
regional conflict and funds militias must be stopped by global 
enforcement efforts and proactive large landscape-level conservation.
---------------------------------------------------------------------------
    \9\ Robinson, J.G., (2011) Legislative Hearing on H.R. 50, H.R. 
1760, and H.R. 1761. Washington, DC: Hearing before the Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs. http://www.gpo.gov/
fdsys/.
---------------------------------------------------------------------------
    Let me raise one more reason for taking a strong stance on 
protecting endangered habitats throughout the world. I, like so many 
people, have become the person I am today in relation to the natural 
world. Growing up in Louisiana left an indelible imprint on who I am as 
a person. I would venture to guess that it's the same for many of the 
distinguished members of this subcommittee and their constituents, 
coming from such incredible natural landscapes as those seen in the 
Mariana Islands, Alaska, Guam, Puerto Rico, and each of your districts. 
It is my belief that we have a sacred responsibility to be stewards of 
the Earth, and especially of those regions whose survival hangs in such 
a delicate balance. Ultimately, to restore natural prosperity to these 
regions, we will have to invest in holistic solutions. At the IS 
Foundation, we are often asked why we don't localize our efforts into 
one particular need. Because we view the environment as one 
meticulously interconnected organism, we believe interconnected 
solutions are what truly create widespread and quantifiable change. 
After all, an organization that only focuses on saving endangered 
species is losing sight of the habitat restoration, waterway health, 
and economic change necessary to holistically fill that need.
    I would like to add one more issue for consideration, and that is 
the emotional resonance that wildlife and habitat conservation has with 
the American people. The bald eagle, the American Bison and the Grand 
Canyon are as much icons of our great country as the values of liberty 
and justice for all. In my travels and interactions with people around 
the world, it has been made more than clear to me that animals like 
elephants, tigers, rhinoceroses, sea turtles, and the Great Apes 
illuminate the imagination and inspire compassion from all corners of 
the globe. The United States has an incredible opportunity to safeguard 
the long-term future of endangered species and landscapes while also 
investing in the political and economic stability of foreign nations.
    On behalf of the Ian Somerhalder Foundation, I urge the 
subcommittee to work with the U.S. Fish and Wildlife Service and the 
Administration to quickly move ahead on tightening the ban on 
commercial ivory trade so that the United States can once again show 
its leadership in saving the African elephant. Thank you, again, for 
this opportunity to testify, and I look forward to your questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Somerhalder.
    And let me give an advisory here. It looks like our votes 
will probably be more like 5 o'clock, and I know Mr. 
Somerhalder may have an airplane to catch. So you can leave any 
time you wish, but we hope you can stay as long as you will.
    Mr. Somerhalder. Thank you, Mr. Chairman. I would love to 
stay as long as I can. So hurry up, guys.
    [Laughter.]
    Dr. Fleming. Mr. Hayes, you are recognized, sir, for 5 
minutes.

   STATEMENT OF THE HON. DAVID J. HAYES, VICE CHAIR, FEDERAL 
            ADVISORY COUNCIL ON WILDLIFE TRAFFICKING

    Mr. Hayes. Thank you, Mr. Chairman. Thank you, Ranking 
Member Lowenthal, and members of the committee.
    My name is David Hayes. I am appearing in my personal 
capacity. I am currently a visiting professor at Stanford Law 
School. I am also the Vice Chair of the Federal Advisory 
Council on Wildlife Trafficking that the President appointed 
under his executive order from last July, Executive Order 
13648, and as you know, I served as the Deputy Secretary of the 
Department of the Interior until last July.
    I would like to put today's hearing in a bit of context 
first. It is about the crisis that the elephants are facing in 
Africa, and it spiked in the last 5 years. Over the last 5 
years, we now have a new phenomenon that the intelligence 
communities of the United States have confirmed last year, of 
organized criminal syndicates orchestrating the killing of 
large numbers of elephants. This is different than in the 1980s 
when it was more opportunistic killings by smaller bands who 
were trying to essentially fund local conflict. This is now 
considered to be the fifth largest transnational organized 
criminal syndicate in the world, right behind arms, drugs and 
human trafficking.
    The devastation of the elephants is worrisome enough, as 
Ian explained. The numbers are alarming: 35,000 elephants 
killed estimated in 2012, another 20,000 just confirmed last 
year. At these rates, this is on a base of maybe 400,000 
elephants for the continent as a whole. This is unsustainable 
in terms of the number of elephants that are being killed.
    But in addition to the impact on the elephants, the 
connection to organized crime and terrorist groups is 
undermining the integrity of governments in Africa; is clearly 
funding terrorist groups and militias. The alarm was really 
pulled by then Secretary Hillary Clinton who in November of 
2012 asked the intelligence agencies to look into this issue.
    They reported back about a year later and confirmed the 
kind of tides that we are talking about, and that led to the 
President issuing an executive order July 1 in Tanzania to 
combat wildlife trafficking, and here is what he said. 
``Poaching operations have expanded beyond small scale, 
opportunistic actions to coordinated slaughter commissioned by 
armed and organized criminal syndicates. The survival of 
protected wildlife species such as elephants, rhinos, great 
apes, tigers, sharks, tuna and turtles has beneficial economic, 
social and environmental impacts that are important to all 
nations. Wildlife trafficking reduces those benefits while 
generating billions of dollars in illicit revenues each year, 
contributing to the illegal economy, fueling instability and 
undermining security.''
    What the President did then is a whole of government effort 
to get behind and to solve this true crisis in terms of 
wildlife trafficking. He formed a cabinet level task force 
under the executive order chaired by Secretary Kerry, Secretary 
Jewell, and Attorney General Holder. He directed them to come 
up with a national strategy to deal with combatting wildlife 
trafficking, and he formed the Advisory Council that I am the 
Vice Chair of.
    That led to the national strategy document that came out in 
February of this year. It is a comprehensive document that 
looks to strengthening enforcement on the ground in Africa, 
also in strengthening enforcement in the transshipment of these 
articles from Africa to demand nations, including the United 
States, but especially Asia, and second, reducing demand for 
this wildlife, illegally traded wildlife, and third, expanding 
international cooperation and commitment.
    Now, what the Fish and Wildlife Service is doing here is a 
small piece of this comprehensive effort. The piece is directed 
at tightening up restrictions on commercial trade in ivory. 
Those commercial restrictions are in the law today. As has been 
mentioned before, the 1988 Elephant Conservation Act makes 
illegal any import of any African ivory since 1989.
    When CITES came, because of U.S. leadership, CITES then 
came in and confirmed that as a global ban. What has happened 
in recent years is that ban had deteriorated, and with the last 
5 years and the increased attention by these criminal 
syndicates, there is now a flood of illegal ivory moving around 
the world. We need to get at it.
    The United States simply needs to tighten up the loopholes 
and prosecute existing legal requirements. That is what this is 
all about.
    I will say finally, the Fish and Wildlife Service clearly 
can do, I think, a somewhat better job in assuring Americans 
that they are not in danger of being prosecuted for owning 
ivory and for commercially trading ivory when it fits within, 
for example, the antique exemption of an ESA. My understanding 
is the Fish and Wildlife Service is beginning a public 
rulemaking within 2 months that will provide an opportunity for 
the public to provide input and to establish appropriate legal 
standards.
    Thank you very much.
    [The prepared statement of Mr. Hayes follows:]
  Prepared Statement of David J. Hayes, Vice-Chair, Federal Advisory 
                    Council on Wildlife Trafficking
    My name is David J. Hayes. I appreciate the opportunity to appear 
before the Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs to discuss actions that the U.S. Fish & Wildlife Service (FWS) 
is taking to implement restrictions on commercial trade in ivory and 
related issues.
    I am testifying today in my personal capacity. I currently am a 
Distinguished Visiting Lecturer at Law at Stanford Law School. I also 
am the appointed Vice-Chair of the Advisory Council on Wildlife 
Trafficking, which the President established under Executive Order 
13648 (``Combating Wildlife Trafficking''). As this subcommittee is 
aware, I served as the Deputy Secretary of the U.S. Department of the 
Interior from the outset of the Obama administration until last July. I 
also served as Deputy Secretary in the Clinton administration.
     the scourge of ivory trafficking: context for today's hearing
    Over the last 5 years, organized criminal syndicates have 
orchestrated an alarming surge in the killing of tens of thousands of 
elephants for their ivory. An estimated 35,000 elephants were killed 
for their ivory in Africa in 2012, and preliminary information 
indicates that at least 20,000 additional elephants were killed in 
2013.
    The devastation of some of Africa's most iconic animals, including 
the largest mammals who roam the earth, is cause enough for alarm. But 
behind the local villagers who carry out the killings lie sophisticated 
criminal syndicates that are reaping billions of dollars in illegal 
profits, fueling instability and corruption in African and Asian 
nations, and helping arm militias and terrorist groups. The 
international criminal menace--which has expanded its trafficking 
activities beyond drugs, arms and human trafficking into the newly 
lucrative illegal wildlife trade--poses a direct threat to stability 
and order in important emerging economies and U.S. trading partners in 
Africa and Asia. And these real and present dangers are being fueled by 
demand for ivory--a non-essential luxury item.
    Over the past 2 years, the world has begun to awaken to the double 
threat posed by illegal wildlife traffickers: (1) the cruel killings of 
tens of thousands of Africa's most iconic animals and the growing 
tragedy triggered by the mass killings, including the fraying of 
Africa's deep cultural, environmental and economic linkage and shared 
identity with its wildlife; and (2) the corrosive influence that 
massive illegal wildlife trafficking is having on important U.S. 
interests in Africa and Asia, spawned by the traffickers' unholy 
alliances with militias, terrorist groups and corrupt officials.
    Then-Secretary of State Hillary Clinton first drew attention to 
these emerging threats in an important State Department address in 
November 2012. She triggered the U.S. intelligence agencies' analysis 
and subsequent confirmation of the ties between the criminal syndicates 
involved in wildlife trafficking and their connection with militia and 
terrorist groups. Simultaneously, leaders in the U.S. Department of the 
Interior--which oversees African wildlife programs through its Fish & 
Wildlife Service and is the U.S. lead in implementing the international 
convention that restricts trade in endangered species (CITES)--also 
sounded the alarm within the Administration. More specifically, while 
visiting in Tanzania as Deputy Secretary in early 2013 on behalf of 
FWS's Africa program, I learned first hand about the mass killings of 
elephants in Africa and resuscitation of the illegal ivory trade, and 
returned to the United States, committed to work with the White House 
and take on the issue.
    A few months later, the President used the opportunity of his visit 
to Africa to make combatting international wildlife trafficking a 
priority for the Administration. See Executive Order 13648 (``Combating 
Wildlife Trafficking'') (July 1, 2013). Section 1 of the President's 
Order speaks clearly and strongly to the threat that the international 
wildlife trafficking scourge poses to U.S. interests. It states:

        ``The poaching of protected species and the illegal trade in 
        wildlife and their derivative parts and products (together know 
        as ``wildlife trafficking'') represent an international crisis 
        that continues to escalate. Poaching operations have expanded 
        beyond small-scale, opportunistic actions to coordinated 
        slaughter commissioned by armed and organized criminal 
        syndicates. The survival of protected wildlife species such as 
        elephants, rhinos, great apes, tigers, sharks, tuna and turtles 
        has beneficial economic, social and environmental impacts that 
        are important to all nations. Wildlife trafficking reduces 
        those benefits while generating billions of dollars in illicit 
        revenues each year, contributing to the illegal economy, 
        fueling instability, and undermining security. Also, the 
        prevention of trafficking of live animals helps us control the 
        spread of emerging infectious diseases. For these reasons, it 
        is in the national interest of the United States to combat 
        wildlife trafficking.'' (Emphasis added.)

    The President took several concrete steps in his Executive Order to 
give teeth to his policy pronouncement, including: (1) the formation of 
a cabinet-level Presidential Task Force on Wildlife Trafficking (Task 
Force)--chaired by Secretaries Kerry and Jewell and Attorney General 
Holder; (2) a directive that the Task Force develop and then implement 
a National Strategy to Combat Wildlife Trafficking; and (3) the 
formation of an Advisory Council on Wildlife Trafficking to assist the 
Administration in developing and implementing the National Strategy. 
The President's Executive Order also directed the Task Force to explore 
how best to fold wildlife trafficking into the Administration's 
previously announced initiative on ``Transnational Organized Crime.''
    The Task Force and Advisory Council heeded the President's call 
and, on February 11, 2014, the White House released the National 
Strategy for Combating Wildlife Trafficking. The National Strategy lays 
out an ambitious agenda, identifying three strategic priorities to 
guide the U.S. response to the global wildlife trafficking crisis: (1) 
Strengthen Enforcement; (2) Reduce Demand for Illegally Traded 
Wildlife; and (3) Expand International Cooperation and Commitment. The 
National Strategy then builds out 24 key implementation areas under the 
three strategic priorities. Adding to the mix, the Advisory Council 
took action on June 9, 2014 and formally endorsed 19 specific 
recommendations to implement the National Strategy and move forward 
with a comprehensive, multi-front war on wildlife traffickers.
     fws actions to implement the ban on commercial trade in ivory
    As noted above, tightening up existing restrictions on commercial 
trade in ivory represents one element of a whole-of-government, 
multifaceted effort to combat illegal wildlife trafficking. Ending the 
slaughter, corruption and funding of militias and terrorist groups 
caused by illegal traffickers required attention on all of the three 
strategic priorities identified in the recently released National 
Strategy document: (1) Strengthen Enforcement; (2) Reduce Demand for 
Illegally Traded Wildlife; and (3) Expand International Cooperation and 
Commitment.
    That said, restrictions in commercial trade in ivory play an 
important role in the overall effort because they focus U.S. and 
worldwide consumer attention on the devastating impact that ivory sales 
are having on elephant populations and de-glamorize the purchase of 
ivory. Restrictions on ivory trade also dramatically shrink the legal 
market for ivory products, thereby unmasking the ``cover'' that legal 
or pseudo-legal markets now provide for ivory traffickers. Doing so 
unleashes enforcement efforts in the United States, and worldwide, 
against the movement and sale of ill-begotten ivory.
    Previous experience validates the important role that restrictions 
on ivory trade can have in striking back at illegal wildlife 
traffickers. More specifically, in 1989, the world community responded 
to a previous surge in elephant killings in Africa by uplisting 
elephants to Appendix I status under the CITES convention and banning 
commercial imports and exports of ivory. The 1989 ban had a dramatic 
impact. Ivory markets in the United States and Europe collapsed. With 
the ban in place, poaching rates declined precipitously and elephant 
populations in Africa stabilized at around 600,000 (down from a peak of 
1.2 to 1.3 million elephants in the late 1970s). Elephant populations 
then remained relatively healthy for nearly 20 years--with greatly 
reduced ivory-related killings--until poaching rates began to escalate 
rapidly again around 2008, accelerating to today's massive levels of 
killings, which are threatening the continued existence of elephants in 
the African wild.
    A number of factors have come together since 2008 to trigger the 
spiking in elephant killings. Two of the most important factors revolve 
around erosion of the 1989 ban on commercial trade in ivory. The most 
striking undermining of the ivory ban occurred in 1999 and again in 
2008, when CITES allowed sales of national stocks of ivory in the hope 
that adding more legal ivory into the market on a tightly regulated 
basis would moderate demand, bring down prices, and demonstrate that a 
regulated ivory market could be successful.
    The experiment was a disaster. The introduction of new, legal ivory 
undermined the worldwide ban on commercial trade in ivory and provided 
cover for illegal syndicates to dramatically increase elephant killings 
and sales of illegal ivory. Efforts to track and regulate the legal 
ivory that entered the marketplace in 1999 and again in 2008 failed 
spectacularly, with China, at one point, being unable to account for a 
significant amount of the ivory that it had purchased.
    In addition, the weakening of the ban on ivory trade unfortunately 
coincided with the rapid rise of a newly wealthy middle and upper class 
in Asia which has fueled increased demand for ivory. The potential 
market is huge, and the run-up in the price in ivory with no apparent 
slowing of demand, indicate that demand for ivory is inelastic. So long 
as ivory is available for sale and viewed as an acceptable purchase, 
the voracious market will continue to incentivize criminal syndicates 
to kill elephants for their ivory in record numbers--threatening the 
viability of the species in Africa.
    These developments have led experts to agree that elephant killings 
will continue at a high rate unless the United States and other nations 
double down on the 1989 ban on commercial trade while, at the same 
time, launching a sophisticated demand reduction strategy. Parties to 
the CITES convention are taking steps in this direction, demanding that 
a number of nations that have clearly been violating the 1989 ban--
including China, Vietnam, Kenya and Tanzania, among others--develop 
action plans to clamp down on illegal transport and sale of ivory and 
rhino horn. CITES' Standing Committee will be reviewing those plans 
this summer for their sufficiency.
            implementing the ivory ban in the united states
    Here in the United States, the initial success of the 1989 ban on 
most imports of African elephant ivory also has eroded over time. While 
early messaging of the ban prompted many retailers to get out of the 
ivory business, loopholes and exceptions in U.S. law, along with lax 
enforcement, allowed some commercial trade to continue. The 
Administration recognized that U.S. leadership in stopping the dramatic 
increase in wildlife killings depends, in part, on tightening up our 
own administration of the ban on commercial trade in ivory. That is why 
the White House combined the release of the National Strategy on 
February 11, 2014, with an announcement that FWS would take 
administrative actions to more fully implement a ban on commercial 
trade in ivory.
    A key point in this regard is that U.S. law already outlaws 
virtually all commercial trade in ivory. The cornerstone of U.S. 
restrictions on ivory trade is the African Elephant Conservation Act of 
1988, 16 U.S.C. 4201 et seq. (AECA). Section 4223 of the AECA makes it 
unlawful, as general matter, to import raw or worked ivory that was 
illegally exported from an ivory producing country and to import raw or 
worked ivory from a country for which a moratorium is in place under 
section 4222 of the Act. Under regulations that were promulgated under 
the authority of the Endangered Species Act, no downstream commercial 
trade is allowed in ivory products that were illegally imported. 50 CFR 
17.40(e).
    Thus, in accordance with the AECA, when the CITES Appendix-I 
listing of the African elephant went into effect in 1990, it 
essentially cut off commercial imports and exports of elephant ivory 
here in the United States, in addition to the scores of other nations 
that adhere to CITES requirements. Under an administrative exception to 
the AECA moratorium, the only commercial ivory imports allowed after 
1989 were ivory products that qualified as ``antiques'' under the 
Endangered Species Act definition. 16 U.S.C. 1539(h).
    FWS's recent actions in tightening up the already-in-place 
restrictions on commercial trade in ivory are modest.
    First, FWS has determined that the exception for antiques under the 
ESA, which allows for commercial trade in ivory that meets the ESA 
definition of antique, including that it is more than 100 years old, 
should not apply to imports that are proscribed under the African 
Elephant Conservation Act. This is a common sense change that closes an 
importation loophole that has long been at odds with the strong import 
ban that Congress adopted in the AECA.
    Second, when explaining that it will no longer apply an ``antique'' 
exception for items containing African elephant ivory that are imported 
for commercial purposes, FWS indicated that it intends to clarify the 
type of documentation that may be used to verify the provenance of an 
item, including the circumstances under which it was imported into the 
United States (for example, verifying that the ivory was legally 
imported into the United States without restrictions), to allow for on-
going commercial trade which is allowed under current regulations. FWS 
will be proceeding with this clarification via a public rulemaking 
process that it reportedly intends to initiate soon.
    In clarifying of the type of verification needed to establish that 
an ivory product can be traded commercially in the U.S. because it 
qualifies as ``antique'' ivory under the ESA, the Service will be 
following Congress' direction. Congress has made clear that persons who 
seek to benefit from exceptions to ESA prohibitions, such as the 
``antique'' ivory exception, have the ``burden of proof'' in 
establishing the exception. 16 U.S.C. 1539(g).
    It is my view that in clarifying the proof needed to establish 
legality under the law, FWS should adopt a common sense approach that 
offers law-abiding ivory owners reasonable avenues to obtain required 
certifications. But the showings must be vigorous enough so as to 
prevent fraudulent claims by agents of the sophisticated traffickers 
who are making billions from the sale of ivory from freshly killed 
elephants. The Advisory Council on Wildlife Trafficking made a similar 
point in adopting and forwarding the following recommendation to the 
cabinet-level Task Force in a public meeting held on June 9, 2014:

        The Interior Department Should Continue to Take Administrative 
        Steps to Tighten and Clarify the U.S. Restrictions on 
        Commercial Trade in Ivory and Rhino Horn

        The Advisory Council supports the Administration's efforts to 
        use available administrative tools to close loopholes and 
        tighten up the ban on commercial trade on ivory products in the 
        U.S., consistent with existing law. The Advisory Council urges 
        the Interior Department's Fish & Wildlife Service to work with 
        the regulated community and provide non-burdensome permit 
        approvals for non-commercial import and export of products that 
        contain ivory (e.g., orchestra instruments that contain ivory; 
        traveling museum exhibitions, etc.), and for clear and 
        reasonable burden of proof standards that qualify ivory 
        products as ``antiques'' that are exempt from the Endangered 
        Species Act. The Council also urges FWS to identify and foster 
        donation (e.g., to a museum), disposal and other options that 
        are available to individuals who possess ivory or rhino horn 
        products that cannot be traded commercially.

    In sum, it is appropriate for FWS to take these modest steps to 
clarify what type of commercial trade in ivory is legal, and what is 
not. In so doing, FWS is reminding Americans that U.S. law prohibits 
almost all commercial trade in ivory and that the law requires 
individuals seeking to sell ``antique'' and pre-ban ivory products to 
come forward with credible evidence that they qualify for these 
exceptions to the general rule. By taking these actions, FWS is not 
impacting the right of U.S. citizens to own ivory, or to trade ivory 
products if they can make required showings.
    In addition to being authorized and appropriate under existing law, 
it is important that the United States enforce existing restrictions on 
ivory trade in order to ensure that the United States does not provide 
a market for the illegal ivory trade that has been spiking, worldwide, 
over the past few years.
    As a final point, by taking steps to reconfirm and clarify existing 
restrictions on commercial trade in ivory, the United States 
strengthens its hand in insisting that China and other Asian nations 
take similar steps and shut down the rampant illegal trading activity 
that has infected their domestic ivory markets. If they do not, the 
United States can and should demand that offending nations either get 
in line, or suffer the consequences of trade sanctions imposed under 
the authority of U.S. law (the Pelly Amendment) or in concert with 
other nations, under the CITES treaty. The Advisory Council formally 
adopted a specific recommendation along these lines in the meeting that 
it held on June 9. The recommendation reads as follows:
        The U.S. CITES Delegation Should Aggressively Advance the 
        President's Agenda to Combat Illegal Wildlife Trafficking

        The Advisory Council recommends that the Task Force work 
        closely with the U.S. delegation to the upcoming CITES Standing 
        Committee (SC) meeting, and other CITES-related activities, and 
        ensure that: (1) the United States is represented at an 
        appropriately high level; and (2) the U.S. delegation 
        aggressively advances the President's agenda to combat illegal 
        wildlife trafficking. In particular, the Advisory Council 
        recommends that the United States' CITES delegation work with 
        other member states to hold countries accountable for the 
        implementation of their CITES obligations--both recognizing 
        positively when countries have made significant progress, and 
        taking action when they have not. The U.S. also should consider 
        imposing trade sanctions under U.S. law (e.g., the Pelly 
        Amendment) when trading partners are persistently violating 
        CITES or other anti-trafficking requirements.

    Thank you for the opportunity to submit this testimony to the 
subcommittee.

                                 ______
                                 

    Dr. Fleming. Congressman Fields, you are now recognized.

  STATEMENT OF THE HON. JACK FIELDS, FORMER REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Fields. Thank you, Mr. Chairman. Chairman Fleming, Mr. 
Lowenthal, Mr. Young, my former leader, it is a real honor to 
be here today. My name is Jack Fields. I am a former Member, 
serving 1980-1996 from the State of Texas. I was co-author of 
the African Elephant Protection Act of 1988, and today I 
represent no one other than myself, although I would like to 
think I represent all the Members who voted for that Act, both 
current and former.
    And I want to comment just a moment about that Act because, 
Mr. Chairman, when I heard you speak just a moment ago, to me 
you really focused this in a way that it really should be, the 
framing that the real problem is the poacher, as did you, Mr. 
Lowenthal; that if we are all sincere about doing something 
about the sustainability of the African elephant, we need to 
focus on the poacher. We need to focus on the countries that 
allow the importation of illegally taken ivory. I mean, that is 
where our focus should be.
    And I say that in the context that I did that very thing 
with Tony Beilenson, a former Member, liberal Democrat from 
California, great friend of mine, great legislator. For those 
of you on the Democrat side of the aisle, you should be so 
proud that you were represented by someone like that, a great 
gentleman, great intellect, great integrity.
    And Tony and I came from different cultures, different 
philosophies, but we found a commonality in that we wanted to 
see the African elephant preserved. So we started 
conversations, and we had conversations with groups that were 
against hunting. We had conversations with groups that were for 
hunting, and we decided that we were going to put collateral 
issues aside, and I suggest to you today that this issue 
regarding ivory is a collateral issue. I suggest to you this 
issue regarding the ban of importation of ivory from Tanzania 
and Zimbabwe, that is collateral.
    If you are really looking at trying to preserve the 
elephant population, to me the long and short of it is you 
should look on the market demand side. You should see who is 
making the money, follow the money, chase the money.
    And when Tony and I came up with the legislation that 
became the Elephant Protection Act of 1988, we went beyond just 
the passage of that legislation. If we had stopped there, we 
would have made a monumental mistake. The first thing we did 
after the passage, we had a meeting with Secretary Jim Baker, 
who was then Secretary of State, and said, ``There is a real 
problem in Japan. Forty percent of the world's ivory is being 
consumed in Japan for the hanko, their signature stamp''.
    Well, lo and behold, when Secretary Baker met with the 
Japanese, the Japanese decided to adhere to CITES. So all of a 
sudden, 40 percent of the world's demand was dried up.
    The second thing we did, we went and met in the Members' 
dining room with the Ambassador for Great Britain because at 
that time Great Britain had governing authority over Hong Kong. 
We said there is a real problem. We would hope that you would 
adhere to CITES, put the noose around Hong Kong, which the 
British did.
    Then we found that the ivory was being smuggled into China. 
So we thought we were on a roll. We had been successful 
regarding Japan. We had been successful regarding Hong Kong. We 
will meet with the Chinese Ambassador. When we met with the 
Chinese Ambassador, he said, ``Mr. Congressman, you made a big 
mistake. There is no post ivory in our country.''
    Tony and I disagreed. We introduced a piece of legislation 
that would have denied China $150 million in fishery exports. 
We held a hearing, not in this room, but just down the hall. 
The room was populated by journalists from China, and all of a 
sudden the Chinese Ambassador came back after that hearing and 
said, ``Believe it or not, we found a problem and we are going 
to adhere to CITES.''
    The price of ivory, the net effect, the price of ivory at 
that point was $100 per pound. It dropped to almost zero. 
Poaching became almost nonexistent, and those countries that 
had good elephant conservation programs like Zimbabwe, like 
Tanzania, their elephant populations began to grow. Today you 
have an elephant population in Zimbabwe, as an example, that is 
twice what the local habitat can actually sustain.
    Mr. Chairman, I would like to submit the remainder of my 
testimony for the record but just close with this. You have a 
tremendous amount of power, you and Mr. Lowenthal, and I was 
very intrigued by what Mr. DeFazio said. I mean, it sounds to 
me like there is a real opportunity for those of you who are 
sincere and want to do something to sustain the population of 
African elephants to work together and shine that spotlight on 
the people who are the bad actors, to follow the money and 
examine sanctions, examine legislation that prevents exports to 
this country.
    You know, most countries cannot stand that type of global 
spotlight, and I encourage you to do that, and I encourage you 
to get as much information as you can from our government, from 
international entities and come forward with a bipartisan 
collaborative process that really does work.
    What has been presented by Fish and Wildlife, in my 
opinion, will not work. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Fields follows:]
 Prepared Statement of the Hon. Jack Fields, Former Member of Congress 
                        from the State of Texas
    Chairman Fleming and Ranking Member Sablan, thank you for this 
opportunity to testify before your subcommittee this afternoon. My name 
is Jack Fields, I am a former Member of Congress, representing the 
Eighth Congressional District of Texas from 1980-1996 and one of the 
co-authors of the African Elephant Protection Act of 1988. Today, I 
represent no one other than myself, although I would like to think that 
I represent all Members, former and current, who supported the African 
Elephant Conservation Act of 1988.
    The African Elephant Conservation Act of 1988 was truly a 
bipartisan piece of legislation cosponsored by Tony Beilenson, a 
liberal Democrat from California, and me, a conservative Republican 
from Texas. For those of you on the Democrat side of the aisle, you 
would have had a great deal of respect for Tony Beilenson as a real 
gentleman--he was a legislator's legislator, he had a keen intellect, 
unmatched sincerity and integrity, and he had a passion to save the 
African elephant.
    And, while Tony and I came from different cultures and represented 
different constituencies, we both realized that we had to do something 
to stop the poachers who were decimating the elephant herds of Africa--
so, we focused on our commonalities rather than our differences.
    We brought together a disparate group of stakeholders--we met and 
engaged with the Humane Society of the United States, the African 
Wildlife Foundation, World Wildlife Fund, and other groups who did not 
support sport hunting--and, we met with the Houston Safari Club, Safari 
Club International, the Dallas Safari Club and other groups who did 
support sport hunting.
    The result of these meetings was the creation of a bipartisan group 
who put all collateral issues aside to focus on saving the African 
elephant, and recognizing that the poacher and the countries who did 
not adhere to CITES and who allowed poached ivory into their borders, 
these were our enemies.
    Our bipartisan consensus resulted in the African Elephant 
Conservation Act of 1988 which remarkably passed both the House and the 
Senate by voice vote.

    The African Elephant Conservation Act of 1988 did several important 
things:


  1.  It stopped the importation of carved ivory into this country.

  2.  It had a finding that sport hunting was biologically neutral and 
            had no impact on sustainable populations of elephants.

  3.  It rewarded those countries who had good conservation programs 
            and adhered to the rules established by CITES.

    But, Tony and I did not stop with the passage of the legislation--
we felt that the legislation was the foundation and gave U.S. 
congressional authority to go after the real enemy--the poacher--and 
that the best way to stop the poacher was to dry up the ``market/
demand'' side of the equation.
    So, we began a series of very important meetings together as a team 
and, I think we were a good team--Tony, as a Democrat represented the 
majorities in the House and Senate, and, as a Republican, I had assets 
in President Ronald Reagan's administration.

  1.  Our first meeting was with Jim Baker who at that time was 
            Secretary of State. We made a case that 40 percent of the 
            world's ivory was being consumed by the Japanese--Secretary 
            Baker agreed to intervene with the Japanese who very 
            quickly stopped the importation of ivory into their 
            country--a tremendous victory to dry up 40 percent of the 
            world's market.

  2.  Next, Tony and I met with the British Ambassador--because at that 
            time the British governed Hong Kong. We met in the Member's 
            dining room--to our surprise, the British agreed to ban the 
            importation of ivory into Hong Kong--another great 
            victory--more demand was dried up!

  3.  Then, we learned that the ivory was being shifted into China from 
            Hong Kong. We asked for a meeting with the Chinese 
            Ambassador--who told us that no poached ivory was in China. 
            Tony and I differed with the Ambassador and asked that 
            China stop the importation of poached ivory and adhere to 
            CITES. We were told that China was not a problem, which 
            resulted in Tony and I introducing legislation denying the 
            Chinese $150 million in fishery exports into the United 
            States. We held a hearing on this bill, and then we were 
            told that the Chinese had found a problem and that it was 
            being corrected and that their country would adhere to 
            CITES. Another great victory for the African elephant and 
            defeat for the poacher. Sadly, in the case of China, 
            however, that victory was not a permanent one.

    So, what was the net result of our legislation coupled with our 
efforts to dry up the market/demand? The price of ivory dropped from 
approximately $100/lb to almost nothing--poaching became almost non-
existent and, in the countries which had good conservation programs, 
there was a growth in their elephant populations.
    So, why do I take so much time reminiscing about the past? Because 
if you are sincere in wanting to protect and enhance the elephant 
populations in Africa, which I think, you are--then you would want to 
hear what Tony and I learned from an exhaustive process working with 
all stakeholders--to hear about what Congress passed back in 1988--and 
to hear what affected the poacher, our ``enemy''--which is drying up 
their marketplace, stopping the demand for poached ivory globally and, 
if need be, shining the spotlight on those countries who are bad 
actors--those countries who allow poached ivory into their borders. Let 
me assure you that most countries cannot withstand nor afford to have 
this type of spotlight shone on them.
    So, in the context of what we know works in stopping the poacher 
and drying up the global marketplace for poached ivory--Is the proposal 
brought forward by the Fish and Wildlife good policy, the right action 
to protect the African elephant in Zimbabwe and Tanzania? I suggest to 
you the answer is a ``resounding no''! There are several reasons:

  1.  Not consulting with Zimbabwe and Tanzania before the announcement 
            of the Fish and Wildlife Service proposal quite frankly is 
            insulting to these two countries. Zimbabwe and Tanzania 
            have been leaders in conservation policies regarding the 
            African elephant. It is their citizens who have their crops 
            trampled, their children chased, their fences and homes 
            knocked down.

  2.  Denying the importation of legally taken sport hunted ivory 
            within the quota filed with CITES for these two countries 
            converts the elephant from an animal protected by local 
            citizens to an animal that is viewed as a source of protein 
            and ivory to be poached. In Zimbabwe, where I have the most 
            familiarity, and in the area of Wankie National Park where 
            I have visited over 10 times, sport hunting brings in over 
            $575,000 per year, with 80 percent of that number staying 
            in the local community. By contrast, the photographic lodge 
            in that area brings in $30,000/year for the local 
            community. And, this is just one area of Zimbabwe. Sport 
            hunting, for the country of Zimbabwe, brings in between $15 
            and $20 million each year.

  3.  By stopping sport hunting which is biologically neutral, there 
            are several other effects:

          a.   Employment in the local communities goes down, the 
        support staff do not have jobs--which creates the wrong type of 
        incentive for local protection of the elephant. The elephant 
        becomes viewed as a protein source rather than an animal which 
        generates revenue for the overall benefit of the local 
        community.
          b.   By taking the professional and sport hunter out of an 
        area like Wankie, which is more vast and remote than you and I 
        can imagine, takes out the eyes and ears of those who work with 
        the understaffed and underfunded National Parks Services of 
        these countries. There are far fewer people protecting the 
        elephant herds. This one fact alone makes it easier for 
        poachers to operate.
          c.   Many of the sporting groups support water projects for 
        the elephants. I know of one private company in Zimbabwe, on 
        their own, who drill water wells within the national park, not 
        the hunting areas, to protect the elephant herds which have 
        been devastated by a historically bad drought.

    So, the proposal of the Fish and Wildlife Service before us today:

  1.  insults host countries like Zimbabwe and Tanzania;

  2.  kills jobs in rural, subsistence communities;

  3.  removes those who work with the National Parks Services in 
            Zimbabwe and Tanzania from remote areas, thus making it 
            easier for poachers to decimate elephant herds; and

  4.  it takes those who are on the front line helping preserve 
            elephant populations in this time of historic drought out 
            of the area.

    So, if this is the result--Is this good policy? Well thought out?

    And, one additional comment on the Fish and Wildlife Service's 
proposal which has a stated goal of establishing a ``virtual ban'' on 
the commercial sale of elephant ivory--when we wrote the moratoria 
provisions of P.L. 100-478, the fundamental goal was to stop the 
shipment of ivory from those range states who failed to have a sound 
and effective elephant conservation program. This language was never 
intended to destroy the value of legally obtained ivory products. These 
items, which may contain a small amount of ivory, includes firearms, 
guitars, jewelry, pianos, violins, and other cultural artifacts which 
have historic and intrinsic value. These items and products have no 
conservation value to the 400,000 wild elephants in Africa by 
preventing their sale.
    I suggest that you ask the Fish and Wildlife Service to review 
their proposal and, ask the questions: Does this proposal protect/
enhance the elephant populations in Africa? Does this proposal create 
the right incentives for community protection of the elephant? Does 
this proposal make it easier to poach and smuggle ivory?
    I suggest to both sides of the aisle--seek information from our 
government--global entities--on where the poached ivory is being taken 
today. Who makes the money from poached ivory? Follow the money.
    And, then I suggest that you work with those host governments to 
stop the importation of poached ivory within their borders and, if such 
a government turns a deaf ear, think of all the weapons and options in 
your arsenal. Shine the spotlight--globally embarrass those host 
governments, pass sanctions, deny imports from their respective 
countries.
    Mr. Chairman, I hope you will hold additional hearings--shine the 
spotlight. Thank you for the opportunity to testify on this subject 
which is very dear and personal to me.

                                 ______
                                 

    Dr. Fleming. Thank you, Congressman Fields.
    Next, Ms. Sheets, you are now recognized for 5 minutes to 
present testimony on behalf of the National Music Museum.

STATEMENT OF ARIAN M. SHEETS, CURATOR OF STRINGED INSTRUMENTS, 
                     NATIONAL MUSIC MUSEUM

    Ms. Sheets. Mr. Chairman, members of the subcommittee, my 
name is Arian Sheets, and I am Curator of Stringed Instruments 
at the National Music Museum in Vermillion, South Dakota.
    Thank you for your invitation to appear today to discuss 
how the Fish and Wildlife Service's proposed ban on ivory sales 
would adversely impact musical instruments, musicians, and the 
museum community.
    By way of background, the National Music Museum was founded 
on the campus of the University of South Dakota on July 1, 
1973. Our collection of more than 15,000 American, European and 
non-Western instruments are among the most inclusive in the 
world. The collection includes many of the earliest, best 
preserved, and historically most important musical instruments 
known to survive.
    About one-third of the instruments in our collection are 
American made, and many, both from this country and abroad are 
what might be called vintage instruments, that is, less than 
100 years old.
    I will focus my remarks today on how ivory was used in 
musical instruments after the early years of the 20th century 
and how the proposed ban would adversely affect these cultural 
icons.
    In the area of stringed instruments with which I am most 
familiar, for example, C.F. Martin & Company of Nazareth, 
Pennsylvania, used small amounts of ivory in almost all of its 
guitars, starting with the company's founding in 1833. By 1918, 
Martin had stopped using ivory for bindings, bridges, bridge 
pins, and friction peg tuners. Martin continued to use ivory 
for saddles and nuts until approximately 1970, well before the 
elephant ivory was essentially banned.
    The ivory saddles and nuts weigh only a few grams each and 
account for less than 2 percent by weight of the entire 
instrument. Yet that is enough to make the entire instrument 
illegal for commercial sale under the Fish and Wildlife 
proposal. Most other U.S. manufacturers did not use ivory to 
the same extent.
    Ivory was also used in very small amounts in the crafting 
of violin bows, though usage had generally stopped by the early 
1980s, replaced with mammoth ivory and synthetic material. An 
ivory bow tip generally required only about a gram of 
unfinished ivory. Bow makers designed the head of the bow 
around the physical properties of the ivory tip, which gives 
the delicate bow head proportion, strength and proper balance.
    Even though ivory use stopped more than 30 years ago, many 
musicians, including famous artists, still perform with these 
old but not antique bows. Replacing tips with non-ivory 
material while possible is fraught with dangers, not least of 
which is the accidental destruction of the bow while removing 
the tip plate, which is a risky procedure.
    With regard to pianos, ivory was used as a veneer about one 
millimeter in thickness covering keys until better plastic 
technology developed in the 1930s and 1940s. For example, 
Steinway & Sons, a leading American piano manufacturer, stopped 
using ivory on its keys in the mid-1950s.
    Many high-end European piano makers continued using ivory 
until 1989, including Boesendorfer, whose instruments are found 
in many concert halls. These fine pianos can be worth well more 
than $100,000 and are vital tools for concert artists and also 
the venues that hold them.
    Ivory was rarely used as a decorative material on pianos, 
but came into use as a superior material for key tops in the 
18th and 19th centuries due to its easy workability and 
resistance to wear. While ivory may be preferred by some 
pianists because it absorbs perspiration and minimizes 
sticking, it is also more susceptible to chipping and cracking, 
requiring repair.
    Finally, ivory was used in some woodwind instruments, such 
as clarinets, oboes and bassoons, but, again, in small amounts.
    To recap, musical instruments never used large amounts of 
ivory and whatever ivory use there was was abandoned long ago 
for a variety of reasons. The Fish and Wildlife Service's 
proposed ban on further importation and domestic sale of ivory 
would have a profound and adverse impact on many. For example, 
the ability of the National Music Museum to add to its 
collections would be severely impaired. Like most museums, we 
rely on donations and purchases to enhance our collection.
    While I am not a tax expert, it would seem to me that if 
ivory cannot be sold, instruments containing ivory would be 
deemed to have no value and, therefore, no deduction for their 
donation might be available.
    If sales are banned, we could no longer go into the 
commercial marketplace to purchase exceptional instruments with 
this material. Additionally, if the ban devalues objects made 
with ivory, it affects our ability to obtain insurance which is 
necessary for the transportation and loan of museum objects. I 
would respectfully request that the subcommittee urge Fish and 
Wildlife to create an exemption.
    [The prepared statement of Ms. Sheets follows:]
 Prepared Statement of Arian Sheets, Curator of Stringed Instruments, 
                         National Music Museum
    Mr. Chairman, members of the subcommittee, my name is Arian Sheets 
and I am Curator of Stringed Instruments at the National Music Museum 
in Vermillion, South Dakota. Thank you for your invitation to appear 
here today to discuss how the Fish and Wildlife Service's proposed ban 
on ivory sales would adversely impact musical instruments, musicians 
and the museum community.
    By way of background, the National Music Museum was founded on the 
campus of the University of South Dakota on July 1, 1973. Our 
collection of more than 15,000 American, European and non-Western 
instruments are the most inclusive in the world. The collection 
includes many of the earliest, best preserved and historically most 
important musical instruments known to survive. About one-third of the 
instruments in our collection are American-made and many--both from 
this country and abroad--are what can be called ``vintage'' 
instruments, that is, less than 100 years old.
    I will focus my remarks today on how ivory was used in musical 
instruments after the early years of the 20th century and how the 
proposed ban would adversely affect these cultural icons.
    In the area of stringed instruments with which I am most familiar, 
for example, C.F. Martin & Co. (Nazareth, PA) used small amounts of 
ivory in almost all of its guitars starting with the company's founding 
in 1833. By 1918, Martin had stopped using ivory for bindings, bridges, 
bridge pins and friction pin tuners. Martin continued to use ivory for 
saddles and nuts until approximately 1970, well before elephant ivory 
was essentially banned. Martin guitars containing ivory range from 
relatively low-level instruments which may sell today for $1,500, 
according to retail sources, to highly desirable models which can bring 
as much as $350,000. The ivory saddles and nuts weigh only a few grams 
each and account for less than 2 percent by weight of the entire 
instrument, yet that is enough to make the entire instrument illegal 
for commercial sale under the FWS proposal. Most other U.S. 
manufacturers did not use ivory to the same extent.
    These instruments, like those from other manufacturers or artisan 
luthiers, are sought after because of their tonal quality and 
craftsmanship, and not because they contain ivory.
    Ivory was also used in very small amounts in the crafting of violin 
bows, though usage had generally stopped by the early 1980s, replaced 
with mammoth ivory and synthetic material. An ivory bow tip generally 
required about 1 gram of unfinished ivory.
    Bow makers designed the head of the bow around the physical 
properties of the ivory tip, which gives the delicate bow head 
protection, strength and proper balance. Even though ivory use stopped 
more than 30 years ago, many musicians, including famous artists, still 
perform with these old, but not antique, bows. Replacing tips with non-
ivory material, while possible, is frought with dangers, not the least 
of which is the accidental destruction of the bow while removing the 
tip plate, which is a risky procedure.
    With regard to pianos, ivory was used as a veneer (about 1 
millimeter in thickness) covering keys, generally until better plastic 
technology developed in the 1930s and 1940s. For example, Steinway & 
Sons, a leading American piano manufacturer, stopped using ivory on its 
keys in the mid-1950s. Tracking instrument age and ivory use by other 
U.S. manufacturers is extremely difficult, since almost all of the 
dozens of manufacturers which once operated in this country ceased 
production long ago; only a small handful of U.S. piano producers 
remain. Many high-end European piano makers continued using ivory until 
1989, including Boosendorfer, whose instruments are found in many 
concert halls. These fine instruments can be worth well more than 
$100,000 and are vital tools for concert artists and venues.
    Ivory was rarely used as a decorative material on pianos, but came 
into use as a superior material for key tops in the 18th and 19th 
centuries, due to its easy workability and resistance to wear. While 
ivory may be preferred by some pianists because it absorbs perspiration 
and minimizes key ``sticking,'' it also is more susceptible to chipping 
or cracking, especially at the ends, and is prone to discoloration over 
time, sometimes requiring repair.
    But the ``bottom line'' is that, like other instruments, ivory has 
not been used in piano manufacture for decades.
    Finally, ivory was at one time used in some woodwind instruments, 
such as clarinets, oboes and bassoons, but again in small amounts as 
turned rings and section dividers. Woodwind manufacturers have not used 
ivory in many decades.
    To recap, musical instruments never used large amounts of ivory and 
whatever ivory use there was long ago abandoned for a variety of 
reasons. While only about 5 percent of the National Music Museum's 
collection contains ivory, many thousands of guitars, violin bows, 
pianos and woodwinds which do contain ivory are still in use today by 
amateurs and professional musicians, and are owned and acquired legally 
in the past by many American families. Higher-value historical 
instruments, including those desirable for exhibition, use, and 
preservation, are more likely than average to contain ivory by virtue 
of its excellence as a working material.
    The Fish and Wildlife Service's proposed ban on further importation 
and domestic sale of ivory would have a profound and adverse impact on 
many. In most cases, current owners of objects containing ivory lack 
documentation of the import of the ivory into the United States, which 
could act to effectively ban the sale of even antique objects which 
have been in this country legally for decades or centuries.
    For example, the ability of the National Music Museum to add to its 
collection would be severely impaired. Like most museums, we rely on 
donations and purchases to enhance our collection. While I am not a tax 
expert, it would seem to me that if ivory cannot be sold, instruments 
containing ivory may be deemed to have no value and therefore no 
deduction for their donation might be available. And if sales are 
banned, we could no longer go into the commercial marketplace to 
purchase exceptional historical instruments with this material. 
Additionally, if the ban devalues objects made with ivory, it affects 
our ability to obtain insurance, which is necessary for the 
transportation and loan of museum objects.
    Individual musicians, whether amateur or professional, could not 
purchase replacement instruments containing ivory, nor would they be 
able to sell instruments that are no longer needed. These instruments 
are essential ``tools of the trade'' for both full-time and part-time 
musicians. Because instruments are hand-crafted and uniquely matched to 
the performance needs of musicians, they represent substantial personal 
investments that are critical to performance success. Musicians 
generally do not purchase instruments because of their ivory content; 
the presence of ivory is generally only incidental to the overall 
quality and playability of an individual instrument.
    While on the subject of individual musicians, I would also note 
that the abrupt imposition of a Fish and Wildlife Service order in mid-
February has caused confusion and concern among individual musicians 
and organized groups such as orchestras. While museums may have in 
place procedures to comply with the often-complex permitting 
requirements required by FWS, many individuals and groups are in need 
of a more transparent, simpler process for obtaining the necessary 
permits to travel with their instruments and perform internationally.
    Another area of particular concern to our museum is our ability to 
transport historical objects containing ivory for national and 
international exhibitions. While we understand the permitting process 
for CITES-listed species, the new proposal may make it impossible to 
loan many instruments to institutions outside of this country. It is 
also not clear whether domestic loan would be possible. And at least 
one major piano moving company had recently indicated it will not 
accept ivory-containing instruments for transport, further hampering 
loan possibilities.
    Music is an essential element of our cultural heritage and 
individual instruments can be played for decades, or even hundreds of 
years. Banning the sale of certain high-quality vintage musical 
instruments will, in my view, impair the future of music in the culture 
of the United States.
    I would respectfully request that this subcommittee urge the Fish 
and Wildlife Service to create an exemption from any sales ban for 
musical instruments or products containing only a small amount of 
ivory.
    Thank you again for the invitation to appear here today. I would be 
happy to answer any questions.

                                 ______
                                 

    Dr. Fleming. Ms. Sheets, your written testimony will be in 
full in the record. So we appreciate it.
    Ms. Sheets. OK.
    Dr. Fleming. I want to make sure that we get a chance for 
questions here.
    Next Mr. Quinn.

     STATEMENT OF MATTHEW QUINN, QUINN'S AUCTION GALLERIES

    Mr. Quinn. ``The United States shall seek to reduce the 
demand for illegally traded wildlife both at home and abroad 
while allowing legal and legitimate commerce involving 
wildlife.'' That is what the President said in the executive 
order Mr. Hayes referenced.
    So Chairman Fleming and Ranking Member Lowenthal, I thank 
you and the other committee members. I thank you for having me 
today.
    My name is Matthew Quinn. I am with Quinn's Auction 
Galleries in Falls Church, Virginia. We are about 6 miles from 
here, and we routinely offer products that contain ivory or are 
made of ivory for members of the community as they are dealing 
with the loss of a loved one or throughout that process.
    I am here today to help explain the impact of where this 
would go. I started with that quote because I knew that when 
the President's team that drafted that, they did it with 
intent. It was carefully crafted, and the funny thing is I have 
yet to see the words ``while allowing legal and legitimate 
commerce involving wildlife'' to show up in any document put 
out by the Fish and Wildlife Service, the Advisory Task Force, 
the Council or anywhere. I have looked, I have looked, and I 
have looked, and even in Mr. Hayes' testimony a minute ago I 
did not hear the words ``allowing legal and legitimate 
commerce.'' I think we have moved a bit too fast.
    My job as I work with people across the country and 
primarily in this area is to help maximize value. On the 25th 
of February when the Director's Order 210 was issued, that job 
became extremely difficult.
    I want to start and talk a little bit about a couple of 
stories that can maybe best represent where this would happen. 
My first one is a woman by the name of Helen Mang. Her and her 
husband traveled the country, traveled the world, and they 
collected an object called netsuke. You can see it on the image 
here. This is one example.
    They had 1,100 pieces that they had collected over a 50-
year period. I do not know when they bought their last one 
exactly, but they were buying in the 1940s, 1950s, 1960s. When 
she died I think 2 years ago in January, she was a few months 
shy of her 100th birthday.
    We offered this for sale one day. She had initially 
approached us to begin to sell that because she was running out 
of money to pay for her health care. She had managed numerous 
assets, and when it came down to it, this was her last piece 
that she had brought to the table, and we began to offer that 
for her, and we did generate an awful lot of money.
    Most of these pieces were exclusively 18th and 19th 
century. The fact of the matter is we have been a collector 
society in American since World War II, before World War II, 
but certainly after World War II. People collected objects. 
They collected Hummels, coins, stamps, you name it. I am sure 
many of us have, and a lot of those objects included ivory. 
Ivory was absolutely no exception.
    One of the things that I have included in my testimony, and 
I would encourage you to go and read it, is a document put 
together by Lark Mason. Lark Mason is a New York auctioneer and 
an associate of mine, a good friend, and he is very 
knowledgeable in the industry. He has put together this 
document that really details how many pieces are out there, and 
it is in the hundreds of millions.
    He states today that there are probably between five and 
seven million pianos containing ivory out there in America 
still, and if we do not go through the promotions and have 
proper research analysis and oversight, if we move forward the 
way things have been, millions of unknowing Americans will be 
affected.
    The next photo I am going to show you is actually a 
document of the Mang's collection. If you look at this we see 
items, numbers, dates. On the far right side we see when they 
bought it. It has actually been cut off a little bit. It will 
be included in your packet. It shows all of the information. 
This is unbelievable documentation for a collector.
    Yet it would not meet the criteria of what Fish and 
Wildlife has proposed. It would be hard to find someone that 
would have better.
    Let us go on to the next one if we could. This is an ivory 
portrait miniature. This is signed and dated in Philadelphia in 
1795 by a member of the Peale family, some of the most noted 
artists in America, that piece signed and dated. I do not know 
when it came in. I do not know if it actually came in prior to 
1795 when it was painted in Philadelphia. So those are things 
we have to look at.
    So let us go on to the next one here, which is a teapot. 
This has two little, tiny white pieces on the right side. Those 
pieces are ivory, and those should be noted. That 1861 teapot 
from Baltimore under certain regulations would have been 
illegal.
    I will note that revised Director's Order 210 allows for 
some of this, and we are working together to try to figure this 
out, but we are not there yet, and I encourage your 
involvement.
    The next thing I want to point to is Mrs. Heather Foley 
agreed to accompany me, and I have a physical teapot that I 
will ask Marc to pass around if he can, if that is possible.
    Thank you.
    And you can actually see those objects, and you can take a 
look at that from a point of reference. I have been working 
with Heather and her husband Tom to sell their collections.
    You see the pot in front of me? This one also has ivory in 
it.
    My last note I want to close with is the December 16 
Advisory Council meeting. There is a statement that says, 
``From a business perspective, the Council noted a total ban 
would be the easiest administrative solution notwithstanding 
the Fifth Amendment question.''
    And I note the word ``easiest.'' I did not realize the 
easiest was the appropriate way to manage public policy, and I 
doubt that this Congress or Administration does either.
    I know it is difficult to identify this stuff. I know it is 
difficult to identify the age. There is a group of items that I 
would encourage you to look at that we do not have time to pass 
around. Look at those and see how difficult it is.
    Thank you so much for having me, and I look forward to 
questions.
    [The prepared statement of Mr. Quinn follows:]
 Prepared Statement of Matthew Quinn, Quinn's Auction Galleries, Falls 
                            Church, Virginia
        ``. . . 1. (d) the United States shall seek to reduce the 
        demand for illegally traded wildlife, both at home and abroad, 
        while allowing legal and legitimate commerce involving 
        wildlife.''

  --The President of the United States, Executive Order 13648, July 5, 
                                                                   2013

    Chairman Fleming, Ranking Member Sablan, and distinguished members 
of the subcommittee, thank you for the opportunity to address this 
subcommittee today. My name is Matthew Quinn of Quinn's Auction 
Galleries in Falls Church, Virginia. The second part of the statement I 
just read above, which was carefully crafted by the White House, has 
somehow gotten lost or ignored. What I am about to share with you today 
hopefully will enlighten you on the harsh impact on the American people 
of the Administration's proposed comprehensive ban on the sale of 
ivory. The magnitude of the impact on the American people is far more 
reaching than one might think, I am quite certain it will impact the 
majority of all Americans and certainly most of us in this room.
    While many throughout the antiques, art and auction trade share my 
views in this testimony, I speak to you today representing only my 
firm, Quinn's Auction Galleries, and my clients. Quinn's Auction 
Galleries has served the greater Capital Area for nearly 20 years 
assisting individuals dealing with the loss of a loved one or just the 
need to sell items. Sometimes we work with families that desperately 
need the money, and other times we simply help our customers sell items 
that they can no longer use. We work diligently to make sure that we 
can maximize the value to the seller. As so often happens, most of the 
families we work with have some sort of ivory, or other product from an 
Endangered Species Act regulated wildlife, in their home. I have worked 
closely with U.S. Fish and Wildlife Service (USFWS) agents to stay 
within the law, and that task became extremely complicated on February 
25, 2014, with the issuance of USFWS Directors Order 210.
    I would like to share with you a couple of customer stories that 
illustrate the devastating impact of these government actions that 
carry unintended consequences.
    A few years ago I had the genuine privilege to work with Mrs. Helen 
Mang. She was 99 years old and sharp as a tack. I sat in her room at 
the care facility she was living in and heard marvelous stories of her 
and her husband's travels throughout the world collecting these little 
Japanese carvings called Netsuke. She would talk about one; where she 
got it, what she paid for it, and practically what direction the wind 
was blowing when she described it. It was their passion, their 
collection and their investment for the future. Helen and Jack were not 
unlike many Americans who choose to diversify their financial portfolio 
with collectible objects. Enclosed is a copy of the sale catalog for 
her collection of over 1,100 pieces of Japanese carvings where more 
than half were either made entirely of ivory or had some sort of ivory 
in them. There came a time when she looked to sell her collection to 
assist with some of the vast expenses of care in her nursing facility. 
Sadly, she didn't live to see her collection sold, and this sale was a 
great memoriam to her and Jack's life. If this outright ivory ban moves 
forward as suggested by USFWS and the President's Advisory Council, 
then the Mang's collection--which was predominantly 18th & 19th century 
and completely legally acquired and held for decades--would be without 
much value. Japanese Netsuke are tiny pieces of Japanese culture carved 
out of one of the most precious materials they knew at the time. The 
picture attached shows one such carving. Helen purchased this piece 
from a Washington, DC dealer on October 1, 1953, for $55. It was made 
in the 18th century in Japan in the Kyoto area as indicated by carving 
and subject. When this one item was sold, you will see on the sample 
page of this very meticulous collector spreadsheet that even all the 
information that she has collected would not satisfy the ``antique 
exemption'' standards that have been proposed by some of the Federal 
rule changes.
    Americans have collected Netsuke and other pieces containing ivory 
for many decades. Following World War II, America was very much a 
collector society, and it was popular to collect things like Hummel 
figurines, collector's plates, coins, stamps and so many other items. 
Items containing ivory were no exception, and it was completely legal 
in 1945 . . . 50 . . . 60 and 1970! I have attached a document 
assembled and written by Lark Mason, a prominent New York fine art and 
antiques auctioneer, and submitted to the State of New York. His 
document estimates that the nearly 4 million Americans stationed in 
Japan during the middle of the 20th century brought back between 1.5 
million and 2.5 million objects containing some measure of ivory. Mr. 
Mason's document is impressive and worthy of a good read. He cites that 
there are between 5 million and 7 million pianos alone with ivory keys 
in the United States, and hundreds of millions of total objects 
estimate in America today.
    Without proper research, analysis, thorough review and oversight, 
such quick administrative actions such as the proposals put forth by 
USFWS will adversely impact millions of unknowing Americans, including 
my customers.
    To illustrate the matter more tangibly, I have included several 
pictures of objects that most people do not realize have ivory in them, 
and that they were made in America hundreds of years ago. The first is 
a portrait miniature. It is about 3 inches tall and was painted in 
Philadelphia in 1795, and is signed and dated. From the picture you can 
see that the value of this object is indeed based on the artistry of 
James Peale, one of the most important families in American art 
history, and its painting on ivory would render it of no value if this 
ban moves forward. Mr. Mason's document also estimates that as many as 
3 million to 5 million portraits like this exist today. Virtually all 
but some tourist copies were made over 100 years ago, and the copies 
were done long before the Endangered Species Act was enacted.
    The next picture that you see is a teapot made in 1861-1868 in 
Baltimore, Maryland. It is also signed and dated, as all silver 
products are. Upon close inspection, you will see two small white 
pieces that are ivory. In this case they serve as insulators to keep 
the heat from the hot coffee or tea from reaching the silver handle. 
Teapots like this number in the hundreds of millions globally, and Lark 
Mason's conservative estimates suggest that there are 10 million plus 
tea sets left in the United States, despite the recent spike in the 
price of silver that has led to millions being melted for their silver 
content.
    While we are on teapots, I have asked that Mrs. Heather Foley join 
me today at the hearing. I have been working with Heather and her 
husband Tom, while he was alive, to assist them in selling some 
property. She graciously agreed to attend today, as she understands the 
burden such a ban can have on the American people. Heather brought with 
her a teapot that she and her mother bought over 40 years ago in Egypt. 
It also has ivory insulators. I will pass it around for you to see more 
closely. I will also reference as part of this testimony her letter to 
the Advisory Council that I presented with my testimony for the record 
at the Advisory Council's March 20th meeting in Arlington, Virginia.
    In addition, I have brought with me a teapot that was made by Georg 
Jenson in the Cosmos pattern. I will pass this one around as well. This 
teapot is signed and dated with marks that date it from 1945-1977. I am 
told from Georg Jensen that they discontinued using ivory in the late 
60s; however, to this day they still use Mammoth tusks in their 
production.
    This leads me to my next point.
    In the Advisory Council minutes from the December 16, 2013, 
meeting, in a paragraph spanning pages 4-5, it states: ``From a 
business perspective, the Council noted that a total ban would be the 
easiest administrative solution, notwithstanding the 5th amendment 
question.''
    Easiest? I didn't realize that ``easiest'' was the appropriate way 
to manage public policy, and I doubt the Congress or the Administration 
does either. One of the reasons that the Advisory Council appointed by 
the President said ``easiest'' is because of the immense difficulty in 
determining what species of ivory might be used and how old it is. I 
know from experience that it would be equally difficult for enforcement 
officers to determine the differences between Marine Ivory, Carved 
Antler, Bone, Vegetable ivory or even Bakelite and other plastics. I 
will pass around a few samples that are labeled for your inspection. We 
surely would not consider banning all of these substances in order to 
take the ``easiest'' path.
    The art and antiques trade routinely handle the variety of 
substances that I describe above and are trained to tell the difference 
with relative ease. We are accustomed to the various carving 
techniques, quality, the subtleties of each substance, and the types of 
materials that objects have been made with over the past centuries. We 
are in fact here to, and happy to, help government regulators and 
policymakers with these complex issues.
    I strongly believe that no legitimate antique dealer, appraiser, or 
auctioneer supports the elephant poachers, and we all realize that this 
is in fact a global problem that needs to be addressed. However, I am, 
on behalf of my trusted colleagues in the trade, asking that this 
committee and the U.S. Congress halt this rulemaking process and 
consider reasonable solutions so that any final policy's impact on the 
American people can be fully considered. We must work harder to find a 
solution to both protect the elephants and the American people, which 
are not mutually exclusive. That is why I am here today and why I stand 
ready to help and preserve ``. . . legal and legitimate commerce 
involving wildlife.''
    Thank you for your time and for your consideration of my business 
and consumer viewpoint. I look forward to responding to any questions 
you might have.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Quinn, for your testimony.
    Next up an Air Force combat veteran, a hero from the 
Bosnian conflict, Scott O'Grady.

  STATEMENT OF SCOTT O'GRADY, RETIRED, UNITED STATES AIR FORCE

    Captain O'Grady. Thank you, Chairman Fleming and Ranking 
Member Lowenthal and other members here today, for the 
opportunity to testify before the subcommittee.
    My name is Scott O'Grady. I am an Air Force veteran, and I 
am a conservationist. I passionately believe that we all have a 
unique responsibility to conserve wild places and wild species.
    I am a member of many U.S. based conservation 
organizations, including Safari Club International. SCI has 
over 50,000 members worldwide, and through its affiliated 
organizations, they represent an additional seven million 
hunter conservationists.
    I was asked to be here today because I have recently hunted 
elephant in Zimbabwe. It was an amazing experience. From this I 
have the first-hand experience to accurately describe what it 
takes to manage wildlife sustainably in the rural and 
economically depressed regions of Africa.
    This year on April 4, the hunter conservationist community 
was shocked by a decision of the Fish and Wildlife Service to 
immediately ban all U.S. importation of sport hunted elephants 
from Zimbabwe and Tanzania. This decision is devastating to the 
wildlife management in Africa.
    First I would like to state clearly that hunters are 
conservationists. In the United States over 15 million American 
hunters pay for the bulk of conservation funding. American 
hunters play the same role in Africa.
    Poaching, on the other hand, is an abhorrent activity that 
everyone condemns. No one despises poaching more than the 
hunter conservationist. Having now traveled to Africa to hunt 
on five extended safaris, I can provide a unique perspective on 
how anti-poaching is conducted in the vast wilderness of 
Africa. African government agencies that are responsible for 
wildlife management are financially dependent on hunters, 
primarily U.S. hunters. In Zimbabwe, U.S. hunters represent 
roughly 60 percent of their clients, and in Tanzania U.S. 
hunters represent nearly 90 percent of clients.
    With the money generated from sport hunters, the government 
agencies are able to pay for anti-poaching patrols on millions 
of acres that otherwise would be devoid of law enforcement 
personnel. The private businesses and outfitters that manage 
much of the wild lands of Zimbabwe and Tanzania employ scores 
of anti-poaching patrols to privately supplement the government 
personnel.
    Safari hunting businesses in Tanzania manage roughly 30 
percent of the entire country for wildlife. Lands in Southern 
and East Africa have three main uses: first, subsistence 
farming, which has very little economic value; second, herding 
for cattle and goats, which generates about a dollar per 
hectare; and then, third, wildlife hunting, which generates 
around $7 to $10 per hectare.
    Every time a U.S. hunter is dissuaded from traveling to 
Africa to hunt by government regulations, the acres where they 
would have hunted will likely be converted away from the 
wilderness and into economic activities like farming and 
pastoralism. Wildlife is the biggest loser in this equation, 
and wildlife will be viewed as a pest when it has no value.
    The Fish and Wildlife Service's ban imposed on U.S. hunters 
is a poor policy decision in regards to wildlife conservation 
in Africa. This ban has caused a significant breach of 
confidence with the African communities who live and work with 
their wildlife and with the U.S. hunters who help pay for the 
management of that wildlife.
    On May 8 I had the opportunity to address Fish and Wildlife 
Service leadership about their decisionmaking process. I asked 
what science they had justifying their decision, but the 
response was an anemic, ``We have no scientific 
justification.''
    The Fish and Wildlife Service must immediately reconsider 
their decision and allow importation of sport hunted elephants 
from Zimbabwe and Tanzania. The ban on importation into the 
U.S. de-funds wildlife management in their countries. Without 
U.S. hunters in the field, there will be a vacuum in which only 
poachers profit.
    I would like to thank the committee for their time today on 
this important issue. I hope to see an immediate reversal of 
this policy because it is causing immediate damage to sound 
wildlife conservation efforts in Africa today.
    Thank you.
    [The prepared statement of Mr. O'Grady follows:]
         Prepared Statement of Scott O'Grady, Air Force Veteran
    Thank you Chairman Fleming, Ranking Member Sablan, and other 
members of the Subcommittee for Fisheries, Wildlife, Oceans, and 
Insular Affairs, for the opportunity to testify today.
    My name is Scott O'Grady. I am an Air Force Veteran and I am a 
conservationist. I passionately believe that we all have a unique 
responsibility to conserve wild places and wild species. I am a member 
of many U.S. based conservation organizations including Safari Club 
International. SCI has a membership of over 50,000 worldwide 
conservationists and through its affiliated organizations across North 
America, Europe, and Africa they represent an additional 7 million 
hunter-conservationists. The Safari Club International Foundation hosts 
an annual conference in Southern and East Africa. This conference 
brings together representatives of numerous African governments, 
professional hunters, and community leaders to share best practices in 
sustainable conservation. The responsibility to develop sustainable 
wildlife management programs that protect wildlife habitat and ensure 
financial stability for communities living with wildlife is a serious 
task that requires serious consideration. As a conservationist I am 
proud to see the U.S. Congress hosting this hearing today to discuss 
vitally important issues of species conservation in Africa.
    On February 25, The U.S. Fish and Wildlife Service issued 
Director's Order 210. The Director's Order includes new staff 
guidelines that will impact hundreds of thousands, if not millions of 
unsuspecting U.S. citizens. Director's Order 210 prohibits the 
importation of antique ivory, as defined by the Endangered Species Act, 
for commercial purposes. Before Director's Order 210, Americans could 
import items that contain ivory that were at least 100 years old for 
commercial purposes. Under Director's Order 210, that is now illegal. 
Many businesses will greatly suffer due to this change. Director's 
Order 210 also seems to place a heavier burden on individuals that 
already own antique ivory and want to sell it. Many Americans own 
antique jewelry, pianos, musical equipment, firearms, knives, and 
furniture that contain ivory. Under Directors Order 210, these U.S. 
citizens can now be prosecuted for simply trying to sell a family 
heirloom if they do not have sufficient documentation proving it is at 
least 100 years old. Other than paying to have the item professionally 
appraised, the Fish and Wildlife Service has not told the American 
public what is sufficient to prove that their possessions meet the 
antique exemption. Under Directors Order 210, these U.S. citizens can 
now be prosecuted for simply trying to sell a family heirloom. The 
policies of Director's Order 210 provide no benefit to anti-poaching 
efforts in Africa.
    On April 4, 2014 the hunter-conservationist community was shocked 
by a decision of the U.S. Fish and Wildlife Service to immediately ban 
all U.S. importation of sport hunted elephants from Zimbabwe and 
Tanzania. Neither the hunting community nor the wildlife management 
authorities of Zimbabwe and Tanzania received any warning of the abrupt 
importation ban.
    For Zimbabwe, the FWS relied on a lack of information to impose the 
ban, rather than concrete current information about the status of 
elephants and anti-poaching efforts in the country. Shockingly, the FWS 
did not even ask for this necessary information until after it shut 
down elephant importation. What little information the FWS did examine 
was outdated and inaccurate. And despite the fact that the FWS was well 
aware that hunting revenues provide the sole source of funding for 
Zimbabwe's wildlife management authority, the FWS nevertheless deprived 
its sister agency of the resources necessary to conserve elephants and 
fight poaching.
    For Tanzania, the FWS's failure to communicate with Tanzania's 
wildlife management authority before making the decision to impose the 
ban violates a 2009 Memorandum of Understanding signed by 
representatives of our government and the government of Tanzania. The 
ban also fails to recognize Tanzania's efforts and successes in 
battling against elephant poaching.
    Instead of helping Zimbabwe and Tanzania fight illegal trafficking 
and conserve their elephant populations, these bans undermine their 
efforts, deprive them of the resources they need to protect their 
elephant populations, and diminish the value of these animals to anyone 
except poachers. The damage that our government has done with these 
bans grows greater every day.
    I was particularly shocked by this decision. I had recently 
returned from a 3-week safari in Zimbabwe, and I can personally attest 
that their elephant population is not only robust, but is exceeding the 
land's carrying capacity. By eliminating hunters like myself from the 
landscape of Zimbabwe and Tanzania, the U.S. Fish and Wildlife Service 
is doing a disservice to the communities and individuals who work with 
wildlife in these countries. Without the consistent spending from 
international hunters, the ability for communities to plan for their 
future is in doubt. While on my hunt, I was joined by representatives 
from the Zimbabwe Parks and Wildlife Authority and by the Forestry 
Commission. Their responsibility was to make sure that my hunt, just 
like every other hunt, followed the letter of the law appropriately. 
These agency representatives were also there to oversee that anti-
poaching efforts were in place. I personally witnessed anti-poaching 
units in the field patrolling the areas where I was on safari. Without 
the funding from hunting safaris the anti-poaching patrols would not 
exist and the result would be rampant poaching. The Zimbabwe Parks and 
Wildlife Authority and the Forestry Commission rely upon funding each 
year from safaris to pay for anti-poaching resources. One year without 
this funding would shut down their operations. The results will be 
catastrophic to the protection of the elephants, other wildlife, the 
ecosystem and the economic impact to the local communities if the U.S. 
FWS continues down its current path.
    My safaris were the fulfillment of a life-long dream. I used my 
savings to pay for the safaris knowing the importance of my finances 
contributing to the conservation of the local wildlife and economy. The 
cost of my two safaris for a total of 30 days was US$75,000. Of this, 
$27,000 was for government elephant fees, $4,500 for Concession fees, 
$2,000 for Taxes, $300 for other tags and permits, plus $5,000 for 
gratuities and other costs for travel. My direct financial contribution 
ensures that wildlife in Zimbabwe has more value than just meat on the 
table, or worse--elephants seen as a pest species.
    This year my projected income is less than what I spent on the 
safaris. But I know the money I spent maintains elephant conservation 
efforts in Zimbabwe and it was absolutely worth the cost. My personal 
contribution continues to add value to the overall elephant population 
in Zimbabwe so that Zimbabwe's agencies and local communities can 
sustain their anti-poaching efforts.
    The FWS ban is causing elephants to have less and less financial 
value. Safari operations will cease to exist and the anti-poaching 
resources provided by those companies, paid for by U.S. hunters, will 
also cease. The result will be an open season for poachers, who 
unlawfully and indiscriminately kill anything for food and money.
    The American hunter is not the problem. Instead the American hunter 
is a part of the solution to protecting and preserving African elephant 
populations. The FWS ban was instituted without the good faith of 
working with their colleagues in Africa. It was made without 
consideration for the real impacts on the communities throughout these 
two countries who will be forced to convert land away from wildlife to 
less economically viable uses. It was made with the deliberate act of 
keeping American hunters, the primary financial institution for anti-
poaching in the dark. This ban is focused on eliminating the greatest 
resource for elephant conservation efforts, which is the American 
hunter. The ban should be immediately lifted and current scientific 
wildlife data should be reviewed for proper ecosystem management.
    I would like to thank all the committee members for your attendance 
today and for your willingness to understand a very complicated 
situation in remote areas of Africa. In the United States over 15 
million American hunters and 30 million American target shooters pay 
for the bulk of conservation funding from which all U.S. citizens enjoy 
an improved outdoors. American hunters play this same role in Africa. I 
implore you to reverse this ban immediately, rely upon sound scientific 
wildlife management and the role of American hunters to wildlife 
conservation and anti-poaching efforts in Africa.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. O'Grady.
    We are now at the question and answer period. I now 
recognize myself for 5 minutes.
    Ms. Sheets, could you describe for us the impact of the 
Director's order, Fish and Wildlife Service's plan on your 
museum? What impact is this going to have?
    Ms. Sheets. Well, the immediate impact is, of course, that 
we will no longer be able to commercially acquire instruments 
containing ivory particularly from overseas. Constantly 
historic instruments are coming up to auction.
    In the past we have raised money to purchase instruments. 
That would be impacted. There is also the lack of clarity on 
commercial value if the sale of these objects is forbidden.
    Most of our acquisitions at this point are through 
donation, and our donors receive a tax deduction for that. So 
that would be impinged.
    Also we have to acquire commercial insurance in order to 
loan objects. If there is no commercial value, we are not able 
to acquire that insurance potentially, and that impacts 
especially our overseas loans. We have the potential to loan 
objects containing ivory for educational purposes overseas. 
That would be endangered.
    So certainly not just ivory possession, but possession of 
other very historical, very valuable things would be devastated 
and would in some cases yield something very valuable to having 
almost no value.
    Ms. Sheets. That is true, and these objects are part of our 
history. We wish we could go back in time and change the fact 
that they killed elephants to make them, but we cannot.
    Dr. Fleming. Well, if 100 years ago they knew that this 
rule was going to come out, maybe they would have created some 
sort of certification or documentation, but obviously that was 
not foreseeable.
    Mr. Quinn, do you support a de minimis requirement in the 
regulations?
    Mr. Quinn. I think a de minimis requirement is part of what 
needs to happen, and that ultimately has to be maybe more 
narrowly defined. Is it a percentage? Is it an amount? I think 
we have to work to figure that out.
    As we look at objects like the teapot I brought and Mrs. 
Foley's teapot, you know, those objects--this one has a date 
mark from 1945 to 1977. Mrs. Foley, she acquired with her 
mother in Egypt 45 years ago. So those are not antiques.
    So how do we begin to look at those and to make sure that 
the assets of the American people are protected? I think a de 
minimis is a key part of that when it comes to certain types of 
objects. These are the ones that typically have more value, and 
I think we need to look at that.
    It has to be done in conjunction with an antique exemption. 
I do not think it can be done alone.
    Dr. Fleming. Right. And Captain O'Grady, you seem to have a 
lot of passion about hunting and sportsmanship and so forth, 
and you made a comment that I completely agree with, and that 
is who would have more of an invested interest in conservation 
than hunters themselves; the same for fishermen. I would love 
to hear your comment on that.
    Captain O'Grady. Yes, sir. That is why this issue of a ban 
on the importation only applying to U.S. hunters is so dear to 
my heart, because it is going to have the reverse effect. It is 
going to actually be the cause if it is kept in place for the 
decimation of the African elephant because it is going to take 
the greatest conservationists for the African elephant out of 
the equation, and that is the American hunter who is the front 
line defense, boots on the ground, stopping the poaching.
    One of the greatest things that I was able to experience 
while I was in Zimbabwe in March this year in four national 
forests on African safari for elephant was to see that my 
funding was going to anti-poaching, with anti-poaching patrols 
in the field day and night camped out, protecting the area 
where I was on safari. To know that I was a part of that 
conservation effort was very enriching.
    Dr. Fleming. So by stopping legal hunting and legal 
importation, then what is in effect happening is that the 
actually opposite effect of that desired, which is to lose 
elephants.
    Now, finally a quick question for Mr. Hayes. Since you were 
a political appointee with the Obama administration and worked 
with Secretary Jewell, why do you believe that no 
representatives from an ivory producing country or state or 
territory, a professional hunting association, an auction 
house, a music company, museum director, a sport hunting 
organization, et cetera, et cetera, et cetera, is on the 
Advisory Committee or Advisory Council, are not on that? All of 
these different interest groups it would appear should be and 
yet they are not.
    Mr. Hayes. Mr. Chairman, I had left the Department in early 
July, and the decisions about who should be appointed to the 
Advisory Council were made in September. I had no involvement 
in those decisions.
    Dr. Fleming. If you were there, would you have suggested 
that they should?
    Mr. Hayes. I think the effort, as explained in the 
executive order was to get experts involved on the council, and 
for example, the Deputy Council of eBay, which previously was a 
major seller of ivory, is on the Council.
    Dr. Fleming. I am running out of time.
    Mr. Hayes. Sure.
    Dr. Fleming. But I listed those organizations. Would you 
agree or not agree they should be on there?
    Mr. Hayes. I do not think you can put everybody on an 
Advisory Council. I think the key thing is for the Advisory----
    Dr. Fleming. How about just one of those? Would you have 
agreed with just one of them?
    Mr. Hayes. It depends on who it is, Mr. Chairman.
    Dr. Fleming. OK. My time is up.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I have listened to this wide range first in the panel and 
in the first panel and discussions among members, and I am 
trying to come to grips with why we are here and what have I 
learned and what are the critical issues and what do we agree 
upon and what do we not agree upon and what should we be 
working on.
    It seems to me that what we all have in agreement and the 
core fundamental issue is that we are here to talk about the 
sustainability of the population of elephants, especially 
African elephants. We are engaged or what is happening is that 
we must engage in certain things to ensure the sustainability 
because without it the elephant will become extinct or 
potentially could become extinct. That is the first thing.
    Second is that poaching has changed; that what we have 
talked about in the past about poaching, now poaching has 
become an operation of organized criminal element and not 
individuals, although there is probably some of that, too, and 
terrorist organizations of such a magnitude that they engage 
with helicopters, high tech equipment, that the very nature of 
poaching has changed.
    The third issue is that there is a national strategy that 
the President and the Administration is trying to put forward 
that builds upon already existing legislation that has already 
been out there, and the question is, and there are a lot of 
things that we agree upon and do not, and I want to find out 
what those critical issues are.
    One is that hopefully I want to find out whether we all 
agree upon that prohibiting the commercial import of African 
elephant ivory is in our Nation's and in the elephant's best 
interest, the sustainability part of this strategy. Is that 
true or not?
    Second is, are we going to prohibit the commercial export 
of elephant ivory. That is a critical issue. Are we going to 
restrict domestic resale of elephant ivory, except under 
certain kinds of conditions, and that is bona fide antiques, 
and that raises another question of what is an antique. How do 
you identify anything as an antique? Is it truly an antique? 
Whose responsibility is that?
    That is what we should be discussing and those are critical 
issues, but the issue is unless it's an antique, we have to 
come to agreement we are not going to allow the commercial sale 
of, and domestic.
    Another one is sports hunting. It does not seem to me the 
issue is really whether sports hunting is good or bad. We know 
sports hunting is a practice that is going on and, you know, 
whatever it is we are going to maintain it. The question is 
should we put limits on the amount of sports trophies that come 
back, and we are proposing two. Is that a fair limit?
    And the other one is why is there not a ban. Why is there a 
1-year suspension of sports hunting elephants to come into the 
country from Tanzania and Zimbabwe? It is only 1 year, through 
the year 2014, and it is because the Fish and Wildlife Service 
has suspended it for 1 year because they say there are 
questionable management practices and a lack of law enforcement 
there and weak governance.
    The question is: as we move forward into 2015, can that be 
corrected? That is the issue. And will those two countries have 
the same restrictions that everyone else has? And the question 
before us is: are those reasonable kinds of things? Should we 
be saying two per year of sports hunting trophies that can come 
into the country?
    And how do we decrease the demand for ivory products in 
this? And how do we go after those in a meaningful way who have 
been criminals? Should we increase the penalties for this?
    Those I think are the critical issues. I do not think 
spending all the time on whether something is an antique or not 
here or getting on is really the critical issue or pro- or 
anti-sports hunting. That is not the issue.
    The issue is are these reasonable kinds of standards that 
will help to sustain the population. That is what it is all 
about. So to me those are the things I think this committee 
needs to deal with, and I thank everyone for bringing us this 
information.
    I don't have any specific questions more. I have been 
educated. I do not think we have come to consensus. I do not 
think we are too far apart. I think there are certain small 
issues on--and I know others will say they are not small in 
terms of we are hurting the sports hunter--I do not think that 
is the issue. The issue really is, is this a legitimate number, 
the number two. That is what is being proposed, and then in the 
future should this 1-year suspension be lifted.
    And the same thing is how do you demonstrate something is 
an antique.
    And with that I thank the Chair for holding this committee 
hearing and for educating me.
    Dr. Fleming. I thank the Acting Ranking Member. Thank you 
for your comments.
    Mr. Young is recognized.
    Mr. Young. Thank you, Mr. Chairman.
    I thank the panel.
    You know my frustration. You have been in the audience with 
the Fish and Wildlife. Like I said, they have been sort of like 
the guy that grows pot. He has been using his own product. This 
does not make sense.
    But Congressman Fields, thanks for your testimony. I was 
one of the co-sponsors with you of the 1988 Act. Did you ever 
envision that this law would be used to destroy the economic 
value of millions of items legally acquired by Americans over 
the years?
    Mr. Fields. Absolutely not.
    Mr. Young. It was never the intent, was it?
    Mr. Fields. Never discussed.
    Mr. Young. OK. What was the purpose of the Act in your 
memory for the sport hunted trophy exemption?
    Mr. Fields. Well, this was, as I mentioned a moment ago, 
collaborative. We worked both sides of the aisle. We worked 
with all stakeholders, and we all determined that sport hunting 
was biologically neutral and that the insignificant take had no 
effect on the sustainability of the elephant population.
    Mr. Young. OK. What would be the impact upon programs like 
CAMPFIRE, which is very vital?
    Mr. Fields. Well, and it decimates it. If I could, let me 
respond just in a way to Mr. Lowenthal because I think your 
questions were very well framed, and I would like to have an 
opportunity to talk with you more.
    Mr. Young. Do not use too much of my time with Mr. 
Lowenthal.
    Mr. Fields. Just one quick example.
    Mr. Young. OK.
    Mr. Fields. Because the question was: can 1 year really 
make a difference? One year can make a dramatic difference, and 
let me talk about Hwange National Park in Zimbabwe. I am very 
familiar with that area.
    There are about $525,000 a year generated through sport 
hunting the African elephant. Eighty-five percent of that goes 
into the local community. That is a gigantic sum of money for 
that one area for 1 year.
    And if we are not careful, what the Fish and Wildlife 
Service has proposed converts the elephant from having economic 
value to being something that was referred to a moment ago as a 
protein source, that has a value in addition to the tusk.
    Mr. Young. OK. I just hope somebody else heard that.
    Mr. Fields, Congressman, do you find it curious that the 
Administration did not request an increase in the funding of 
Fiscal Year 2015 for the African Elephant Conservation Fund? 
After all, this fund has been the only contiguous source of 
money sent to Africa by ivory producing countries to stop 
poaching.
    Mr. Fields. Well, in the past 26 years, 467 projects have 
been funded to the tune of about $31 million. So the answer is, 
yes, I am surprised.
    Mr. Young. Well, again, it shows the hypocrisy of this 
whole situation. We have a Fish and Game department that is, 
again, like smoking wacky weed, you know, and they are coming 
out saying this is going to stop the elephant decline, and yet 
they did not request any money to stop really the poaching.
    You hit it right on the head. Follow the money, the 
poaching, not from this country. I think it is going to be very 
harmful.
    And, Mr. Fields, we all want to save the African elephant. 
Like I say, I have been sponsoring that bill and there have 
been others, and I am all for it, and to help to eliminate 
poaching would be an excellent start. Nevertheless, please tell 
me how you think destroying the value of an ivory chess set 
which is 75 years old would save an elephant in Africa.
    Mr. Fields. Well, it would not, and as I suggested a moment 
ago, to me that is collateral. I think what has been discussed 
about the poacher, what has been discussed about the countries 
that allow poached ivory to enter their borders, those are the 
two enemies. I mean that, if you are really sincere about 
preserving the elephant, preserving a sustainability in the 
herd is to go after the poacher and to go after the countries 
that allow the poached ivory to come in.
    Go after the market side. Follow the money.
    Mr. Young. Yes, and it goes back to a de minimis type of 
ivory and that teapot. I sit here and I think, ``What are they 
thinking?'' Mr. Ash says, ``Oh, no, that is now illegal,'' that 
little teapot, the one you've got that little piece of ivory 
in.
    I just cannot imagine what they are thinking because this 
is not going to help. I go back to my original statement. I 
have a pistol with an ivory handle on it, if you want to call 
it, and it is old. I do not know where in the hell the ivory 
came from. I cannot document it, and the value of the weapon is 
the age of the weapon plus the ivory grips, and if I lose the 
ivory grips, the pistol will lose all of the value.
    That is a taking. That is against the Constitution as far 
as I am concerned. We can argue all they want. This is a 
classic example of an agency, again, that does not know what 
they are doing trying to appease a few people that do not know 
what they are doing, and I suggest respectfully, Mr. Chairman, 
let us listen to those countries that are directly involved. 
They are trying to evolve and save the animals through good 
conservation, not some bunch of interest groups that have this 
guise of ``I want to save the elephants.''
    I thank the panel, too. I was listening to the lady with 
the museum. We will talk about that later because it does 
decrease the value. You will have a hard time maintaining your 
museum.
    Thank you.
    Dr. Fleming. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I had to go to my office, but I was listening as I was also 
meeting with people. It was a little weird, but they forgave 
me. At least they got half of my brain.
    And I observed that both Mr. Hayes and Representative 
Fields were on a fairly common theme in terms of actions that 
we could take nationally, internationally that follow the money 
and sanction those countries where we are seeing this flow.
    Maybe first Mr. Hayes and then Representative Fields. I 
mean, as I see it, we could currently use Pelly; is that not 
correct?
    Mr. Hayes. That is correct, Congressman.
    Mr. DeFazio. Has there been any discussion by this 
commission or group, Your Honor, about recommending that?
    Mr. Fields. The Advisory Council just had a public meeting 
on June 9 and recommended that if necessary, the Administration 
should look at using the Pelly Amendment to bring sanctions 
against countries that are not honoring the CITES import-export 
restrictions that were set in place now more than 20 years ago.
    Mr. DeFazio. OK. But when do we reach the ``if necessary'' 
point?
    Mr. Hayes. Well, there is an important meeting that CITES 
is having this summer in which eight countries that have been 
singled out as having particularly poor exporters and domestic 
markets for ivory that appear to be clearly in violation of 
CITES, including China, Vietnam and others. There will be 
discussion about the action plans they have put on the table.
    And so we think it is appropriate for the----
    Mr. DeFazio. And Pelly can go beyond just a like sanction. 
It can go to other imports or imports from those countries.
    Mr. Hayes. Yes.
    Mr. DeFazio. So if we just threaten a whole bunch of junk 
coming from China or all of the televisions that we are getting 
from them since we do not make them anymore, it might get their 
attention.
    Mr. Hayes. Yes. I think it actually has to have a 
connection with wildlife, but in the past the connection has 
been----
    Mr. DeFazio. Yes.
    Mr. Hayes. But I defer to you on that, Congressman.
    Mr. DeFazio. We have to investigate that, and I am trying 
to clearly authorize that.
    Representative Fields?
    Mr. Fields. Mr. DeFazio, I think you are absolutely 
correct. You were out of the room when I spoke relative to your 
statements earlier and also what Chairman Fleming said. The two 
of you have an unbelievable bully pulpit, and I just know from 
our experience in 1988 and 1989 when we asked the Chinese 
Ambassador to come and meet with us and then we had follow-up 
subsequent meetings, I do not think anything is going to happen 
with one meeting, and I do not think necessarily two meetings. 
I think you have to look at everything that is available to you 
in terms of options that you can exercise, whether they are 
sanctions, whether they are pieces of legislation.
    Most countries cannot stand in that glare, in that 
spotlight, and I have every confidence in you and Chairman 
Fleming being able to make a real difference.
    Mr. DeFazio. Right. And Vietnam, I know we have already 
done a letter on the rhino, but they are also on this list, are 
they not? Yes, and they are desperately trying to be part of 
the trans-Pacific partnership. I think we could also direct a 
congressional letter to our Special Trade Representative Froman 
to say, ``Well, if they keep this up, you should not even 
consider them,'' you know, some things that might get their 
attention.
    There was something else mentioned while I was out that 
related back to the teapot and some other things, and I do not 
know whether or not we do not have Fish and Wildlife up here, 
but your familiarity Mr. Hayes and with the group you are 
serving on, this discussion of a de minimis exemption, it just 
seems to me that would narrow the universe so much, and I am 
trying to think of an analogy.
    And it is really hard to come up with an analogy, but I was 
thinking about one thing. It is like we have a problem in this 
country with legal drugs being used illegally. We are not 
banning the legal drugs. We have tried to put a higher level of 
restrictions on how they are dispensed and how they are 
prescribed, but they are still pretty readily available. We 
have not gone to the point of, you know, where we seem to be 
going.
    Would some sort of de minimis exemption, I mean, if you 
could take one of those things I picked up as heavy as it is, 
which is part of a tusk and you are talking about small pieces 
of ivory, it would be like 10,000 rings or whatever, you know?
    Mr. Hayes. From my perspective, Congressman, I think that 
we have to have a common sense approach to what I believe, as 
Congressman Fields said, are ancillary issues, and I hope that 
the Fish and Wildlife Service will come forward in their 
rulemaking where they are going to better define what kind of 
expectations there are for burden of proof, for example, et 
cetera; that there are common sense approaches that allow for 
the continued trading of pre-ban imported materials and the 
continued trading of antiques, the bona fide antiques.
    The law allows both types of trade to continue.
    Mr. DeFazio. Right. OK. Well, thank you.
    Thank you, Mr. Chairman.
    Dr. Fleming. We are going to have a vote soon, but I think 
we can still squeeze both in. So Mr. McAllister, you are 
recognized.
    Mr. McAllister. Thank you, Chairman.
    Well, first let me just say I think we are all in agreement 
that the number one goal is to protect the sustainability of 
the African elephant, and, Congressman Fields, I just have a 
few questions directly for you because I definitely like the 
way that you take on the subject, cut through all of the B.S., 
and let us fix the problem and then the rest will be collateral 
and it will fix itself.
    So the first question I have for you is: in your opinion 
will banning the domestic sale and trade of legally owned pre-
ban ivory help end the poaching and illicit trade?
    Mr. Fields. No.
    Mr. McAllister. What steps do you think the United States 
should take to help those foreign nations to combat poaching?
    Mr. Fields. Well, the African Elephant Protection Act has a 
mechanism to fund, you know, programs and projects, which I 
mentioned a moment ago, 26 years, 467 projects, $31 million, 
but again, to me money is not going to solve it, and when you 
think about the poacher, how do we get to those poachers?
    Unless we have boots on the ground, we are not going to get 
to the poacher. We really have to go to the market side and, 
again, the bully pulpit that you guys have, the options that 
are available to you, and I think it is not a one-shot affair. 
I think you have to be consistent and dogged, but you put the 
spotlight on the country with the bad actors or the countries 
that are the bad actors.
    And also I might say I would not be surprised if there is 
not state-sponsored in some form or effect, and I have no 
personal knowledge, of the poaching.
    Mr. McAllister. I guess would that be the same as the steps 
we should take to help end the international illicit trade of 
the ivory, too?
    Mr. Fields. Excuse me?
    Mr. McAllister. I said I guess you would answer the same 
way for the steps that we should take to end the international 
illicit trade in ivory as well as the poaching, the same?
    Mr. Fields. I think, again, it sounds too simple, but you 
have to follow the money and go to where the money is, and 
again, whether it is a sanction or a piece of legislation or 
global condemnation, something has to be done to get the 
attention of the people who are the bad actors, the national 
bad actors.
    Mr. McAllister. And as a retired Member of Congress 
concerned about poaching in Africa, is this an effective use of 
the taxpayer dollars in your opinion?
    Mr. Fields. Are you talking about the Fish and Wildlife 
proposal? I personally do not think it is going to work, and I 
think in countries like Zimbabwe and Tanzania, it, first of 
all, is a slap in the face of these countries that they were 
not consulted.
    It takes the money out of the local community, which the 
elephant is no longer protected by the community, but becomes a 
meat source, and it has a commodity, the ivory. You know, it 
takes away the money that supports jobs in these very poor 
areas. It makes no sense whatsoever, and again, in terms of the 
antique ivory, to me that is collateral. It does nothing to 
preserve the current African elephant population.
    Mr. McAllister. Well, I appreciate all of you all coming. I 
would just like to say to you, Congressman Fields, and to you, 
Mr. O'Grady, thank you for your service in government and for 
the military and any others that may have served. I appreciate 
you taking your time today to come and visit with us.
    Dr. Fleming. The gentleman yields back.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    After listening to this back-and-forth for more than an 
hour, I am still wondering exactly why each person is holding 
the position without bending at all. For example, I do not 
really understand, Congressman Fields. You said just go after 
the poacher; follow the money; go after the poacher. But 
haven't we been doing that?
    I mean, you started that and thank you for the legislation.
    Mr. Fields. And also Tony Beilenson.
    Ms. Shea-Porter. Yes, but since then we have come to face 
much larger challenges, and when we talk about all those who 
are making money and using it for terrorist operations or 
whatever they are doing with that, and a real stronger criminal 
element, why do you think we can (a) follow the poacher--
apparently we cannot or we have not been able to--and what 
exactly are you talking about in order to stop this?
    I am pretty certain that these governments do not want this 
either, this illegal poaching. So you said, well, highlight and 
try to embarrass the country. But haven't we already tried 
that?
    Mr. Fields. Well, it worked. When we did this, the price of 
ivory went from $100 a pound down to virtually nothing, and I 
am going to have to give you my best guess because I am not 
really current and privy to security information, but I think 
perhaps we have not had our eye on the ball. We have not been 
as focused.
    I think you alluded, as did Mr. Lowenthal and others, that 
the poaching element is much more organized today, much better 
funded, which to me--and, again, I have on personal knowledge--
but it makes me wonder if some of the poaching is not state-
sponsored.
    Ms. Shea-Porter. Exactly.
    Mr. Fields. And I think when you look at where the ivory is 
going, obviously there is someone there making money. Somehow 
that is intrinsic in that particular society, and I know from 
our experience that until we actually got very specific with a 
country, China, and said to them, ``You have a problem,'' and 
we were told there was no problem and we came back and 
introduced legislation, put the spotlight on, had the hearing, 
that is when----
    Ms. Shea-Porter. But clearly this is not working anymore, 
and the basic problem is that we do not have enough elephants, 
that the elephants are dying, and so I listen to the hunters. I 
listen to the concerns about the economy and thinking there 
does not seem to be much room for compromise there, and then I 
also would like to talk to Mr. Hayes about this because you 
mentioned the number of elephants that died just in the past 
couple of years, and it is horrific.
    What percent are killed illegally, number one?
    And what would you suggest? And tell me more about the 
panel and what the recommendations are because while what 
worked very well then does not seem to be working now.
    What would be different? Why do you believe that this would 
work?
    Mr. Hayes. First, Congresswoman, in answering your first 
question, the estimates of 35,000 and then 20,000 over the last 
2 years are elephants that are killed for their ivory illegally 
by poachers.
    There is a very effective representation of the relative 
number of elephants that are dying of natural causes versus 
poaching, and in much of Central Africa and East Africa you see 
that the killings are far, far more than would be expected 
through natural death.
    In terms of what is the situation today, I agree 100 
percent with Congressman Fields. The ban that took place in 
1989, because of Congressman Fields' legislation, was 
incredibly effective and the markets crashed and the value went 
way down and poaching as a result went way, way down. And it 
stayed down relatively speaking over the next 20 years or so.
    It has really spiked in the last 5 years, and for a couple 
of reasons. No one knows for sure why, but there are a couple 
of obvious factors.
    One is CITES made a mistake and put on the market some 
national stocks of ivory and created an ambiguity about all of 
a sudden now the ban that was really quite complete based on 
the African Conservation Act became, well, now there is good 
ivory. So it was cover, as Mr. Dreher explained, for the 
illegal sale of ivory.
    The other thing is the rise of a middle class in China and 
Asia and the consumerism associated with that and those 
combinations, and I think the U.S. and the world took their eye 
off the ball as well.
    Many of the recommendations are really along the lines of 
demand reduction, just as Congressman Fields has said, and 
follow the money and try to get the kingpins that are involved. 
The good thing about the syndicates is that it is not 
necessarily the small poacher that is in the village that is 
causing the problem. It is the big time operators.
    We know how to deal with that globally and efforts are 
underway under the transnational organized crime initiative.
    Ms. Shea-Porter. Can you deal with that and still protect 
the right that we have heard from others talking about their 
musical instruments, talking about their antique business?
    Mr. Hayes. Certainly.
    Ms. Shea-Porter. And talking about a certain amount of 
hunting. Is there a balance there?
    Mr. Hayes. Certainly. I mean, I agree 100 percent with 
Congressman Fields that the antique ivory issue, the musician 
issue, we should be able to work through these issues, and the 
hunting issue, there is no question that in some countries the 
hunting is tremendously helpful.
    Right now in Tanzania, I do not know the situation in 
Zimbabwe, but we know that in Tanzania the elephant populations 
are declining precipitously.
    Ms. Shea-Porter. OK. Thank you.
    Dr. Fleming. OK. The gentlelady's time is up.
    And we now have a vote, and we are out of time. Before 
closing, I would again like to thank all of our witnesses for 
the participation in this important hearing.
    I also would like to have unanimous consent to include in 
the hearing record the INTERPOL report by Dr. Samuel K. Wasser; 
a statement by Sotheby's, testimony of Christie's; a statement 
of Art and Antiques Trade Group; a statement by the Association 
of Art Museum Directors; a statement of Art and Antiques Trade 
Group; a statement by Ms. Linda Karst Stone of Kerrville, 
Texas; an article by a Mr. Doug Bandow of the Cato Institute; 
and an article that appeared in yesterday's Wall Street Journal 
entitled ``Grandma's Cameo Becomes Yard Sale Contraband.''
    And without objection, so ordered.
    There is no question that each of us believes that the 
illegal killing of elephants must stop. I remain hopeful that 
the Fish and Wildlife Service will listen to reason and not 
criminalize millions of Americans who legally own ivory.
    In the final analysis, simply closing the U.S. market and 
prohibiting the import-export, interstate and intra-state sale 
of elephant ivory will not save elephants in the ivory 
producing states. It might make us feel better, but traffickers 
do not care whether their illegally obtained wildlife is sold 
in Beijing, Hong Kong, Saigon or Washington, DC.
    I also remain unconvinced that treating Grandma's ivory 
broach, Uncle Bob's Steinway piano, or cousin John's vintage 
Martin guitar with ivory pegs, all of which were legally 
acquired many years ago, as contraband will do anything to save 
or conserve wild elephants today.
    I want to thank Members and staff for their contributions 
to this hearing.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of Raymond M. Hair, Jr., International President, 
    American Federation of Musicians of the United States and Canada
    On behalf of the 80,000 members of the American Federation of 
Musicians of the United States and Canada (AFM) and the International 
Conference of Symphony and Opera Musicians (ICSOM), a Players' 
Conference within the AFM representing over 4,000 musicians in over 51 
major symphony and opera orchestras throughout the United States, I 
want to thank Subcommittee Chairman John Fleming and Minority Committee 
Member Alan Lowenthal for holding the June 24, 2014 oversight hearing 
on the plan of the U.S. Fish and Wildlife Service (USFWS) to implement 
a ban on the commercial trade in elephant ivory. The ban has a laudable 
goal: to shut down the illegal trade in ivory that fuels African 
elephant poaching. The AFM supports conservation efforts and the fight 
against illegal poaching and illicit trade in African elephant ivory.
    However, the USFWS Director's Order 210--both as originally issued 
on February 25, 2014 (the Order), and as modified on May 14, 2014 (the 
Amended Order)--has had and will continue to have the most severe of 
negative and unintended consequences on musicians, culture and the 
music industry, without advancing the goals of the elephant ivory ban, 
reducing illegal ivory trade or diminishing elephant poaching in Africa 
because of its restrictions on musical instruments.
    Although elephant ivory was once used in small amounts in the 
manufacture of some musical instruments, this has not been the case for 
decades. However, thousands of musicians now own musical instruments 
that lawfully contain small amounts of elephant ivory. These musicians 
did not buy their instruments for the de minimis amounts of ivory they 
contain, but for their acoustic and handling properties unrelated to 
ivory per se. The use and sale of these musical instruments does not 
fuel the illegal ivory trade.
    But the Amended Order nevertheless imposes severe restrictions on 
musicians' ability to perform internationally with these instruments, 
and will erode the instruments' economic value, causing great harm to 
our musical culture as well as great economic harm to our Nation's 
musical artists. Although the Amended Order sought to correct problems 
created by the Order's restrictions on the ability of musicians to 
travel with their instruments, it fails to provide a clear, practical 
and reliable system for permitting such travel.
    The AFM submits this written testimony for the record in order to 
show, first, that musical instruments containing small amounts of ivory 
simply should be exempted from the ivory ban, and second, that at a 
minimum, the application of the Amended Order and any new rules 
regarding musical instruments should be held in abeyance until clear, 
reliable and non-burdensome means of compliance are worked through with 
stakeholders.
                the afm and its universe of stakeholders
    The AFM is the largest labor organization in the world representing 
professional musicians, and possibly the oldest, having been founded in 
1896. The AFM represents musicians in such diverse workplaces as motion 
picture and sound recording studios, live theaters, symphony, opera and 
ballet orchestras, hotels, lounges, tours and every other sort of venue 
large and small. The AFM has also represented the legislative and 
policy interests of working musicians since at least 1907, when 
operetta composer Victor Herbert was asked and appeared before Congress 
in support of copyright reforms on behalf of composers and the AFM. The 
AFM is firmly committed to raising industry standards and placing the 
professional musician in the foreground of the cultural landscape and 
relevant policy debates.
    AFM members comprise the broadest imaginable universe of performing 
musicians. We perform as jazz, classical, folk, country, rhythm and 
blues, world music, Latin, Asian, salsa, samba, polka, hip-hop and rock 
artists in over 200 affiliated locals throughout the United States and 
Canada. We are found in the professional ranks of major and regional 
symphonic, operatic and ballet orchestras, musical theater pits, major 
motion picture sound studios, night clubs, city music festivals, and 
traditional city-community concert and drum-and-bugle style bands. We 
teach in schools, universities and private studios, thus training new 
generations of artists.
    Contrary to popular misconceptions, most musicians are neither rich 
nor celebrities, nor is ours a life of effortless play. We have natural 
talent, but only hard work and practice will hone our art. Full-time 
jobs in music are rare. Most professional musicians struggle to earn a 
decent living, and a successful musician is likely to be a person of 
extraordinary musical gifts earning, at best, a modest, middle-class 
livelihood.
    For professional musicians, our musical instrument is a crucial 
tool of the trade, and more--it is our voice. A musician chooses his or 
her instrument with the utmost care for sound, playability and personal 
suitability, and then practices and performs on it until the instrument 
is an extension of the musician's artistic self. Musicians' instruments 
may range in value from $1,000 to $10,000,000; for most musicians it is 
a major investment, and its economic value is as crucial to the 
musician's future economic well-being as its acoustic quality is 
crucial to his or her artistic expression. I cannot emphasize too 
strongly the importance of instruments to musicians and the music 
industry: professional musicians depend on their instruments to earn a 
living and give voice to their artist expression, student musicians to 
learn their art, and amateur musicians to express themselves in their 
homes and communities.
    AFM members recognize the dignity of work and the value artists and 
supporters of the arts place on that work. With the execution of every 
musical note, we strive for perfection in both practice and 
performance. We know that perfection demanded by our commitment to the 
art can only be achieved through our instruments.
 musical instruments containing de minimis amounts of ivory should be 
                          exempt from the ban
    At the June 24, 2014 oversight hearing, Ms. Arian Sheets, Curator 
of Stringed Instruments at the National Music Museum, provided the 
subcommittee with clear testimony that while 20th century instrument 
makers used small amounts of elephant ivory (often less than 1 gram) in 
certain musical instruments, elephant ivory has not been used in the 
manufacture of musical instruments for decades. Thus, the contemporary 
manufacture of musical instruments neither provides a market for 
illegally traded ivory nor fuels the African elephant poaching that 
feeds that illegal market.
    It is also clear that the continued existence, sale and use of 
thousands of what Ms. Sheets calls ``vintage'' instruments that contain 
small amounts of elephant ivory from earlier decades, when such use was 
lawful, also does not feed the illegal ivory market nor encourage 
elephant poaching. As I explained above, musicians select instruments 
for the quality of the instrument's tone and the highly individualized 
sense of the instrument's suitability for artistic talent and desires. 
We do not select instruments for the minimal amounts of elephant ivory 
they may contain; ivory is irrelevant to the musical value of the 
instrument. Bluntly stated, musical instruments are not bought and sold 
for ivory, and in the wake of all the furor that erupted over the Order 
and the Amended Order, the AFM is unaware of any evidence that the 
import, export, interstate sale or intrastate sale of musical 
instruments has any effect on illegal ivory trafficking or elephant 
poaching.\1\
---------------------------------------------------------------------------
    \1\ Indeed, the USFWS has acknowledged that precluding the movement 
of musical instruments containing CITES pre-Convention or antique ivory 
``would not benefit elephant conservation'' and such movements ``do not 
contribute to poaching and illegal trade.'' USFWS Moves to Ban 
Commercial Elephant Ivory Trade Questions and Answers, http://
www.fws.gov/international/travel-and-trade/ivory-ban-questions-and-
answers.html, see answer to ``Why not impose a complete ban on all 
import, export and domestic sale?''
---------------------------------------------------------------------------
    The AFM understands that the difficulty facing the USFWS is that of 
determining which vintage instruments contain lawfully obtained, pre-
Convention elephant ivory, and which, perhaps, do not. But the approach 
taken in the Order and the Amended Order, which put an impossible 
burden on ordinary citizen-musicians to ascertain and document the 
provenance of the small amounts of ivory in their instruments--which 
were never purchased for their ivory in the first place, and about 
which sufficient documentation may be impossible to obtain--puts an 
extraordinary hardship on musicians with no countervailing benefit for 
wildlife conservation. Musicians are terrified to take their 
instruments on tour to foreign engagements, for fear of confiscation 
upon return to the United States, no matter what steps they have taken, 
because the permitting process is full of obstacles and may be 
impossible to fulfill with certainty. Middle-class musicians can ill 
afford for their instruments--which represent a major investment for 
them--to lose value because they cannot be sold in inter- or intra-
state commerce. And these harms will have an adverse effect on the arts 
generally, from symphony, opera and ballet orchestra institutions to 
ethnic ``world music'' groups (and groups performing in every genre 
imaginable) to the viability of foreign cultural exchanges.
    In light of the fact that the practice of inserting small amounts 
of elephant ivory in musical instruments ended decades ago, the lack of 
evidence that travel, use and sale of musical instruments with small 
amounts of ivory has any ill effect on wildlife conservation, and the 
harms with which the Amended Order will burden musicians in particular 
and the arts generally, the AFM believes that musical instruments 
should be exempted from the Amended Order.
   the application of the amended order and any new rules on musical 
 instruments containing small amounts of elephant ivory should be held 
in abeyance pending establishment of clear, reliable and non-burdensome 
                          means of compliance
    If musical instruments containing small amounts of elephant ivory 
are not to be completely exempted from the application of the Amended 
Order and other conservation regulations, their application should, at 
a minimum, be deferred until the USFWS (and any other relevant 
government agencies) have consulted with stakeholders in the music and 
arts communities and reached agreements upon clear, reliable and non-
burdensome methods of compliance.
    In his testimony during the June 24, 2014 oversight hearing, David 
J. Hayes, Vice-Chair of the Advisory Council on Wildlife Trafficking, 
noted that the Advisory Council had ``urge[d] the Interior Department's 
Fish & Wildlife Service to work with the regulated community to provide 
non-burdensome permit approvals for non-commercial import and export of 
products that contain ivory (e.g., orchestra instruments that contain 
ivory; traveling museum exhibitions, etc.), and for clear and 
reasonable burden of proof standards that qualify ivory products as 
``antiques'' that are exempt from the Endangered Species Act.''
    But to date, the application of the Amended Order has been unclear, 
unreliable, and burdensome. Musicians of all types--those who tour as 
musicians employed by orchestra institutions, those who tour in their 
own small groups or as solo performers in all types of musical genres, 
and those who simply own vintage instruments and fear their loss or 
devaluation--have suffered from uncertainty that hurts the arts and 
does nothing for wildlife conservation.
The Order
    Immediately upon issuance of the February 25, 2014 Order, the 
American music industry was thrown into turmoil. It is no exaggeration 
to say that AFM musicians in the United States and Canada experienced 
panic at the thought that under the immediate enforcement provisions of 
the Order, they faced the possible confiscation of their instruments 
containing small amounts of ivory upon returning from foreign tours, 
and had no clear idea and no government guidance regarding how to 
comply with the Order to avoid such extreme results. The AFM worked 
hard to untangle the new rules regarding travel in and out of the 
country, but there upon issuance of the Order there was no one central 
government source of reliable answers to the myriad of confounding 
questions raised by the Order and its immediate enforcement.
    The AFM and other organizations were able to assist two major U.S. 
symphony orchestras whose players, all members of AFM Locals in Boston 
and New York, were already scheduled to travel overseas within a few 
months. But it was impossible meet the needs of the many non-orchestral 
musical groups who were booked to perform overseas and had no guarantee 
that they would be able to return safely with their musical 
instruments--because it was impossible to determine up-to-date, 
conclusive and accurate directions about how to navigate customs and 
immigration with instruments containing small amounts of ivory. There 
were some indefensible confiscations of instruments that may have been 
related to African ivory, and the uncertainties surrounding the Order 
allowed rumor and misinformation to spread through the music industry 
like wildfire.
    The AFM became convinced that complications would continue unless 
and until musical instruments either were exempted from the Order, or 
were subjected to clear, reliable and non-burdensome rules. As I wrote 
to President Obama, ``the language in the Order creates insurmountable 
obstacles that the average citizen musician cannot navigate due to the 
lack of a One-Stop government site that provides necessary guidance.'' 
(See attached letter to President Obama dated April 4, 2014.) I wrote a 
similar letter to the Congressional Black Caucus, Congressional 
Hispanic Caucus and Congressional Asian Pacific American Caucus, to 
advise them the Order likely would adversely impact diverse musical 
cultural constituencies, including groups that travel with special 
indigenous non-traditional musical instruments that may contain ivory. 
(See attached letter to the Congressional caucuses dated April 4, 
2014.) In that letter, I requested and recommended the exemption of 
musical instruments from the Order until such time as USFWS issued an 
orderly plan that would allow artists to smoothly traverse the system 
assuring guaranteed, safe importation of their valued musical 
instruments through customs and immigration upon return.
    Last but certainly not least, the AFM and partner organizations met 
with the USFWS to urge that the needs of the music community could and 
should be met without any harm to wildlife conservation.
The Amended Order
    Due to considerable pressure brought about by the AFM and its 
national music partners, the USFWS issued the Amended Order on May 15, 
2014. Though we welcomed the Amended Order's expansion of the date 
related to sales and trade of musical instruments, the Amended Order 
did not go far enough to mitigate the burdens and harms caused by 
including musical instruments containing small amounts of ivory within 
the purview of the elephant ivory ban. The following are only some of 
the ongoing problems under the Amended Order and potential new 
regulations.
            The Burden of Proof and the Lack of Clarity Surrounding 
                    Applications for CITES Certificates
    The Amended Order allows the import/export (i.e., foreign tours and 
returns to the United States) of musical instruments containing worked 
elephant ivory that was legally acquired and removed from the wild 
prior to February 26, 1976 (the date that the African elephant was 
listed under the Convention on International Trade in Endangered 
Species (CITES)), and not sold since February 25, 2014. This would 
cover an enormous number of musical instruments, except for the 
following critical practical problem: the burden of proving that the 
minimal amount of ivory in a musical instrument was taken from the wild 
pre-CITES is often impossible to meet. Numerous instruments, including 
many of the finest examples that are prized by musicians for their 
playing qualities, were crafted with small amounts of ivory long before 
CITES existed. Violin bows, for example, are often extremely old. None 
of these instruments, and very few others, would have been provided 
with documentation regarding their ivory content, most especially 
because the instruments were never valued for the minimal amounts of 
ivory they might contain but only for their ability to produce 
sounds.\2\
---------------------------------------------------------------------------
    \2\ Indeed, it is not only difficult for musicians to determine or 
document the ivory (or lack thereof) in their instruments. The AFM 
understands that there is at least one documented case of an instrument 
being confiscated by U.S. officials because it was suspected to contain 
elephant ivory, when it fact it contained none.
---------------------------------------------------------------------------
    Simply put, it is unreasonable to impose a burden of proof upon 
citizen-musicians that simply cannot be met, particularly given the 
lack of connection between musical instruments and the illegal ivory 
trade.
    If the USFWS persists in believing that musicians should be 
required to make some showing regarding the likely source of any ivory 
in a musical instrument (though a showing far short of proving 
provenance where proof is impossible), the showing that should be 
required to obtain a CITES certificate (or other ``musical passport'') 
must be informed by practical reality, determined in conjunction with 
musicians and experts on musical instruments, and accompanied by clear, 
consistent and reliable guidance and directions (including to 
enforcement officials)--before it is enforced. At present, even with 
the issuance of a new musical instrument permit number 3-200-88, 
appropriate government ``required'' documentation needed to prove the 
source of any ivory in the instrument is unclear.
            Resolution of Economic Issues Relating to Seizures of 
                    Legally Purchased Musical Instruments
    The AFM understands that fines have recently been levied on 
confiscated musical instruments and their component parts, with no 
system in place to reimburse affected artists whose instruments may 
eventually be deemed to be perfectly lawful.
    There is currently no system in place to reimburse musicians for 
the value of lawful instruments that are damaged or destroyed in 
inspection or enforcement efforts. Musical instruments are fragile, and 
instruments suspected of being in violation of regulations may be 
damaged or destroyed if inspected and mishandled by non-experts. As an 
economic matter, regulations must provide for compensation in such 
circumstances. As a practical matter, regulatory language must be 
developed in cooperation with musicians and instrument experts to 
ensure that it appropriately protects valuable instruments during any 
physical inspection.
            Preventing Devaluation of Musical Instruments
    As I described above, musical instruments are major investments for 
working musicians and music students. Regulations that prevent the sale 
of musical instruments containing minimal amounts of African elephant 
ivory will do nothing to prevent the illegal ivory trade, but will 
radically reduce the economic value of musical instruments, threatening 
the livelihoods, capital investment, and future retirement of 
musicians, as well as preventing a new generation of musicians from 
benefiting from some of the finest musical instruments in existence. 
This is a most serious problem, not only for individual musicians, but 
for the music and arts community as a whole, and must be addressed.
            Insufficient Number of Ports of Exit and Re-Entry to the 
                    United States
    At time of the issuance of the Amended Order until now, the USFWS 
made no effort to accomplish targeted, effective public education 
regarding the need, under the Amended Order, to exit and enter the 
United States through designated ports. Moreover, citing cost 
prohibitions during our meetings, the USFWS would not consider 
expanding the number of ports available to musicians re-entering the 
United States with affected musical instruments. These problems must be 
rectified. And, as noted above, reliable techniques for distinguishing 
African elephant ivory from other materials must be developed, and safe 
procedures for the handling and protection of musical instruments must 
be developed with instructions clearly filtered down to enforcement 
officials.
            International Inquiries
    I have written at length about American musicians, but AFM and non-
AFM Canadian musicians cross daily into the United States, and there is 
no clarity regarding the documentation they now need to bring their 
musical instruments into the United States. New regulations now imposed 
by the U.S. government have added additional layers to the travel 
procedures Canadian musicians follow, which already include immigration 
verification, work permits, and the Canadian government requirement for 
musicians to obtain an ATA Carnet, just to name a few. Similarly, 
international musicians committed to perform in the United States, 
often as part of important cultural exchanges, suffer from uncertainty 
regarding requirements and their ability to obtain appropriate CITES 
documentation.
Conclusion
    In addition to thanking the subcommittee for its attention to this 
critical issue, I would also like to thank officials of the USFWS for 
their continued responsiveness to the concerns of the music community. 
But as the consideration of these issues continues, the AFM urges 
Congress, the Administration and the USFWS to take to heart the plight 
of the working musician and the music industry at large.
    In this regard, it is worth noting that musical instrument makers 
and the music industry generally have been leaders, not followers, in 
the conservation of wildlife, given the fact that they discontinued the 
use of ivory in musical instruments decades ago. Many musical 
instruments lawfully containing small amounts of elephant ivory remain 
in use, and they have extraordinary artistic and financial value to 
musicians and the arts. The AFM believes that a full moratorium for 
musicians and their instruments should be placed on the application of 
the Amended Order and any other new rules to musical instruments, 
either permanently, or, at a minimum, until such time all issues are 
resolved in conjunction with stakeholders and clear final guidelines 
and documentation are published on the USFWS Web site.

Attachments

                              Attachment 1

                   American Federation of Musicians
                   of the United States and Canada,
                                              New York, NY,
                                                     April 4, 2014.
Hon. Barack Obama, President of the United States,
The White House,
1600 Pennsylvania Avenue NW,
Washington, DC 20500.

Re: Meeting Request--Professional Musicians and African Ivory

    Dear President Obama:

    Please permit me to introduce myself. I am the International 
President of the American Federation of Musicians of the United States 
and Canada, (AFM) an AFL-CIO labor union founded in 1896 and recognized 
by the Department of Labor as one of the oldest unions in the United 
States. For more than 117 years, the union has served as the principal 
representative for professional musicians both at the bargaining table 
and in government and federal affairs. On behalf of 80,000 professional 
musicians, I write to request a meeting with you to discuss 
reconsideration and possible rescission of restrictive and what we feel 
is punitive language in Director's Order No. 210 issued by the United 
States Department of the Interior--United States Fish and Wildlife 
Service on February 25,2014.
    Mr. President, while the AFM joins you and the rest of the world in 
the preservation and protection of endangered wildlife species from 
poachers and unscrupulous dealers in the African ivory trade, Order No. 
210 hurts musicians by immediately implementing new and extremely 
restrictive rules on musicians who tour and travel internationally and 
who represent the best of American art and culture. The Order's sudden 
release has created ``a chilling effect'' on the travel and touring 
schedules of musicians who have contracted with international concert 
vendors and in certain cases, with representatives of foreign 
governments.
    We are joining with prominent AFM artists such as B.B. King and 
others to raise the point that Section 2 b (4) of the Director's Order 
singles out musicians and their priceless working tools by placing 
highly restrictive travel requirements with musical instruments 
containing in most cases de minimis parts of African elephant ivory. 
The Order would in effect subject any artist returning from 
international engagements to detention, confiscation and possible 
destruction of priceless musical instruments that may be placed in the 
hands of officials who have no knowledge about how to handle them.
    Most importantly, the AFM believes the language in the Order 
creates insurmountable obstacles that the average citizen musician 
cannot navigate due to the lack of a One-Stop government site that 
provides necessary guidance. With no published guidance from USFWS and 
no ability for a musical constituency here in the United States that 
easily surpasses one million affected artists, organizations like mine 
are inundated with telephone calls and emails from members asking for 
solutions that the government has not provided. There is no central 
website designed to answer citizens' questions, no hotline for those 
traveling in the immediate future, no expedited permit processing, and 
no directive to U.S. Customs and Immigration Officers who are charged 
with immediate execution of enforcement about how to manage encounters 
with musicians returning from travel who are not aware of this new 
Order.
    In closing, we have reached out to Members of Congress and asked 
for their help with this matter. We have indeed received interest and 
some support and look forward to the opportunity to meet with you, Mr. 
King, and if possible members of various Members of Congress to devise 
a more complete resolution to problems created by Director's Order No. 
210.
    Thanking you in advance for your consideration, I am,

            Sincerely and respectfully yours,

                                      Raymond M. Hair, Jr.,
                                           International President.

                              Attachment 2

                   American Federation of Musicians
                   of the United States and Canada,
                                              New York, NY,
                                                     April 4, 2014.
Hon. Marcia Fudge, Chair,
Congressional Black Caucus,
2344 Rayburn HOB,
Washington, DC 20515.

Hon. Judy Chu, Chair,
Congressional Asian Pacific American Caucus,
1520 Longworth HOB,
Washington, DC 20515.

Hon. Ruben Hinojosa, Chair,
Congressional Hispanic Caucus,
2262 Rayburn HOB,
Washington, DC 20515.

Re: American Federation of Musicians--African Elephant Ivory--Meeting 
        with President Obama

    Dear Congressional Caucus Chairs:

    I am writing to ask your assistance with a critical issue that has 
affected the entire music industry, particularly musicians you 
represent. Respectfully, the matter requires immediate attention.
    On February 25,2014 the U.S. Fish and Wildlife Service under the 
auspices of the Department of the Interior released Director's Order 
No. 210 outlining new, stepped-up enforcement requirements for import, 
export and travel with items containing African elephant ivory. Section 
2 b (4) specifically carves out and places new travel limitations on 
musical instruments. The harmful effects of Order No. 210 are being 
felt throughout the music industry particularly among musicians with 
instruments that were legally acquired prior to February 26, 1976.
    The American Federation of Musicians of the United States and 
Canada (AFM) is not arguing the merits of the ivory ban, just the 
effects of the Director's Order. As the representative of 80,000 
professional musicians in the United States and Canada, it is our 
obligation to point out that what appears to be a specific yet targeted 
focus on valuable musical instruments containing de minimis amounts of 
elephant ivory is simply punitive. The Order has caused concerns for 
musicians throughout our industry who travel abroad and who fear they 
will have no recourse should enforcement actions by U.S. Border agents 
take place upon reentry into the United States. Stakeholders should 
have time and the ability to comment on the merits of the Order and any 
new rules within our respective industries and professional 
communities.
    Hundreds of thousands of professional musicians, college students, 
and fine musical instrument collectors who for decades have owned rare 
and antique musical instruments have been swept up in the sudden 
negative effects of this Order and what may eventually become a rule. 
Musicians who travel daily with valuable work tools, student musicians 
who attend major universities, colleges and conservatories, and high 
school students in every community in the United States and its 
territories who own instruments legally acquired before 1976, have been 
singled out. Many who do not follow the Federal regulatory process will 
have absolutely no way of knowing how to travel and securely reenter 
the United States without having priceless instruments detained, 
confiscated and possibly destroyed at customs entry points around the 
United States.
    The American Federation of Musicians along with scores of other 
national arts groups are pushing for a carve-out of musical instruments 
legally owned by American musicians and instrument collectors.
    We ask that the Congressional Black Caucus, the Congressional Asian 
Pacific American Caucus, and the Congressional Hispanic Caucus weigh in 
on this issue with a letter to President Obama with an eye toward 
rescinding the musical instrument segment of the Order.
    I will also forward information about our issue regarding 
promulgation of an overdue rule for musical instruments as carryon 
baggage and our work with Secretary Foxx's staff.
    Thanking you in advance for the Caucus' help.

            Sincerely yours,

                                      Raymond M. Hair, Jr.,
                                           International President.

                                 ______
                                 

Prepared Statement of the American Federation of Violin and Bow Makers, 
                                  Inc.
    The American Federation of Violin and Bow Makers represents violin 
and bow makers from throughout North America. The art of violin and bow 
making represents a body of knowledge that has been handed down for 
centuries. The Federation's mission is to enhance public understanding 
and appreciation of historical violins and bows, the making of new 
instruments, as well as conservation and restoration of historical and 
modern instruments. The Federation works closely with many other 
musical industry organizations, including the International Pernambuco 
Conservation Initiative, the Violin Society of America, the 
International Society of Violin and Bow Makers, the League of American 
Orchestras, the American Federation of Musicians, the National 
Association of Music Merchants and the Recording Academy, to increase 
awareness of resource conservation issues crucial to the future of 
music.
    The Federation appreciates the opportunity to present comments to 
the Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs as 
it provides oversight regarding the African elephant ivory ban.
    The ban poses a dilemma to the stringed instrument world. The 
Federation supports without reservation the President's goal of 
combating wildlife trafficking and conserving African elephants. The 
Federation remains deeply concerned, however, that if the scope of the 
ban is not properly tailored, it will produce the unintended 
consequence of harming our Nation's artistic and cultural heritage.
    Unlike some objects containing ivory, musical instruments are 
indispensable tools of the trade for makers, dealers and musicians. A 
musician's instrument is highly personal, integral to the sound and 
performance quality the musician is trying to achieve, and often 
represents a very substantial personal financial investment. Hand 
crafted and unique, many instruments are among our culture's most 
highly prized artistic, cultural, historical and educational objects.
    Approximately 25-30 years ago bow makers, who number approximately 
50 in the United States, learned about the plight of elephants and 
stopped using elephant ivory. Since that time, bows have been made 
using mammoth ivory or other substitutes. When bows were in the past 
made using elephant ivory, the quantities were extremely small--
approximately 1 gram was used to shape a quarter gram tip. With 
approximately 350 bows made each year domestically, the tusks from one 
elephant, therefore, could have supplied several thousand tips over 
many years.
    Bow tips are functional: they grip horsehair, provide balance and 
protect the bow's delicate pernambuco tip. Musicians, however, do not 
purchase bows for their ivory. They purchase them for their overall 
artistic and acoustic qualities and may very well not be aware that a 
tip is made of ivory. The existence of elephant ivory in older bow 
tips, therefore, has never been a driver of trade and does not today 
contribute to a bow's value or, at a higher level, help drive up the 
cost of elephant ivory globally.
    Today, a very large universe of lawfully made, sold, and purchased 
bows containing elephant ivory are being played throughout the country 
and the world by professional, amateur, and student musicians. These 
bows are also being studied, exhibited, bought, and sold by instrument 
makers, dealers, and musicians. The Director's Order and news of future 
rule-making has created a broad perception among owners of these bows 
that they should immediately replace their lawful elephant ivory tips 
or risk seizure at international borders, possible forfeiture, and 
professional disaster.
    Recently, for example, a bow maker replaced the tip of a 30-year-
old bow of high value. He reported that, although he was able to do the 
job without damaging the bow's wooden stick, the bow would never play 
the same. The great pity is that the sacrifice of this and many other 
bows' artistic and historic qualities will do nothing to save African 
elephants.
    The Federation urges the government to adopt a surgical, evidence-
based approach to targeting and restricting activity, so that limited 
enforcement resources are expended where they will yield conservation 
benefit. The Federation is not aware of any evidence demonstrating a 
relationship between elephant poaching, wildlife trafficking and 
musical instrument making. Absent such evidence, the Federation 
believes the Government should refrain from imposing any new 
restrictions on the trade in musical instruments containing de minimis 
quantities of legally obtained ivory.
    The Federation was encouraged that the revised Director's Order 210 
issued last month incorporated common-sense improvements, such as 
removing the limit on non-commercial importation of instruments 
containing ivory and sold after 1976. Imposing the same limit on 
instruments sold after February 2014, however, seems arbitrary and 
destined in the future to impose an unfair burden on musicians, bow-
makers, and dealers without a clear, countervailing conservation 
benefit. Similarly, the Federation agrees with the Director's decision 
to eliminate the requirement that antiques need to have entered through 
authorized ports. The Federation believes that the antique definition 
should be revised further to simply require that an instrument be 100 
years old. Moreover, we note that, when determining a musical 
instrument's artistic and cultural value, the distinction between 
antiques and non-antiques is illusory--bows younger than 100 years old 
may have superior qualities.
    With more proposed rules coming out later this year, there is 
currently a great state of confusion and anxiety within the music 
community. A noticeable shift toward greater enforcement of CITES and 
Endangered Species Act permitting requirements, the roll out of a new 
musical instrument passport followed by the African elephant ivory ban 
has produced tremendous uncertainty about the steps needed to comply 
with U.S. and foreign laws and applicable burdens of proof. The 
Federation urges U.S. Fish & Wildlife Service to immediately provide 
the music industry with clear, one-stop, easy-to-access online guidance 
that will aid compliance. The Federation also believes that scheduling 
the release of forthcoming proposed rules concurrently rather then in 
sequence would help to minimize confusion.
    The music industry wants to understand how to comply with all 
applicable laws and it wants to support a targeted, common sense 
approach to protecting African elephants. If musicians, instrument 
makers, and dealers cannot enter the United States with the instruments 
they depend on without fear of seizure; and if musicians, makers and 
dealers cannot buy and sell the antique and non-antique instruments 
needed in order for music to develop and the highest levels of quality 
to be achieved, we risk imposing serious and unnecessary hardship on a 
substantial economic sector and undermining a tradition of cultural 
activity that has earned the United States a global reputation as a 
home of artistic excellence.
    Thank you.

                                 ______
                                 

Prepared Statement of William G. Pearlstein and Michael J. McCullough, 
                      Art and Antiques Trade Group
    We represent the Art and Antiques Trade Group (the ``Trade 
Group''). The Trade Group consists of the Art and Antique Dealers 
League of America,\1\ the National Antique and Art Dealers Association 
of America,\2\ the Antiques Dealers' Association of America,\3\ the 
Appraisers Association of America,\4\ and the British Antique Dealers' 
Association.\5\ These associations represent the interests of the small 
businesses that deal in fine and decorative art objects of cultural 
significance. Collectively, they represent approximately 500 dealers 
and 700 appraisers in the United States and United Kingdom. Our 
auctioneers include Bonhams, Doyle, Heritage, iGavel, Keno Auctions, 
Skinner and Stair). They are among the leading auction houses in the 
fine and decorative arts. We believe that the Trade Group collectively 
represents the majority of the trade in the United States and United 
Kingdom in antique fine and decorative art objects and includes the 
leading experts in the field.
---------------------------------------------------------------------------
    \1\ The Art and Antique Dealers League of America (the ``League'') 
has 93 member firms in United States. More about the League may be 
found at http://www.artantiquedealersleague.com.
    \2\ The National Antique and Art Dealers Association of America 
(``NAADAA'') has 39 members across the United States. More about the 
NAADAA may be found at http://www.naadaa.org.
    \3\ The Antiques Dealers' Association of America (``ADA'') has 102 
member firms in the United States. More about the ADA may be found at 
http://www.adadealers.com.
    \4\ The Appraisers Association of America (``AAA''), the premier 
national association of personal property appraisers of fine and 
decorative arts, has over 700 member firms in the United States. More 
about the AAA may be found at http://www.appraisersassociation.org.
    \5\ British Antique Dealers' Association (``BADA''), the trade 
association for the leading antique dealers in Britain, has 348 
members, of which seven are located in the United States. More about 
BADA may be found at http://www.bada.org.
---------------------------------------------------------------------------
    The plight of the elephant is of great concern to the Trade Group, 
and we deplore the lack of focus this issue has received in the past. 
We applaud the leadership shown by the Administration and this 
subcommittee on the issue of regulating the trade in elephant ivory.
    The Trade Group's members have routinely worked with the U.S. Fish 
and Wildlife Service (the ``Service'') with regard to import/export 
permitting and enforcement matters. They understand the difficult task 
given to the Service to enforce the Nation's wildlife laws. In 
furtherance of the National Strategy for Combatting Wildlife 
Trafficking, the Art and Antique Trade Group has offered to work with 
the Service and the New York Department of Environmental Conservation 
to create a public-private partnership and institute best trade 
practices. Our goal is to facilitate a transparent, lawful market in 
ivory objects that are reliably certified as bona fide antiques, and 
block the illegal traffic in uncertified, poached materials that lack 
permits.

    We respectfully ask the subcommittee to consider the following 
concerns:
The Antique Exception under the ESA
    We expressed concern that Director's Order No. 210, as originally 
issued in February 2014, had linked the ``antiques exception'' to the 
``designated port requirement'' (under Section 1339(h) of the 
Endangered Species Act of 1973, as amended (``ESA'')), thus clouding 
the trade in pre-1982 antique imports and U.S. made antiques.
    We asked the Service to consider decoupling the antique exception 
from the designated port requirement, and made three essential 
arguments: (i) seasoned experts in the fine and decorative arts trade 
can reliably distinguish genuine antiques from fakes, forgeries and 
fresh ivory; (ii) the trade in certified antiques does not drive demand 
for low-grade objects that incorporate poached ivory; and (iii) any 
``de minimis'' requirement for antique ivory would be unworkable, 
unenforceable, and make the ``antiques exception'' unavailable for most 
of the antique objects in the trade.
    After considering the concerns raised by our representatives and 
other stakeholders, and in light of the legislative history of the 
antique exception, the Service issued Amendment 1 to the Director's 
Order in May 2014 (the ``Amended Order''). As you know, the Amended 
Order provides that the Service, in its enforcement discretion, will 
not enforce the designated port requirement against bona fide antiques 
imported prior to 1982 and articles that were created in the United 
States and never imported. The Service takes the view that the limited 
exception for the trade in reliably certified antiques does not 
contribute to the demand for freshly poached ivory. In his testimony to 
the Senate Subcommittees on African Affairs and East Asian and Pacific 
Affairs on May 21, 2014, Director Ashe added that a ``de minimis'' 
requirement would be unworkable and unenforceable.
Imports of Certified Antiques
    In light of the rationale underlying the Amended Order, we believe 
that there is a strong case:

    <bullet> to create an import CITES requirement for the importation 
            of bona fide antiques containing worked elephant ivory and 
            those previously exported under permit being returned; and

    <bullet> to create an expert advisory panel to assist the Service 
            in reviewing import and export CITES permit applications.

The ESA Preempts Contrary State Regulation

    <bullet> Section 6(f) of the ESA provides in relevant part that:

       ``Any State law or regulation which applies with respect to the 
            importation or exportation of, or interstate or foreign 
            commerce in, endangered species or threatened species is 
            void to the extent that it may effectively . . . (2) 
            prohibit what is authorized pursuant to an exemption or 
            permit provided for in this Act or in any regulation which 
            implements this Act.''

    <bullet> New York State has recently passed a bill that purports, 
            among other things, to limit the trade and transfer of 
            objects containing ivory, mammoth or rhinoceros to 100-
            year-old antiques that include not more than a ``de 
            minimis'' amount (in this case 20 percent) by volume of 
            such materials. Other States, such as New Jersey, have 
            enacted or may soon enact similar ``de minimis'' 
            legislation or outright bans on the trade in antique ivory.

    <bullet> The ``de minimis'' limit and other features of the New 
            York bill impermissibly conflict with, and effectively 
            negate, the antiques exception under the ESA. They place 
            New York law (and other contrary State laws) squarely at 
            odds with express Federal law and Congressional policy.

    <bullet> We respectfully request that Congress require the Service 
            to emphasize in its final rules regarding the Amended Order 
            the preemptive effect of the antiques exception on contrary 
            State law.

An Ivory Ban Would Have a Significant Adverse Effect on the U.S. Art 
        Market

    <bullet> In the United States, the total number of quality fine art 
            objects individually worth over $10,000 is relatively 
            small, probably totaling in the hundreds of thousands. The 
            number of decorative art objects is much higher, probably 
            totaling in the range of 400,000,000 or more. We estimate 
            that approximately 5 percent of these enter into commerce 
            each year, for a total of around 20,000,000 objects, 
            consolidated into 1.5-2.5m transactions.

    <bullet> Most items sold at auction, in tag sales or house sales 
            enter into the marketplace one time each generation. 
            Assuming the items offered total around 1,500,000-2,500,000 
            each year and this number is replicated each year over 30 
            years, then the total objects entered into commerce in this 
            period would total between 30,000,000-50,000,000 objects.

    <bullet> Because these materials were incorporated into and used to 
            create rare and precious objects, the values of objects 
            that contain these materials are high. Many collectors 
            stand to be severely hurt by a ban or effective ban of 
            antique objects made of or containing these materials.

    <bullet> A conservative estimate is that 20,000,000-30,000,000 U.S. 
            citizens will be affected and suffer significant loss. More 
            will be affected by burdens of paperwork and regulatory 
            compliance. The loss of value, lost sales, and compliance 
            costs will certainly cost American citizens a total in the 
            tens of billions of dollars each year.

    <bullet> The less tangible cost will be cultural, stigmatizing huge 
            numbers of works of art, many that are unique cultural 
            treasures, because these incorporate a material that is 
            today viewed differently than in the past. This loss is 
            incalculable.

    <bullet> See Appendix A for an overview of the trade in fine and 
            decorative art objects containing antique ivory.

    Our goal is to facilitate a transparent, lawful market in ivory 
objects that are reliably certified as bona fide antiques, and block 
the illegal traffic in uncertified, poached materials that lack 
permits. We hope to continue our dialog with the Service and this 
subcommittee to facilitate this goal.

                                 ______
                                 

       Prepared Statement of Association of Art Museum Directors
                            i. introduction
    The Association of Art Museum Directors (the ``AAMD'') is a 
professional organization consisting of approximately 240 directors of 
major art museums in North America. The purpose of the AAMD is to 
support its members in increasing the contribution of art museums to 
society.
    The AAMD supports the efforts of the U.S. Fish and Wildlife Service 
(``FWS'') and the international community to address the threats to 
wildlife, including elephants, in a responsible and measured approach. 
Museums have a significant role to play, particularly as educators and 
communicators. At the same time, museums have a responsibility to 
protect, conserve, and display works of art that represent the 
creativity of the human spirit. That creativity expresses itself in 
many mediums and in the past, quite legitimately, through works that 
include elements of species that are now endangered or threatened.
    The implementation of a complete ban on the commercial trade in 
elephant ivory would deal a severe blow to museums in carrying out 
their primary responsibility of protecting, conserving, displaying and 
sharing works of art from all ages in all mediums. Art museums in the 
United States \1\ (individually, a ``U.S. Art Museum'') have a long 
history of complying with CITES and national laws designed to protect 
endangered and threatened species, such as the Endangered Species Act, 
which for decades have allowed U.S. Art Museums responsibly to acquire, 
exhibit and make direct loans of legally acquired artwork containing 
elements of elephant ivory, and other endangered or threatened species.
---------------------------------------------------------------------------
    \1\ The AAMD is not in a position to speak on behalf of all museums 
in the United States, but there does not appear to be a compelling 
reason not to make this exception applicable to any museum that meets 
the definition in 45 CFR Sec. 1180.2.
---------------------------------------------------------------------------
    The FWS Director's Order 210 (``Director's Order''), not only 
through its specific prohibitions, but also through the resulting 
confusion within the art world, has had a significant negative impact 
on the ability of U.S. Art Museums to carry out their mission. 
Specifically, two vital components of museum activities have been 
impacted; the ability of U.S. Art Museums to acquire new works and the 
ability of U.S. Art Museums to take part in exchanges of international 
exhibitions and direct loans with foreign lenders.
                          ii. areas of concern

    A. Acquisitions: A major concern for U.S. Art Museums is their 
ability to continue to acquire works of art that contain elements of 
raw or worked African elephant ivory whether by purchase, gift or 
bequest both domestically and abroad. Additions to an art museum's 
permanent collection are done through a rigorous process known as 
accessioning, whereby the museum not only acquires a work of art, but 
commits to its long-term care and conservation. Only rarely are works 
ever removed from the permanent collection. As a result, acquisition by 
a U.S. Art Museum effectively removes these items from the trade and 
allows them to be studied, researched and displayed for the benefit of 
the public, scholars and students. Unfortunately, actions by the FWS 
have limited the ability of U.S. Art Museums to accept donations and 
acquire works of art containing African elephant ivory.

      1. Donations: U.S. Art Museums acquire approximately 80 percent 
of their collection through generous donations that allow the American 
public to see works that many museums could never afford to purchase. 
Currently, there is confusion about whether an individual in lawful 
possession of a work of art containing raw or worked African elephant 
ivory may donate that work to a U.S. Art Museum and take a tax 
deduction or if this donation would constitute a post-February 25, 2014 
transfer for financial gain or profit. Under the Director's Order, if a 
work has been transferred for financial gain or profit after February 
25, 2014, there would be a bar to import of the item to the United 
States. As a result, such a work would be ineligible for loans outside 
the United States because the work could not be returned to the U.S. 
Art Museum.
    When a donor donates a work of art, often worth hundreds of 
thousands of dollars, and takes a tax deduction, even at the highest 
marginal bracket, the donor is still, on a net basis, giving away more 
than half of the fair market value of the donated work. The FWS should 
clarify that a donor may take a tax deduction for a gift to a U.S. Art 
Museum and that doing so does not create a post-February 25, 2014 gain 
event, provided that the donor does not receive any substantial benefit 
in exchange (as defined by the Internal Revenue Service).\2\
---------------------------------------------------------------------------
    \2\ As set out in Revenue Procedure 90-12, 1990-1 C.B. 471, and 
Revenue Procedure 92-49, 1992-1 C.B. 987.
---------------------------------------------------------------------------
    Similarly, if an object that was legally purchased after February 
25, 2014 were to be donated to a U.S. Art Museum, whether or not the 
donor takes a tax deduction, the museum that accepts such a gift could 
not loan the object to a foreign exhibition or make a direct loan to a 
foreign museum because the work was involved in a commercial 
transaction after February 25, 2014 and, therefore, could not be re-
imported to the United States to be returned to the U.S. Art Museum. 
The FWS should add an exception for purchases legally made after 
February 25, 2014 and donated to a U.S. Art Museum in addition to 
clarifying that the donation is not a financial gain or profit 
transaction occurring after February 25, 2014, as discussed above.

      2. Acquisitions Abroad: \3\ The new criteria limiting the ability 
of U.S. Art Museums to import items containing African elephant ivory 
lawfully acquired abroad are too narrow and severely limit the ability 
of museums to fulfill their mission. The Director's Order has made 
illegal the importation for commercial purposes of works of art 
containing ivory, most importantly for U.S. Art Museums including those 
containing ivory that is at least 100 years and often centuries old. As 
a result, while foreign markets continue to function with great works 
of art containing ivory sold on a regular basis, those works can no 
longer be acquired by U.S. Art Museums. Rather, they become part of 
foreign private or public collections and are lost to the American 
public. This is not an issue of recently acquired ivory. Art museums 
buy works of art--not ivory. They buy those works based on rigorous 
scholarship and research. When a museum determines to acquire, for 
example, a medieval reliquary carved from ivory or a Greek plaque of a 
warrior from 1400 B.C., the museum's identification of the object as 
medieval or as ancient Greek means, by definition, that the ivory it 
contains is centuries old and, therefore, presents no threat to the 
current plight of elephants. U.S. Art Museums should be permitted to 
continue to acquire these works--antiques as defined by statute--and to 
import them into the United States for the benefit of the public in the 
United States.
---------------------------------------------------------------------------
    \3\ This paper does not address the proposed ban on commercial 
sales in the United States as others will undoubtedly address that 
issue, but the AAMD does support a continued, carefully regulated 
United States market for verifiable antiques containing ivory.

    B. Exhibition and Direct Loans: The ability to move works of art 
containing ivory in and out of the United States in connection with 
exhibitions abroad and exhibitions in the United States and direct 
loans to and from foreign lenders and borrowers is essential to the 
mission of museums. The Director's Order, not only through its specific 
prohibitions, but also through the resulting confusion within the art 
world, has had a significant negative impact on the ability of U.S. Art 
Museums to create, organize, effectuate or participate in international 
exhibitions and to make or receive direct loans of objects containing 
African elephant ivory. Foreign lenders are reluctant to loan such 
works of art to U.S. Art Museums because of concern that the works will 
not be returned. U.S. Art Museums are concerned about lending to 
foreign venues for fear that the works will not be able to be re-
imported into the United States.\4\ There is no indication that any of 
this movement in the past has been illegal or inappropriate and, at 
least in the experience of AAMD, these loans have routinely been made 
in full compliance with CITES and other applicable laws. The procedures 
for these loans should not change from the rules and regulations 
applicable to such loans prior to February 25, 2014.
---------------------------------------------------------------------------
    \4\ While the terms re-exported and re-imported are often used, and 
are used in this paper, to describe a work of art that is going out of 
and coming back in to the United States or coming into and going back 
out of the United States, they are, under certain circumstances, a 
misnomer, as they imply previous movement across U.S. borders, whereas 
in fact, works made in the United States may never have been previously 
removed.
---------------------------------------------------------------------------
    In the context of the non-commercial import and export of a work of 
art containing African elephant ivory, the work should be permitted to 
be imported and exported and re-imported and re-exported, provided that 
a U.S. Art Museum certifies to the FWS that the work:

  1.  is more than 100 years old, based on certified documentation of 
            ownership, qualified appraisal, or other accepted methods 
            of proving an object's provenance;

  2.  is reasonably believed to include African elephant ivory;

  3.  has not been repaired or modified with any part of any such 
            species on or after December 28, 1973; and

  4.  was either legally imported prior to September 22, 1982 or 
            thereafter entered through a port designated for import of 
            ESA antiques or was created in the United States and never 
            imported.

                            iii. conclusion
    While AAMD supports the efforts of the FWS to curtail the illegal 
wildlife trade and protect endangered and threatened species, including 
the elephant, a complete ban on commercial trade in African elephant 
ivory would have dramatic and far reaching implications for the U.S. 
Art Museum community and severely impair museums' ability to fulfill 
their mission. Restricting the trade in illegally acquired African 
elephant ivory should not deny to the public of the present the work of 
artists of the past.
    The Director's Order addresses not only the FWS' plan to implement 
a ban on commercial trade in elephant ivory, but many additional limits 
on commercial and noncommercial activities involving elephant ivory, 
rhinoceros horn, and parts and products of other species listed under 
the Endangered Species Act. The AAMD has concerns about the numerous 
implications of the Director's Order and other actions proposed by the 
FWS which significantly impact the ability of museums to fulfill their 
mission, however, as this hearing is strictly on the plan to implement 
a ban on commercial trade in elephant ivory, the AAMD has not addressed 
its other concerns in this statement. The AAMD would be glad to provide 
a more comprehensive statement regarding its concerns with the FWS' 
actions generally to the extent it would be helpful to the Subcommittee 
on Fisheries, Wildlife, Oceans and Insular Affairs.

                                 ______
                                 

                 Prepared Statement of Christie's, Inc.
    Christie's appreciates the opportunity to submit comments to the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs.
    Christie's unequivocally condemns the slaughter of elephants for 
illegal elephant ivory. We understand that the slaughter of elephants 
today is at such a pace as to endanger seriously the entire species. We 
believe we have a role to play stopping the poaching of elephant ivory 
and the illegal trade in contemporary ivory works that results and we 
take our responsibilities in this respect very seriously.
    Our primary task is to ensure that Christie's does not sell any art 
containing illegal contemporary ivory. To this end, we do not ever sell 
``unworked'' tusks, regardless of their age. We do, however, sell 
antique objects of cultural and artistic importance, some of which 
include elephant ivory as a material. These antique works of art 
include items as diverse as 18th century furniture, objects of virtue, 
ancient sculpture, Japanese netsuke, Old Master paintings and frames, 
musical instruments as well as 18th century silverware. These historic 
works of art were crafted long ago when the elephant population was not 
under threat and are completely unrelated to current illegal elephant 
ivory trade, which is driven largely by the appetite for contemporary 
religious, tourist and trophy pieces, none of which are sold by 
Christie's.
    In selling these historic cultural and artistic objects which 
incorporate ivory, Christie's is careful to abide by all global, 
Federal and State laws designed to protect elephants and prevent the 
sale of illegally obtained contemporary ivory. In particular, we have 
obtained licenses from both the relevant Federal and NYS regulatory 
agencies to offer for sale antique items containing ivory. We also have 
implemented a comprehensive training program taught by the Legal 
Department to teach our specialists and administrators the legal 
requirements needed to import, export and sell antique objects 
containing ivory. This program is held several times annually to ensure 
that all relevant employees are fully knowledgeable about the legal 
requirements surrounding the sale of antique objects containing ivory.
    Even more important than our licensure or training programs is our 
rigorous vetting program through which any item believed possibly to 
contain ivory is subjected. Our goal is to ensure that no objects that 
pass through our hands are the product of poaching. In order to 
determine the age and type of ivory in items offered for sale, 
Christie's vets each item as follows: (a) Every item that may possibly 
contain ivory is examined by an expert to determine whether the 
material in question constitutes ivory, synthetic ivory, other animal 
bone, or some other material and to help ascertain it's age; (b) our 
specialists request and review provenance documentation to help 
pinpoint the age and country of origin of the object in question; (c) 
our specialists also examine the aesthetics of the object to ascertain 
an object's country of origin, date, and type of ivory, based on their 
knowledge of art history and trade routes over time; (d) our 
specialists also study each object to make sure that the normal wear 
and tear, coloring and other details commonly associate with an antique 
object of that type are present; and (e) finally, our specialists look 
for any indications of restoration and then work to ensure that any 
ivory used to restore the object also comply with international, 
Federal and State laws and regulation. In short, Christie's maintains 
stringent due diligence for all objects that may contain ivory in order 
to ensure that they fully comply with all legal requirements.
    By setting such a high standard of compliance, Christie's not only 
intends to provide a good example within the art market regarding the 
sale of antique ivory objects but also serves as an educational 
resource for its clients. As we undergo the vetting process, we use 
that opportunity not only to explain what we are doing to our clients 
but the reasons why we are have put this vetting process in place. By 
helping our clients to understand the complexity of and risks 
associated with ivory objects, we enable them to make smart choices not 
only with us but when purchasing from others. Educated clients in turn 
undercut the market support for illegal ivory.
    Despite Christie's multiple efforts to support the limited market 
for antique objects containing ivory against the contemporary trade in 
illegal ivory, some still seek a total ban on the sale of commercial 
ivory. We think that stance ignores how well Christie's and other 
reputable market players meet the strict legal standards associated 
with the sale of antique objects containing ivory. Additional 
enforcement efforts rather than a more extensive ban would curtail the 
illicit trade.
    Moreover, there are significant collateral costs to a total ban on 
the sale of ivory. Many pre-19th century objects of artistic and 
cultural importance contain ivory, and a large portion of those contain 
only a de minimis amount. For instance, many 18th century wood tables 
contain limited amounts of in-laid ivory, certain Old Master paintings 
are painted on ivory canvases, many silver tea sets have ivory handles, 
antique musical instruments have ivory parts and the list goes on. 
These items can make up sizable portions of the collections of many 
museums. Even if museums were exempted from compliance with a complete 
ban, the ban would render this part of their collections valueless 
because there would be no market in which they could sell or trade 
these items. Likewise, it would render valueless the pieces in the 
hands of private collectors.
    Some of those collectors will have spent millions of dollars to 
purchase their antique objects containing ivory. Others may have 
inherited them or purchased them for much less money. Some may want to 
sell their antique ivory objects in order to purchase other items while 
others may want to sell these items in order to fund their child's 
college education or renovate their home. In all cases, these private 
owners counted on their objects to retain value. However, a complete 
ban will eliminate any value to these items, no matter how distant in 
time from current poaching or minute in amount the ivory is. We believe 
a strict, safe, limited market can be continued for these antique 
objects containing ivory that will permit them to retain value for 
their good faith purchasers.

                                 ______
                                 

  Prepared Statement of Teresa M. Telecky, Ph.D., Director, Wildlife 
                Department, Humane Society International
    The Humane Society of the United States (The HSUS) and its global 
affiliate, Humane Society International (HSI), together constitute one 
of the largest animal protection organizations in the world. We thank 
Chairman Fleming and members of the committee for the opportunity to 
submit written testimony.
    Just a few weeks ago, one of Kenya's largest and most iconic 
elephants, Satao, was killed by poachers with a poisoned arrow. The 
tragic death of Satao sparked mourning, outrage and condemnation across 
the globe. Images of his mutilated face and body--his majestic, long 
tusks gone--send a powerful signal that we are racing against time to 
save elephants from the ongoing slaughter for their ivory. It also 
epitomizes the ruthless poaching fueled by worldwide demand, including 
here in the United States, for ivory trinkets, statutes, decorative 
items and trophies.
    The best way to stop the slaughter of elephants for their ivory and 
the march of the elephants toward extinction is to close ivory markets 
around the world, including by ending the import, export and domestic 
sale of elephant ivory in the United States.
    Therefore, The HSUS and HSI strongly support the Administration's 
efforts to protect elephants by reducing the significant ivory market 
in the United States, and we appreciate efforts by the U.S. Congress to 
highlight the elephant poaching crisis, including this hearing today 
and the February 26 hearing by Chairman of the House Committee on 
Foreign Affairs, Congressman Ed Royce, on ``International Wildlife 
Trafficking Threats to Conservation and National Security.'' The 
Chairman, committee members and witnesses highlighted a wide range of 
devastating impacts of wildlife trafficking, especially trafficking of 
ivory from recently poached elephants that go beyond the extinction of 
elephants and the cruelty inflicted on the poached animals. The impacts 
also include threats to the national security of the United States.
    The Obama administration's Executive Order on Combatting Wildlife 
Trafficking issued last year, and the release of the National Strategy 
for Combatting Wildlife Trafficking earlier this year, demonstrated the 
U.S's firm resolve to address the international poaching crisis that is 
affecting not only elephants but rhinos, tigers and a host of other 
species. We strongly commend the U.S. Fish and Wildlife Service (USFWS) 
for following up on the Order and Strategy by issuing a series of 
Administrative Actions ratcheting down on elephant ivory import, export 
and interstate commerce, to the extent allowed by law. In particular, 
HSUS and HSI strongly support the prohibition on importation of all 
African elephant ivory for commercial purposes, including antique 
ivory, and the moratorium on the importation of sport-hunted trophies 
of elephants from Tanzania and Zimbabwe. We are looking forward to 
reviewing proposed rules currently being developed by the USFWS and we 
urge the Service to promulgate the strongest regulations possible under 
law, that do not contain loopholes or exemptions that would create 
enforcement challenges.
    The actions of the Administration are steps in the right direction, 
as the U.S. has a crucial role to play in stemming the illegal ivory 
trade. It might surprise many that the United States is the second 
largest market for ivory after China. According to a 2008 report,\1\ 
``Ivory Markets in the USA,'' a total of 24,004 ivory articles were 
found for sale in 654 outlets in 16 towns and cities visited in the 
United States. New York had by far the most ivory for sale, followed by 
California and Hawaii. New York City had at least 11,376 items for 
sale. Hawaii had 23 outlets selling at least 1,867 items.
---------------------------------------------------------------------------
    \1\ Martin, E., and D. Stiles. 2008. Ivory Markets in the USA. Care 
for the Wild International and Save the Elephants. West Sussex, UK and 
London, UK. http://www.savetheelephants.org/files/pdf/publications/
2008%20Martin%20&%20Stiles%20Ivory%20Markets%20in%20the%20USA.pdf.

---------------------------------------------------------------------------
    The authors found that:

    <bullet> Nearly one-third of the items appeared to have been 
            crafted after 1989 when the international ban on the ivory 
            trade under the Convention on International Trade in 
            Endangered Species (CITES) took effect, making their 
            importation illegal.

    <bullet> Inspection of pieces (mainly of Chinese origin) in shops 
            suggested that many figures, netsukes, and jewelry items 
            were recently made. Some African items also looked recently 
            made.

    <bullet> In Hawaii, close to 90 percent of the items for sale were 
            found to be of unknown or illegal origins.

    <bullet> Over 40,000 worked ivory items, including personal 
            effects, were legally imported to the United States from 
            1995-2007. Previous studies found that ivory workshops in 
            Asia and Africa produce fake antiques. Thus, even the 
            imported worked ivory into the United States that seems old 
            could be recently made.

    <bullet> The U.S. legally imported some 3,530 tusks and about 2,400 
            raw ivory pieces between 1990 and 2005 and some of this 
            material was illegally sold into the commercial market.

    <bullet> Federal and State authorities rarely inspect shops or 
            Internet sites for illegal raw or worked ivory.

    <bullet> Some contraband gets past Customs and there are no 
            effective internal ivory transport and retail market 
            controls.

    Research conducted by The HSUS and HSI in June and July 2013 on 
Hawaii's and New York's online ivory marketplaces found them vibrant 
yet unregulated. For instance, the Web site that sold the largest 
number of ivory products in Hawaii, over 800 items in total, attempts 
to demonstrate the legality of the ivory by posting on the Web site 
ivory import permits from the 1980s that do not contain information 
needed to match items on the list to items that are offered for sale. 
Several other vendors state that their ivory was legally imported but 
do not provide documentation matching the ivory they offer for sale. 
None of the 1,153 ivory articles offered for sale online in Hawaii can 
be judged with confidence to be legal.

    An earlier investigation \2\ in 2002 by The HSUS of ivory markets 
in the United States found:
---------------------------------------------------------------------------
    \2\ Humane Society of the United States. 2002. An Investigation of 
Ivory Markets in the United States. The Humane Society of the United 
States. Washington, DC, USA. http://www.humanesociety.org/assets/pdfs/
Ivory_Trade_Report.pdf.

    <bullet> Ivory sellers who offed to provide fraudulent documents to 
            investigators indicating that elephant ivory was mammoth 
            ivory, that new ivory was old ivory, or that recently 
---------------------------------------------------------------------------
            imported ivory was imported a long time ago.

    <bullet> These markets are supplied, at least in part, by illegal 
            imports from Hong Kong of ivory objects carved in China.

    <bullet> Those in the ivory business offered tips about how best to 
            smuggle ivory into the United States, including placing 
            small ivory items in their luggage in a certain manner to 
            avoid detection by x-ray machines and importing through 
            U.S. ports, such as Alaska, where there are few USFWS 
            inspectors.

    <bullet> There is no real disincentive to smuggle ivory into the 
            United States. Although large-scale smugglers can be fined 
            and imprisoned, small-scale smugglers are usually only 
            required to forfeit the ivory objects.

    While the United States has laws and regulations pertaining to 
ivory trade, they are confusing and riddled with loopholes exploited by 
those involved in the international and domestic ivory trade. This also 
leads to consumer confusion about what is legal and what is not. The 
result is a flourishing, poorly regulated domestic ivory market in the 
United States.
    In the United States, the Convention on International Trade in 
Endangered Species (CITES) is implemented through the Endangered 
Species Act (ESA). CITES bans the international commercial trade in 
both Asian and African elephant ivory. However, there are exceptions to 
this rule. Generally, any ivory possessed prior to July 1, 1975 is 
``pre-Convention'' and can be traded internationally for commercial 
purposes. Sport-hunted elephant trophies can be exported and imported 
but not for commercial purposes. It is important to note that CITES 
does not address domestic trade in ivory.
    In addition to CITES rules governing international trade, the ESA 
also has its own rules governing international trade as well as 
domestic interstate trade. Under the ESA, the Asian elephant is listed 
as ``endangered'' and the African elephant as ``threatened''. This 
means that, in general, it is illegal to import, export or sell Asian 
elephant ivory between States. However, African elephant ivory legally 
imported to the United States prior to January 20, 1990 (when the 1989 
CITES ivory trade ban became effective) may be sold on the domestic 
market. Furthermore, import, export and interstate sale of ivory that 
is ``antique'' (more than 100 years old) are allowed.
    The other law of relevance is the African Elephant Conservation 
Act, which banned the importation of raw and worked African elephant 
ivory on June 9, 1989. The ban does not include sport-hunted elephant 
trophies.
    Finally, some jurisdictions within the United States have laws that 
can affect the legality of the sale of ivory. California banned the 
sale of ivory, although this law appears not to be enforced. Recently, 
both New York and New Jersey banned the sale of ivory although in New 
York there are some very limited exceptions.
    To summarize, it is legal to import, export and sell on the U.S. 
domestic market certain types of elephant ivory depending on the age of 
the ivory, the date the ivory was acquired or imported, and whether the 
ivory is from an Asian or African elephant. These variables are 
difficult for the public to comprehend and challenging for authorities 
to implement and enforce.
    The difficulty of enforcing these laws cannot be overlooked. Ivory 
is a term that can refer to the tusks of Asian or African elephants, or 
the tusks of extinct mammoths (dug up from the frozen tundra of Siberia 
or Alaska), or the teeth of hippos, walrus, sperm whale, narwhal, 
warthog or boar. Only experts, using special equipment, can sometimes 
tell the difference between Asian and African elephant tusks, or 
between elephant and mammoth tusks. Even then, it is not always 
possible to tell the difference between ivories of these closely 
related species. The fact that ivory carvings can be made from other 
mammals, including extinct ones that are not regulated by international 
or domestic laws, offers an easy means for smugglers to circumvent 
legal requirements by simply claiming elephant ivory carvings to be 
those of another species.
    An example of the enforcement problems surrounding ivory is 
illustrated when the USFWS seized ivory carvings imported from Hong 
Kong. The subject was importing 56 ivory carvings (mainly ``netsukes'' 
which are small ivory carvings of animals or people) in his luggage, 
and told the wildlife inspector that they were all mammoth ivory and 
did not require a permit. He had receipts from a Hong Kong shop where 
he had purchased the items, stating that they were ``mammoth'' tusk 
carvings. The carvings were sent to the USFW's National Fish and 
Wildlife Forensics Laboratory to be tested. Out of the 55 carvings 
tested, 10 were made from ivory from African or Asian elephants (these 
items were seized), while another 6 carvings were made from extinct 
elephant ivory from mammoths or mastodons. However, the majority of the 
carvings could not be determined with accuracy to be either elephant 
ivory or mammoth ivory. In fact, 29 carvings were made from ``elephant 
ivory of an indeterminate source.'' Furthermore, 10 of the carvings 
were found to be ``carvings made from dentine (ivory) of an 
indeterminate source,'' presumably meaning that it could not be 
determined even from which type of the animal the ivory originated. If 
one of the most advanced wildlife forensics laboratories in the world 
has difficulty distinguishing between ivories, and thus between 
potentially legal or illegal items, it is almost impossible to expect 
the average ivory buyer to be able to do so.
    Numerous high-profile and large-scale seizures during the last few 
years show that our market is a fertile ground for smuggled ivory. 
According to Interpol's rule of thumb only 10 percent of contraband is 
seized. This suggests that for every major seizure of illegal ivory in 
the United States, many more illegal items were smuggled into the 
United States. Once these illegal ivory items cross our borders, there 
is no effective control mechanism to stop their circulation in the 
markets.

    Below are a few examples of recent significant ivory seizures:

    <bullet> In 2012, an investigation by the Manhattan District 
            Attorney, the USFWS and New York State Department of 
            Environmental Conservations agents led to the confiscation 
            in Manhattan's diamond district of roughly a ton of ivory 
            trinkets which filled 72 banker boxes, representing 
            approximately tusks of 100 slaughtered elephants. The 
            seized goods were worth 2 million dollars.\3\
---------------------------------------------------------------------------
    \3\ http://www.manhattanda.com/press-release/da-vance-announces-
guilty-pleas-dealers-selling-illegal-elephant-ivory.

    <bullet> An ongoing investigation since 2012 by the USFWS, dubbed 
            ``Operation Crash'',\4\ in collaboration with the 
            Department of Justice has made 17 arrests and 9 convictions 
            concerning wildlife crimes. One conviction involves a 
            transnational criminal network that smuggled rhino horns 
            and elephant ivory collectively worth more than 4.5 million 
            dollars. Ringleader of the network, Zhifei Li, was 
            sentenced to 70 months in prison on May 27, 2014.
---------------------------------------------------------------------------
    \4\ http://www.fws.gov/home/feature/2014/3-31-14-Operation-Crash-
Overview.pdf.

    <bullet> On June 4, 2014, a Philadelphia art dealer, Victor Gordon, 
            who pleaded guilty for smuggling African elephant ivory, 
            was sentenced to 30 months in prison.\5\ One ton of 
            elephant ivory was seized from Gordon's Philadelphia store 
            in April 2009. According to a National Geographic article, 
            Gordon instructed his West African co-conspirator, ``how to 
            alter receipts and to dye the material to make it appear 
            old.'' \6\
---------------------------------------------------------------------------
    \5\ http://www.justice.gov/usao/nye/pr/June14/2014June4.php.
    \6\ http://webcache.googleusercontent.com/search?q=cache:AuA8-
_Dd25sJ:news.nationalgeographic.com/news/2014/06/140604-victor-gordon-
ivory-trafficking-philadelphia-operation-scratchoff-usf-ws-forest-
elephants-gabon/+&cd=1&hl=en&ct=clnk&gl=us.

    <bullet> The USFWS' ``Operation Scratchoff'', which targets 
            smuggling of elephant ivory from Africa to the United 
            States, discovered various ways traffickers use to avoid 
            detection. For instance, ``shipments were accompanied by 
            fraudulent shipping and customs documents identifying their 
            contents as African wooden handicrafts or wooden statues. 
            The ivory itself was painted to look like wood; covered 
            with clay; or hidden inside wooden handicrafts, such as 
            traditional African musical instruments.'' \7\
---------------------------------------------------------------------------
    \7\ ``Eye on Ivory, Investigations & Inspections'', USFWS, http://
www.fws.gov/le/pdf/Elephant-Ivory-Investigations.pdf.

    The lack of effective controls along the trade routes, combined 
with the difficulty of distinguishing legally acquired ivory from ivory 
of recently poached elephants, are exploited by unscrupulous dealers to 
launder illicit ivory into our marketplace. The USFWS has remarked that 
``criminal investigations and anti-smuggling efforts have clearly shown 
that legal ivory trade can serve as a cover for illegal trade.'' \8\ In 
a January hearing of the New York State Assembly Committee on 
Environmental Conservation, assistant director of the Office of Law 
Enforcement at USFWS, William Woody testified that law enforcement 
agents ``struggle to identify the age of the ivory they find for sale, 
which determines its legality.'' \9\
---------------------------------------------------------------------------
    \8\ http://www.fws.gov/international/pdf/factsheet-ivory-crush-
qa.pdf.
    \9\ http://www.crainsnewyork.com/article/20140116/
PROFESSIONAL_SERVICES/140119890/citys-illegal-ivory-trade-threatens-
elephants.
---------------------------------------------------------------------------
    The only logical conclusion, therefore, is that there must be a ban 
on ivory sales in the United States if we are to eliminate our role in 
the poaching and possible near-term extinction of elephants. While we 
strongly support the Administration's efforts to ratchet down on the 
ivory trade, existing laws do not go far enough. We urge Congress to 
urgently establish a ban, without exceptions, on import, export, and 
domestic sale of elephant ivory.
    As the Nation's largest animal protection organization, The HSUS' 
concern regarding the ivory trade is first and foremost the cruelty of 
poaching inflicted on the elephants. Because one-third of the tusk is 
attached to the skull of the animal, poachers brutally hack off the 
face of the elephant to obtain the tusk. Poachers kill entire elephant 
families, including its youngest members as long as they have tusks. 
Elephant babies, who do not have tusks that have emerged, are left as 
orphans unable to fend for themselves and often die if not rescued by 
humans in time.
    Poachers are getting increasingly ruthless. In Zimbabwe in July 
last year, poachers poisoned water holes with cyanide and killed more 
than 300 elephants. Other animals, such as lions, vultures, and so on, 
also died from drinking from the same water sources or from feeding on 
the poisoned elephant carcasses. In March 2013, 89 elephants, including 
33 pregnant females and 15 calves, were slaughtered in Chad.\10\ A year 
before in February 2012, poachers killed nearly 450 elephants in 
Cameroon for their ivory.\11\ The Central African region bears the 
brunt of the poaching crisis. It is estimated that the population of 
forest elephants in Central Africa declined by 62 percent between 2002 
and 2011.\12\ The African elephant population has declined by an 
estimated 50 percent over the last 40 years with approximately 470,000 
animals left in 38 range countries. The Asian elephant is endangered; 
its population has also been reduced by half compared to the beginning 
of the 20th century with less than 50,000 left in 13 range countries. 
Data indicates that in 2012 at least 35,000 African elephants were 
killed to supply the global ivory trade, close to 100 every day. If the 
poaching rate persists, African elephants could be extinct in a few 
decades.
---------------------------------------------------------------------------
    \10\ ``Poachers Behind March Slaughter of 89 Elephants Captured in 
Chad'', ICCF. http://www.iccfoundation.us/
index.php?option=com_content&view=article&id=494:poacher-behind-march-
slaughter-of-89-elephants-captured-in-chad&catid=72:2013&Itemid=373.
    \11\ http://news.discovery.com/animals/elephant-poaching-cameroon-
120229.htm.
    \12\ ``Devastating Decline of Forest Elephants in Central Africa'', 
PLOS One, March 4, 2013.
---------------------------------------------------------------------------
    There is also a human toll behind elephant poaching. During the 
last decade, over a thousand park rangers across the world have been 
killed by poachers while on duty. The loss of park rangers has a ripple 
effect across local communities because they are mothers, fathers, 
aunts and uncles; they are bread winners; and they are community 
members. These wildlife rangers are underpaid, outnumbered and 
outgunned by poachers. As the Secretary General of CITES pointed out, 
``the massive scale of poaching reflects a new trend that we are 
detecting across many range states, where well-armed poachers with 
sophisticated weapons decimate elephant populations, often with 
impunity.'' \13\ Lives of wildlife rangers are increasingly put in 
danger literally every time, if not every day, when they fulfill their 
job duties of protecting elephants from poachers.
---------------------------------------------------------------------------
    \13\ http://www.cites.org/eng/news/pr/2012/
20120228_elephant_cameroon.php.
---------------------------------------------------------------------------
    Ivory is dubbed ``white gold'' because of the lucrative profits 
ivory sales generate. A pound of raw ivory costs $1,300 today.\14\ Some 
say that carved ivory can sell for $60,000 for 10 kilograms.\15\ The 
handsome financial rewards of the ivory trade have attracted Africa-
based armed militia and terrorist groups. Ivory has become the new 
``blood diamond'' in Africa that provides an economic bloodline to 
these criminal and terrorist syndicates. According to an investigation 
by the Elephant Action League (EAL), Somalia-based Al-Qaeda affiliate, 
Al Shabaab, trades up to three tons of ivory every month and derives a 
substantial amount of its funding from the ivory trade. EAL estimated 
that profits from the ivory trade support about 40 percent of Al-
Shabaab's operations.\16\ Indicated by the International Criminal court 
for war crimes and crimes against humanity, Joseph Kony and his Lord's 
Resistance Army have turned to elephant poaching to sustain their 
nefarious activities. The Washington-based anti-genocide organization, 
Enough Project, in a report released in June 2013, ``Kony's Ivory,'' 
found that ``LRA leader Joseph Kony has ordered his fighters to bring 
him elephant tusks. Eyewitnesses report that the LRA trades tusks for 
much-needed resources such as food, weapons, and ammunition, and other 
supplies.'' \17\ Lured by money, Sudan's Darfur genocide perpetrator, 
Janjaweed, have been engaged in elephant poaching. Riding on horseback, 
and heavily armed, members of Janjaweed repeatedly crossed borders into 
protected parks in Cameroon and Chad to butcher elephants for their 
tusks. Profits generated by the ivory trade are much like the blood or 
conflict diamond that funded insurgency and prolonged the protracted 
conflicts in the African content. It is also easy money and 
untraceable.
---------------------------------------------------------------------------
    \14\ http://www.nytimes.com/2013/03/02/world/asia/an-illicit-trail-
of-african-ivory-to-
china.html?adxnnl=1&pagewanted=2&adxnnlx=1382464974-wCE0VI1v2lNFACwuMh5K
4A.
    \15\ ``Elephant slaughter escalates as illegal ivory market 
thrives'', by Animal Welfare Institute, https://awionline.org/awi-
quarterly/2013-winter/elephant-slaughter-escalates-illegal-ivory-
market-thrives.
    \16\ http://www.independent.co.uk/voices/campaigns/elephant-
campaign/elephant-campaign-how-africas-white-gold-funds-the-alshabaab-
militants-9102862.html.
    \17\ ``Kony's Ivory'', Enough Project, June 3, 2013, http://
www.enoughproject.org/reports/konys-ivory-how-elephant-poaching-congo-
helps-support-lords-resistance-army.
---------------------------------------------------------------------------
    The involvement of African rebel groups and Al-Qaeda terrorist 
network in elephant poaching and the illegal ivory trade elevated the 
stakes as well as the urgency. Stemming the ivory trade is no longer 
just about saving the elephants, but also about stopping the cash-flow 
from the ivory trade for these groups, and protecting U.S. national 
security interests in the region.
    The United States alone cannot solve the elephant poaching crisis. 
Many argue that the problem lies with China or other Asian countries 
but we cannot deny the fact that the United States has a sizable ivory 
market that contributes to the flourishing of the illegal ivory trade. 
The world is looking to the United States for leadership, to fight 
these terrorists and save the elephants. But to have credible 
leadership, we must first address our own significant market for ivory. 
Efforts reducing our demand for ivory, such as the impending USFWS 
regulations to prohibit domestic ivory trade, are a clear and bold 
demonstration of our commitment to combating the illegal ivory trade. 
By taking a further step, by Congress enacting a ban on import, export 
and sale of elephant ivory, we could ensure that illegal ivory, ivory 
from newly poached elephants that funds terrorism and destabilizes 
Africa, will have no place in our country.
    U.S. actions matter and our leadership on this issue is paramount. 
Soon after the United States crushed six tons of seized ivory in Denver 
last year, China, France, Belgium and Hong Kong destroyed their seized 
ivory stockpiles, thereby sending the message far and wide that buying 
ivory is equivalent to elephant death and the world's governments are 
not going to stand for it. International coordination and solidarity 
from the international community, especially from major ivory consuming 
countries, is imperative to stop the demand and thus to stop the 
killings. Our diplomatic efforts in convincing major consuming 
countries, such as China, to reduce their ivory demand would be most 
effective and credible if we can tell them unequivocally that the 
United States has a ban on the sale of ivory, and that we urge them to 
join us and do the same.
    We have talked the talk and now we must walk the walk. The threat 
of extinction facing elephants waits for no one while poachers and 
traffickers continue their slaughter and despicable activities 
unabated. The time for a total ban on the U.S. domestic ivory markets 
is now.
    I thank you for your time and consideration of this matter that is 
crucial to the survival of the elephants, to the stability of the 
African continent, and to the national security interests of the United 
States.

                                 ______
                                 

    Prepared Statement of Jesse Rosen, President and CEO, League of 
American Orchestras and Bruce Ridge, Chair, International Conference of 
                      Symphony and Opera Musicians
    The League of American Orchestras, founded in 1942, and chartered 
by Congress in 1962, is the national arts service organization of 
approximately 800 orchestras across the United States--all 501(c)(3) 
nonprofit charitable organizations--representing thousands of 
administrators and musicians working daily to deliver orchestral music 
to audiences worldwide. The International Conference of Symphony and 
Opera Musicians (ICSOM), founded in 1962, represents over 4,000 
musicians from 52 major symphony orchestras throughout the United 
States, with the mission to promote a better and more rewarding 
livelihood for the skilled orchestral performer and to enrich the 
cultural life of our society. Our organizations are also active 
participants in the wider international cultural exchange community, 
partnering with The Recording Academy, Chamber Music America, the 
American Federation of Violin and Bow Makers, the National Association 
of Music Merchants, and the Performing Arts Alliance.
    Every day, thousands of U.S. professional musicians, students, and 
private individuals use musical instruments in public performances, 
private events, educational pursuits, and for personal enjoyment. 
Musicians who make their living performing with these tools of the 
trade live in cities and towns, large and small, in every corner of the 
United States, and contribute to the economic strength, civic vitality, 
and educational vibrancy of the communities in which they live. 
International artists from beyond our country's borders are frequently 
invited to perform for U.S. audiences--alongside U.S. musicians--
multiplying the diverse array of offerings available to listeners. In 
ongoing international cultural and diplomatic endeavors, U.S. 
orchestras, small ensembles, and soloists tour internationally to 
perform for audiences across the globe. In the course of their careers, 
working musicians nationwide make a considerable investment in the 
highest quality musical instruments available to them and count on 
their instruments to enable them to attain their musical skills, 
advance their careers, and supply extraordinary musical experiences to 
audiences.
    A great many musicians, particularly string players, perform with 
legally crafted and legally purchased musical instruments that contain 
small amounts of elephant ivory. Ivory may be found in an array of 
string, wind, percussion, and brass instruments. The policies recently 
adopted and soon to be proposed by the U.S. Fish and Wildlife Service 
regarding the travel and sales rules for musical instruments will have 
a profound impact on the cultural vibrancy and economic activity of 
musicians in the United States, and will significantly alter the 
environment for international cultural activity.
    We appreciate this opportunity to go on record related to the 
impact of recent proposals to ban commercial activity related to 
African elephant ivory. In addition to concerns related to anticipated 
upcoming regulatory action to limit future sales of existing musical 
instruments, we offer comments here regarding the immediate impact of 
new policies now in place that limit international travel with these 
musical instruments.
    The music community is fully committed to the goals of wildlife 
conservation and combatting illegal trade in ivory and other protected 
species. Following the issuance of the February 25, 2014 U.S. Fish and 
Wildlife Service Director's Order 210, we have been informing musicians 
of the threat to African elephant populations, assembling the only 
existing comprehensive guidance for musicians attempting to navigate 
the new rules for travel with instruments, and responding to numerous 
daily inquiries and reports from individuals and groups--in the United 
States and across the globe--attempting to travel with existing, 
legally crafted musical instruments that contain small amounts of 
African elephant ivory and other protected species material. While we 
are grateful for the expansion of instruments eligible for travel under 
the revised Director's Order issued on May 15, serious barriers to 
international cultural activities remain.
    A reliable system has not been built to support travel with 
Convention on International Trade in Endangered Species (CITES) 
permits. Musicians that conclude a permit is required encounter an 
array of obstacles when attempting to simply travel to use the tools of 
their trade.

    <bullet> Clear, species-specific public guidance regarding the many 
            layers of CITES and domestic requirements in the United 
            States and internationally simply is not available in a 
            format easily accessible to musicians. Musicians and 
            cultural institutions are struggling to assess and document 
            the endangered species content of musical instruments, 
            which were legally crafted decades, and even centuries ago. 
            Because these instruments were purchased, not for their 
            protected species material, but for their unique artistic 
            qualities, and considering a great many of them were 
            crafted before CITES came into existence, very few 
            instruments were accompanied by species-specific 
            documentation at the time of purchase. In most cases, it is 
            impossible for musicians to produce original records 
            confirming the material used in instruments, leaving them 
            to pursue appraisals and expert affidavits, with no 
            assurance as to whether such documentation will be 
            acceptable. Some musicians unable to answer the threshold 
            question as to whether the content of their musical 
            instruments includes protected species material are 
            obtaining permits out of necessary caution, raising their 
            own burden, and raising the impact on permitting and 
            enforcement authorities. While the U.S. Fish and Wildlife 
            Service has publicly stated that it can use visual 
            inspection to distinguish African elephant ivory from 
            other, non-protected material found in musical instrument 
            parts as small as the tip of a bow, musicians have a high 
            degree of fear that even contemporary instruments made with 
            non-protected material are currently at risk of 
            confiscation.

    <bullet> The required U.S. permit application procedures are 
            entirely new and not clearly communicated to musicians. 
            Over the past 4 months, the U.S. Fish and Wildlife Service 
            has been very responsive to the small number of initial 
            applications for 3-year musical instrument passports, and 
            has provided exemplary public service, responding to 
            inquiries quickly and comprehensively. However, the 
            application forms for passports were not complete, leaving 
            orchestra applicants, for instance, to retrofit existing 
            forms intended for use by ``circuses and traveling animal 
            exhibitions.'' A new form for applying for 3-year permits 
            has only just been completed in the United States, and the 
            process for using it is as-yet untested. It is unclear 
            whether U.S. Fish and Wildlife will have the capacity to 
            process the potential volume of permit applications it 
            would receive under a fully implemented permit system.

    <bullet> The extremely limited designated U.S. port locations and 
            hours of operations available for inspecting and 
            credentialing permits are insufficient to support the 
            volume of travel undertaken by professional musicians, 
            students, and others participating in an array of 
            international cultural activity. At present, only nine U.S. 
            ports have inspectors available to process permits for 
            musical instruments that contain both plant and animal 
            material (e.g., stringed instruments containing Brazilian 
            rosewood and ivory). Lengthy port inspection procedures on 
            departure and arrival, for individuals and groups simply 
            transporting musical instruments for use internationally, 
            are an immense barrier to compliance with the underlying 
            permit procedures. Musicians also require formal assurances 
            that their fragile instruments will not be in harm's way 
            when undergoing inspection and that instruments will be 
            safe from damage or destruction if erroneously confiscated.

    <bullet> International CITES authorities are not sufficiently 
            prepared to issue multi-year musical instrument passports, 
            and the process for recognizing U.S.-issued documents is 
            uncertain. European CITES countries, for instance are 
            taking the time required to fully consider the impact on 
            their stakeholders before implementing a musical instrument 
            passport process. U.S.-based musicians attempting to use 
            U.S.-issued permits internationally are encountering 
            confusion and delays that disrupt time-sensitive travel.

    <bullet> In addition to the inconsistencies related to 
            international CITES permit procedures, the lack of clarity 
            regarding the added U.S. domestic rules for traveling with 
            endangered species material presents insurmountable 
            obstacles for many international artists attempting to 
            travel to perform for audiences in the U.S. and alongside 
            U.S. musicians. Well-meaning foreign musicians attempting 
            to comply with permit requirements have had their 
            instruments detained because they unintentionally missed a 
            step in the process or were unaware of the additional U.S. 
            domestic rules for travel with instruments.

    Our organizations will continue to inform musicians of the rules 
for travel with musical instruments, and we will partner with our 
colleagues in the instrument-making community to help musicians better 
identify and document the material contained in their musical 
instruments. We believe that conservation goals and international 
cultural activity will be more fully supported when the United States 
takes the following additional actions:

    <bullet> Immediately issue clearer guidance tailored for musicians 
            preparing to come into compliance with existing CITES and 
            domestic permitting rules and enforcement procedures.

    <bullet> Fully coordinate implementation and enforcement procedures 
            among the Transportation Security Administration, 
            Department of Homeland Security, U.S. Department of 
            Agriculture, and U.S. Fish and Wildlife Service to 
            streamline treatment of musical instruments.

    <bullet> Communicate with international CITES authorities to pursue 
            harmonizing U.S. musical instrument passport procedures 
            with international permitting and enforcement protocols 
            wherever possible.

    <bullet> Remove the limitation on entering or re-entering the 
            United States with musical instruments purchased after 
            February 25, 2014, which contain African elephant ivory.

    <bullet> Implement a ``personal effects'' exemption that would 
            allow legally crafted and legally purchased musical 
            instruments to be transported through non-designated ports 
            without undergoing lengthy inspection procedures. This 
            policy change would restore opportunities for international 
            cultural exchange and enable extremely limited enforcement 
            resources to be redirected to genuine threats to wildlife 
            conservation.

    The U.S. Fish and Wildlife Service's ``Ivory Ban Questions and 
Answers'' includes the following statement (emphasis added).

        Why is the Service allowing limited imports for non-commercial 
        purposes to continue, but restricting the commercial 
        importation of antiques made from African elephant ivory?

        The United States is a market for objects made from African 
        elephant ivory, which drives increasing poaching of wild 
        elephants. The Service has determined that it must take every 
        administrative and regulatory action to cut off import of raw 
        and worked elephant ivory where that importation is for 
        commercial purposes. Allowing imports for law enforcement and 
        scientific purposes is in line with the Service's mission to 
        help conserve African elephants and stop trafficking in African 
        elephant ivory. The other limited exceptions allow movement 
        into the United States of legally possessed African elephant 
        ivory that predates the listing under the Convention on the 
        International Trade in Endangered Species of Wild Fauna and 
        Flora (CITES) for personal use as part of a household move or 
        inheritance, musical performances, and traveling exhibitions. 
        Each of these types of import must meet specific criteria. And 
        unlike the commercial antiques trade, none of these types of 
        imports has been used by smugglers to ``cover'' trafficking in 
        newly poached ivory.

    Given that the use of musical instruments does not contribute to 
trafficking in poached African elephant ivory, we firmly believe that 
policies that protect the future use of musical instruments should be 
expanded. We submit the attached document, Protecting the Use and 
Ensuring the Preservation of Musical Instruments, as supporting 
material, which includes comprehensive facts about the limited, 
historic use of ivory in musical instruments. Notably, the document 
demonstrates that there is not a demand for new ivory in the use of 
crafting new musical instruments.
    In partnership with the broader music community, we will be engaged 
in ongoing opportunities for public comment, and will participate in 
future Federal rulemaking procedures related to travel with musical 
instruments--and domestic sales of instruments--to seek opportunities 
for future generations of musicians to have access to existing, 
culturally significant instruments of unparalleled quality. We thank 
the committee for this opportunity to seek urgently needed near-term 
solutions that meet conservation goals while supporting international 
cultural activity.

Attachment

Protecting the Use and Ensuring the Preservation of Musical Instruments
    The undersigned organizations urge Congress and the Administration 
to take the following steps to protect international and domestic 
cultural activity while supporting essential endangered species 
conservation efforts:

    <bullet> Restore opportunities for international travel with 
            legally crafted, legally purchased musical instruments that 
            contain endangered species material.
    <bullet> Maintain the legal sale of existing, legally crafted 
            musical instruments that contain small amounts of African 
            elephant ivory.
    <bullet> Support African elephant conservation by focusing U.S. 
            enforcement resources on efforts that genuinely combat 
            illegal trade and trafficking in African elephant ivory, 
            rather than banning travel with and sale of legally crafted 
            and legally purchased musical instruments.

    As part of a broader effort to combat illegal trade in African 
elephant ivory, the U.S. Fish and Wildlife Service (USFWS) has ordered 
sweeping enforcement procedures related to the Endangered Species Act 
and the African Elephant Conservation Act and is drafting new 
regulatory limitations. Thousands of musicians use musical instruments 
containing small amounts of African elephant ivory that were legally 
crafted decades ago and legally purchased--not for their ivory content, 
but for their impeccable sound and artistic value. The new USFWS 
measures have severe consequences on international and domestic 
cultural activity.
    On February 25, 2014, new strict limits immediately took effect for 
international travel with instruments that contain African elephant 
ivory, preventing travel with instruments that were legally purchased 
after 1973. In response to urgent appeals from the music community, 
USFWS revised Director's Order 210 on May 15, 2014, saying that 
noncommercial movement of musical instruments ``do(es) not contribute 
to poaching or illegal trade.'' However, the revised Order still 
prohibits traveling musicians from returning to the United States with 
instruments legally purchased after February 25, 2014 and heightens 
implementation of international permit requirements that are nearly 
impossible to navigate.
    USFWS will next issue proposed regulations that will also 
effectively ban domestic sales of existing, legally crafted instruments 
that contain African elephant ivory.
    The new and forthcoming rules will unfairly render many musical 
instruments that were legally made, bought, and sold impossible to use 
internationally, illegal to resell, and effectively valueless in their 
existing condition. The majority of these instruments are irreplaceable 
culturally and artistically, and they are essential to a musician's 
sound. Ivory has generally not been used for decades to create new 
musical instruments. USFWS has not explained how the commercial sale of 
existing musical instruments contributes to elephant poaching and the 
illegal trafficking in ivory.
    The music community is fully committed to the goals of wildlife 
conservation and combatting illegal trade in ivory and other protected 
species. We are asking the Administration to use its regulatory 
authority and enforcement discretion to craft a reasonable solution 
that protects the domestic and international use of musicians' tools of 
their trade, and preserves historical and legally made instruments now 
and for future generations to come.
        Alternate ROOTS               National Alliance for Musical 
                                      Theatre
        American Federation of 
        Musicians of the United 
        States and Canada             National Association of Music 
                                      Merchants
        American Federation of 
        Violin and Bow Makers         National Performance Network
        Association of Performing 
        Arts Presenters               OPERA America
        Chamber Music America         Performing Arts Alliance
        Dance/USA                     The Recording Academy
        Fractured Atlas               Theatre Communications Group
        International Conference of 
        Symphony and Opera 
        Musicians (ICSOM)             Violin Society of America
        League of American 
        Orchestras

Facts about Ivory in Musical Instruments
    Many musicians perform with instruments crafted decades, and even 
centuries, ago that contain small amounts of African elephant ivory. 
Most frequently found in bows and acoustic guitars, ivory may also be 
found in other string instruments, wind instruments, keyboards, brass, 
and certain percussion instruments.
    There is today no market for unworked or raw African elephant ivory 
within the musical community. Bow makers and other artisans stopped 
using elephant ivory decades ago. The trade and use of musical 
instruments is not a source of illegal trafficking in elephant ivory.
    The use and re-sale of instruments does not increase demand for 
ivory products or drive ivory value. Instruments are not purchased for 
their ivory content, but rather for their impeccable overall quality 
and tonal attributes that enable their owners to perform to their very 
best abilities. Unlike many other commodities, musical instruments are 
hand crafted and unique; no two are exactly alike in the way that they 
feel and sound. This helps account for their high cultural and 
historical value.
    Ivory material is not easily replaced without risk of irreparable 
damage to the instruments. Attempts at re-tipping bows, for instance, 
can result in the loss of historical bow wood and the bow's unique 
balance and artistic quality. The art and tradition of instrument 
making, part of our cultural heritage, will be undermined if antique 
and pre-act ivory are removed from bow tips and guitars in a blanket 
and indiscriminate manner to comply with the new and forthcoming rules. 
The preservation of these historical instruments is essential to the 
study of the art of crafting instruments, now and in the future.
    These instruments are essential tools of the trade. Because 
instruments are hand-crafted and uniquely matched to the performance 
needs of musicians, they are very often quite expensive and represent 
substantial personal investments for musicians. Most musicians do not 
have suitable substitute instruments for use in place of instruments 
that contain ivory.
    The use, preservation, and sale of instruments are inextricably 
bound. The vast majority of musicians, artisans, and dealers are 
individuals or small businesses. Museums, institutions, and other 
collectors, public and private, will no longer be able to acquire 
instruments, impoverishing U.S. collections, which culturally enrich 
the public. All depend on the ability to transfer instruments. If 
instruments cannot be sold, music as we know it will not survive and 
musical collections, which provide the basis for learning, will be 
frozen in place.
Facts about Travel with Instruments
    Under the original February 25, 2014 Director's Order 210 
[Administrative Actions to Strengthen U.S. Trade Controls for Elephant 
Ivory, Rhinoceros Horn, and Parts and Products of Other Species Listed 
Under the Endangered Species Act (ESA)], instruments containing African 
elephant ivory were not allowed to enter the U.S. if the instruments 
had been purchased after February 26, 1976. In response to urgent 
appeals from the music community, USFWS amended Director's Order 210 on 
May 5, 2014 to slightly ease the restrictions on musical instruments.
    Under the latest version of the rules, a musical instrument that 
contains African elephant ivory may only be brought into the U.S. if 
the instrument meets all of the following criteria: the African 
elephant ivory contained in the instrument was legally acquired prior 
to February 26, 1976; the instrument has not subsequently been 
transferred from one person to another person for financial gain or 
profit since February 25, 2014; the person or group traveling with the 
instrument qualifies for a CITES (the Convention on International Trade 
in Endangered Species of Wild Fauna and Flora) musical instrument 
certificate; and the musical instrument containing African elephant 
ivory is accompanied by a valid CITES musical instrument certificate or 
an equivalent CITES document. These limitations apply to musical 
instruments that contain either antique or newer ivory.
    While widening the scope of instruments eligible for travel across 
U.S. borders is a step in the right direction, many serious questions 
and concerns remain. It is unclear at this time what documentation will 
be sufficient to prove that an instrument was purchased prior to 
February 25, 2014 or that the ivory in the instrument was acquired 
prior to February 26, 1976. Instruments legally purchased after early 
2014 that contain African elephant ivory will be banned from entering 
the U.S., even if the instruments are entering the U.S. purely for 
personal or professional use.
    A reliable system has not been built for obtaining CITES passports 
and navigating complicated enforcement procedures at U.S. ports of 
entry and departure, and across the globe. The costs, uncertainty, and 
risks associated with attempting to travel with permits are a barrier 
to international cultural activity. While rules the requiring permits 
for travel with instruments have existed for nearly 40 years, they have 
never been widely implemented, and a complete structure has not been 
put into place to facilitate compliance.
    The permit process, customs enforcement procedures, and rules for 
compliance with the ban are opaque and incomplete, creating a high risk 
of erroneous seizure and forfeiture of musical instruments. African 
elephant ivory used in older instruments can be very difficult to 
distinguish from mammoth or non-endangered ivory types. The CITES 
musical instrument passport concept is new and the permit procedures 
are not yet fully developed. Only nine U.S. ports are available for 
travel with instruments that contain ivory and protected wood species. 
The use of U.S. permits in foreign countries is untested. Innocent 
mistakes at Customs will result in the disproportionate penalty of 
forfeiture. Immediate solutions are needed to avoid erroneous, 
potentially destructive, and professionally crippling seizures of 
instruments.
    These travel limitations put the livelihood and international 
reputation of musicians at risk. International artists perform for U.S. 
audiences, U.S. musicians tour internationally to perform across the 
globe, and individual amateur and professional musicians frequently 
travel abroad to perform as soloists and smaller ensemble members. 
International performances have been planned years and months in 
advance of the new travel rules. It is simply impossible for musicians 
to fulfill their engagements without their instruments.
    Current and emerging rules related to travel with instruments that 
contain endangered species material are not clearly or effectively 
communicated by U.S. authorities to the vastly diverse communities of 
U.S. and foreign artists that travel across borders. There is no one-
stop federal resource to communicate new orders and rules, leaving 
musicians not institutionally connected at risk of becoming unfairly 
ensnared in customs enforcement. Tens of thousands of musicians with 
unique cultural backgrounds residing in the United States, and those 
who live in diverse American communities and perform as professional 
and semiprofessional musicians, run a great risk of never hearing about 
new rules. The unmet need for mass communication and distribution of 
new rules, along with instructions particularly in non-English 
languages, presents a particular threat to artists in these diverse 
communities.
    Instrument and bow makers who travel internationally with 
instruments simply to exhibit them or for educational purposes, and 
without intention to sell them, could find their instruments and bows 
subject to seizure simply because they otherwise engage in commercial 
activity by profession.
    If musical instruments are confiscated and/or destroyed, 
significant financial hardship may ensue. Such seizures could very well 
spell the end of employment and make it impossible for musicians to 
participate in opportunities within artistic cultural centers, clubs, 
and educational training organizations.
    Conservation goals will be better supported by focusing U.S. 
enforcement resources on the root of the elephant ivory trafficking 
problem, not on legal international cultural activity undertaken by 
musicians. Members of the Advisory Council on Wildlife Trafficking 
publicly stated on March 20, 2014 their intent to focus on the ``bad 
guys'' fueling and fulfilling demand for new ivory products. Musicians, 
bow makers and restorers, and institutions and private collectors of 
historical and legally made bows are not contributing in any way to 
increased demand for illegally traded ivory.
Facts about the Production, Sale, and Re-Sale of Instruments Containing 
        Ivory
    The music community is not seeking to craft new instruments using 
African elephant ivory. After the 1976 CITES listing of African 
elephant ivory, and the 1989 implementation of the African Elephant 
Conservation Act, U.S. bow makers and restorers, guitar makers, and 
piano manufacturers in the United States stopped using elephant ivory 
and turned to mammoth ivory and other non-endangered material as a 
plentiful substitute.
    These instruments were legally crafted decades ago. Until the CITES 
listing of African elephant ivory in 1976, hundreds of thousands of 
handmade bows, acoustic guitars, and other instruments produced over 
many decades, and even centuries, were made with small amounts of 
ivory. For example, violin bows often contain a thin ivory tip, with 
dimensions of approximately .6 millimeters x 10 millimeters x 23 
millimeters. An average bow tip weighed .2-.25 grams and required 1 
gram of unfinished ivory. In 1970, when trade in elephant ivory was 
legal, an average elephant tusk weighed 26 pounds, meaning that ivory 
from one elephant could have produced over 23,000 bow tips. The head of 
the bow was designed around the physical properties of the ivory tip, 
which gives the delicate bow head protection, strength, and proper 
balance. Many acoustic guitars used small amounts of ivory as saddles 
or nuts, typically amounting to no more than 1 percent of the 
instrument's weight.
    Existing instruments that were legally crafted, sold, and purchased 
should remain in use. Although elephant ivory has not been used in the 
making of new instruments in decades, tens of thousands of instruments 
containing small amounts of elephant ivory are today being played and 
carried throughout the United States and the world by professional, 
amateur, and student musicians. These instruments should be available 
to future generations of musicians as well as instrument makers, who 
look to historical examples as essential educational references for 
their work.
    It will be extremely difficult for many vintage instruments to be 
designated as antiques eligible for an exemption under the proposed 
rules. In order to qualify as an antique eligible for import, export, 
and interstate sale, an instrument must not only be 100 years old, but 
must have entered the U.S. via one of 13 authorized ports, even though 
such designated ports did not exist until 1982. Even if the port-entry 
requirement is relaxed in the proposed regulations, other problems 
remain. Instruments that have been repaired or modified with any 
endangered species since 1973 are also not eligible for designation as 
antiques. Otherwise qualifying antiques also will not be eligible for 
exemption if purchased after February 25, 1976. Non-antique vintage 
instruments would be banned from import and domestic sale under the 
USFWS proposal.

                                                              July 2014

                                 ______
                                 

                 Prepared Statement of Sotheby's, Inc.
    Mr. Chairman and members of the subcommittee, we appreciate the 
opportunity to submit testimony for the record of the Oversight Hearing 
on U.S. Fish and Wildlife Service Plans to Implement a Ban on 
Commercial Trade in Elephant Ivory.
    Sotheby's has been uniting collectors with world-class works of art 
since 1744. We are the oldest company listed on the New York Stock 
Exchange (BID) and committed to conducting our business with the 
highest level of integrity and transparency and to supporting an 
ethical art market. Sotheby's was the first participant in the art 
market to establish a global Compliance & Business Integrity 
Department, which oversees the development and maintenance of programs 
and policies designed to facilitate Sotheby's ongoing compliance with 
all applicable laws, rules and regulations governing our worldwide 
operations, including those related to endangered species.
    Sotheby's deplores the illegal slaughter of elephants and other 
endangered wildlife and has long supported various conservation 
organizations. For example, Sotheby's CEO hosted the premiere screening 
of The National Geographic Special, ``Battle for the Elephants,'' and 
we have played a significant role in The Big Egg Hunt events in both 
London and New York, which benefited an organization dedicated to 
protecting Asian elephants. We strongly support conservation efforts, 
including further restrictions on the illegal trade in objects made 
with illegally sourced ivory. We succor the President's initiative to 
end wildlife trafficking to curb poaching of elephants and stand ready 
to assist with policy education. We support efforts to ensure that only 
reputable, transparent and responsible sellers are allowed to sell 
ivory objects, efforts to increase scrutiny of individual objects being 
offered and increased penalties for those who illegally sell ivory. 
However, we are concerned that the U.S. Fish and Wildlife Director's 
Order 210 could eliminate the sale and import of antique ivory, which 
would negatively impact the art market across the country including 
Sotheby's, museums and other art purchasers.
    There are long-existing Federal and State laws that contain 
significant restrictions on the importation, exportation and sale of 
ivory. Compliance with these laws requires multiple layers of licensing 
and substantial background research in order to determine whether the 
ivory may legally enter the United States and/or whether it may be 
legally sold. Auction houses like Sotheby's are noted for the quality 
and thoroughness of the information we provide to determine the 
legitimacy of the ivory we seek to sell. It is this track record and 
transparency of auction houses and other compliant actors that ensures 
that only legitimate antiques remain in commerce, in the hands of 
private collectors, museums, and the public at large. We cannot 
understate the cultural value and education that antiques provide 
society and we urge the U.S. Fish & Wildlife Service (``USFWS'') to 
produce a predictable, common-sense regulatory regime that will ensure 
generations of Americans can enjoy antiques from all regions of the 
world. Specifically, we fear that Order 210's prohibition of antique 
imports with ivory serves no policy purpose and worse impedes the 
United States' ability to lead by example with a rigorous commercial 
standard for cultural objects containing wildlife . Furthermore, 
isolating the United States from cultural treasures based on present 
day atrocities does nothing to remedy the problem. We urge the 
President and stand by him to educate the world on the importance of 
protecting today's wildlife, but banning antique sales does not 
accomplish our shared objective.
    There has long been a statutory exemption in the United States 
Endangered Species Act (``ESA'') to allow the import, export and sale 
of antique items containing endangered material, i.e. those over 100 
years old. There is an economically significant and important trade in 
antique art and artifacts (including furniture, sculpture, cultural 
objects and musical instruments) that were legally created more than 
100 years ago that have been collected, exhibited and traded throughout 
history. The exemption is important to museums, art collectors, and 
legitimate art market participants, and is in the public interest. 
Museums, for example, need to retain the ability to acquire and/or 
transfer art work, created long ago, that contains endangered material 
so they may refresh and curate their collections; similarly, 
individuals who legally collected or inherited artifacts made long ago 
with plant and animal material should not be deprived of the highly 
regulated legitimate marketplace that currently exists, and which 
facilitates movement of art to and from public and private collections.
    Director's Order 210, dated February 25, 2014 implemented several 
new enforcement policies that could effectively eliminate the antique 
exemption in the ESA and not allow the sale or import of antique ivory 
in the United States. For example, the Order re-interpreted the 
definition of ``antique'' to require that the piece had been imported 
through designated ports after such ports were designated in 1982. 
After hearing from the antiques trade and other interested parties, 
USFWS conceded that the new requirements were unworkable and issued an 
Amended Director's Order on May 15, 2014. That Amendment removes the 
import requirement for items that are already in the United States. We 
applaud the USFWS for being responsive, however other concerns remain.
    First, although the amended Director's Order appears to take steps 
toward allowing the continued market for antique items containing 
ivory, the language of the Order and associated documents is vague and 
thus leaves room for wide latitude in how USFWS will enforce it and 
future regulations. For example, between February and May (the issuance 
of the first and amended Director's Orders), although the sale and 
export of antique African elephant ivory was legally permitted, the 
USFWS effectively blocked it by requiring proof as to the type of ivory 
that was impossible to obtain. As Director Ashe continues to refer to 
their desire for a ``near total ban'' on the trade of ivory, it remains 
to be seen what type of substantiation the Service will require to 
prove the age of an object or the species it contains.
    Second, the Director's Order changes the requirements for 
establishing the age of property containing endangered material, 
calling into question whether USFWS will accept affidavits from 
Sotheby's specialists--some of the foremost in their respective fields. 
By requiring that a qualified appraisal be given by a person who is not 
an employee of ``any business that is a party to the transaction,'' the 
Director's Order appears to say that USFWS will not accept the expert 
opinions of Sotheby's highly skilled specialists concerning the age of 
the objects consigned to Sotheby's for sale simply because Sotheby's is 
involved in the transaction. While ``independent'' experts make sense 
in some contexts, it makes no sense here, as there is no one better 
placed to make this expert determination than the very people with 
extensive commercial experience, knowledge and expertise with the 
particular property--whether furniture, silver, musical instruments or 
American revolutionary items. Moreover, Sotheby's and our specialists' 
interests in correctly identifying the age of an object are perfectly 
aligned with USFWS's interest in doing the same. If an object is not an 
antique as determined by a Sotheby's specialist, it is effectively a 
modern reproduction. Since Sotheby's guarantees the objects that we 
sell, any mistake as to the age of an object could have serious 
financial and reputational repercussions. Thus, we urge the Director to 
focus efforts on vetting the qualifications and integrity of the 
experts and not on their independence, given that it is not realistic 
to require experienced sellers and buyers to obtain appraisals from 
their competitors. We also note that opining as to the age of an object 
is different from identifying the plant or animal material. Sotheby's 
typically relies on outside animal specialists with appropriate 
training and expertise in species identification to identify the animal 
material. The regulation should require the right expert to make the 
various identifications and age determinations, and Director's Order 
210 does not do so.
    Third, Director's Order 210 bans commercial imports of items 
containing African elephant ivory, regardless of their age. We are not 
aware of any documented or substantiated connection between the trade 
in antiques crafted with ivory before it was protected and present day 
poaching and illegal trafficking. In contrast, it is certain that 
banning the import of antique objects crafted with ivory will bring 
real, measurable harm to U.S. collectors and institutions. Since there 
is a clear and statutorily mandated exception for antique items, that 
exception should apply also to the import of such objects when done 
according to law.
    Finally, there were many important objects, including highly 
designed, artistic furniture (such as pieces created at Emile-Jacques 
Ruhlmann), created in the 1920s-1940s using African elephant ivory 
legally acquired well before the elephants were protected under CITES 
and the ESA. The trade in such objects has long been permitted under 
the Special Rules for African elephant ivory. However, the new 
documents issued by the USFWS reflect their intent to amend the Special 
Rule to eliminate the ability to trade in these very old and important 
objects.
    The USFWS proposal produces significant unintended consequences and 
criminalizes important cultural commerce activities that benefit many 
audiences. We urge this committee to ensure that the antique exemption 
be preserved and to exercise careful oversight of the Director's Order 
and the upcoming regulatory process related to ivory policies.

                                 ______
                                 

       Prepared Statement of Linda Karst Stone, Kerrville, Texas
    My name is Linda Karst Stone. I am proud to be an American 
Scrimshaw artist, self-employed for over 37 years, pay my taxes, vote 
and earning a living. I love my work. I have never hunted an elephant 
and the one thing that everyone here can agree on is that the 
magnificent elephants need to be protected. I owe my very livelihood to 
the ivory producing animals of our planet.
    I have worked with ivory all my life, most of it recycled. I do not 
expect everyone to like what I do but I also represent 37 years of 
collectors who found what I create worthy of their investments. Not one 
piece would have the paperwork this ban would require, changing my 
life's work into worthless objects. I was not lazy in keeping paperwork 
or giving it. None was required which is why the USFWS plans to shift 
the burden of proof onto the seller. They know none exists and that 
enforcement would be overwhelming so they intimidate lawful collectors 
with the RICO, travel and LACY acts, wire taps and Felony charges.
    Some believe all ivory is blood ivory. That is a lie. Poachers are 
talking over because some people oppose a legal ivory market that would 
take away the poachers incentive and the terrorist's money. If legal 
ivory was available it would find a market. We are handing out billions 
of dollars to impose our views onto Africa. We are giving charity to 
governments that does not reach its target. We all know this is 
complicated, over 35 range countries, some of them that cannot even 
protect their children and are not concerned with poachers. Others have 
more elephants than the land can support.
    This law:

    <bullet> Is an Overwhelming ``taking'' of legal personal property, 
            without just compensation protected by the constitution 
            with a stated mission to send a message to poachers who 
            will not care
    <bullet> Ignores the supreme court 1st amendment protecting 
            ``viewpoint Neutrality''
    <bullet> Reverses the long standing premise of American law that we 
            are ``innocent until proven guilty''
    <bullet> Unlawfully rules over intrastate commerce
    <bullet> Arrogantly forces our views onto Africa without their 
            input and over their objections
    <bullet> Creates an impossible enforcement issue that will affect 
            millions of dollars of taxable income
    <bullet> Spends tax dollars for an advertising campaign to make 
            ivory owners so unpopular that they will turn in their 
            valuable heirlooms to an agency that decided to put 6 tons 
            of ivory through a rock crusher. Money that could have 
            raise millions to fight poachers and encourage conservation
    <bullet> Ignores that fact that elephants do die of old age and 
            that ivory could fund the elephants salvation
    <bullet> Uses misleading numbers of poached animals as confirmed in 
            the MIKE report, 20,000 not 35,000; http://www.cites.org/
            eng/
            elephant_poaching_and_ivory_smuggling_figures_for_2013_relea
            sed
    <bullet> Ignores current prosecutions made under existing laws that 
            do need to be better enforced
    <bullet> Bans ivory that has already been banned for import and 
            export for over 25 years
    <bullet> Most importantly it will not save one living elephant from 
            being killed in Africa

    There are success stories in Africa like South Africa, Tanzania and 
Zimbabwe. They have the answers, they live with the elephants. We 
should listen to them or we will watch them stop investing in the herds 
and extinction will be eminent. In a TED talk, Conservationist John 
Kasaona from Namibia explained how they turned poachers into 
protectors. He said, ``Conservation will fail if it doesn't work to 
improve the life of local communities.'' The solution lies in their 
hands. This law would impede all their best efforts.

    Please stop this unworkable assault of American rights.

                                 ______
                                 

                                  Richard L. Huber,
                                        New York, NY 10024,
                                                     June 20, 2014.

Hon. John Fleming, Chairman,
House Subcommittee on Indian and Alaska Native Affairs,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Oversight Hearing on ``The U.S. Fish and Wildlife Service's Plan to 
        Implement a Ban on the Commercial Trade in Elephant Ivory,'' 
        June 24, 2014--Comments Submitted for the Record

    Dear Chairman Fleming:

    I am writing you in reference to the U.S. Fish and Wildlife Service 
(FWS) Plan to Implement a Ban on Commercial Trade in Elephant Ivory in 
the United States, contained in Director's Order 210, dated February 
25, 2014, articulated in the meeting of the Advisory Council on 
Wildlife Trafficking held March 20, 2014 and contained in the revised 
Director's Order 210, dated May 15, 2014.

    My wife and I are collectors of Iberian Colonial art and have been 
so for some 40 years. A subset of the objects included in this category 
is Hispano-Philippine & Indo-Portuguese pieces of ivory religious 
sculpture. By definition, all are pre-1820 (the effective end of both 
the Spanish and Portuguese colonial periods). We have frequently lent 
objects from our collection to leading U.S. museums. The Philadelphia 
Museum of Art held an exhibition of our collection last year on which a 
beautiful catalogue was published. Exhibit A attached hereto contains a 
representative sample of photographs.

    We have imported at least a dozen such objects over the last few 
years. We have always chosen to import them legally and have had much 
experience with FWS in the process. This has almost always been a 
painful experience, between obtaining the CITES documents from the 
designated authority in the exporting country to having virtually every 
single piece physically examined by an FWS inspector. This frequently 
includes the retention of brokers or facilitators which obviously makes 
the whole process more expensive. Indeed, the topic of FWS enforcement 
is a hot subject for discussion amongst major museum directors, since 
they all have their own ``horror stories'' about some 16th century 
Japanese scroll that happens to have small ivory finials on the scroll 
rod, or a 15th century Spanish chest with inlays, or a medieval German 
chest with ivory drawer knobs.

    No one I know disputes in the slightest the importance of enforcing 
the Endangered Species Act. As a matter of fact, my wife and I are 
strong supporters of the Act; she is a trustee of the Nature 
Conservancy, my father spent his whole professional career with the 
U.S. Forest Service and was head of wildlife management for the Forest 
Service in the Pacific Northwest when I was in high school. But I and 
many others question the way FWS does the job, particularly in an 
environment where government at all levels is being encouraged to 
operate more intelligently and efficiently.

    Does the FWS really think that the Metropolitan Museum of Art, or 
the Brooklyn Museum, or the Philadelphia Museum of Art (we happen to 
know the directors and many curators at all three institutions), would 
ever remotely consider violating the Endangered Species Act? To me, 
this is inconceivable--and a similar level of trust should be afforded 
to private collectors who have a proven record of legal compliance and 
commitment to both the protection of endangered species and the 
preservation of genuine antiques. I am a retired Chairman and CEO of a 
Fortune 100 company and I am proud of the business reputation that I 
built over 50 years. As mentioned above, we have imported many objects 
which have required FWS approval over the years. Perhaps the time of 
FWS inspectors could be more efficiently employed elsewhere in the vast 
scope of regulation which the Agency is tasked with enforcing.

    To completely ban, de facto, as FWS does, the importation of 
antique ivory items to ``enhance'' the enforcement of the Endangered 
Species Act would be similar to banning driving because a small 
percentage of drivers get behind the wheel when they are intoxicated. 
Sure, banning all driving would stop drunk driving, but at a huge 
cost--and of course would never be contemplated. However, this is 
exactly what the FWS ban on ivory imports would do.

    I believe that we have skilled people in enforcement functions 
instead of machines so that they can think. It is really not that hard 
to distinguish between genuine CITES documents and falsified ones; even 
an untrained eye can certainly distinguish a 17th century Indo-
Portuguese religious carving from a recently fabricated Chinese ivory 
trinket. Exhibit B attached hereto shows the obvious differences.

    Once again I say mindless bureaucracy! I am of the strong opinion 
that our government's elephant conservation efforts would be better 
served by taking much of the budget currently used for domestic 
enforcement and sending it to Kenya, Tanzania and Uganda to hire more 
game wardens. More aggressively pursuing the real source of the problem 
would be considerably more effective than playing valueless games with 
American citizens who would struggle under the FWS proposed rule to 
meet documentary requirements that are impossible to comply with.

    Let's face it: the United States is an extremely low risk country 
for violations of the Act. There is no tradition of semi-mystical 
reverence for ivory or ivory carvings as is the case in China, India 
and several other Asian countries. These countries are the recipients 
of the vast majority of smuggled raw ivory, and I doubt if the U.S. 
represents even 1 percent of the total.

    Instead of wasting time, energy and money harassing owners of 
legitimate antique ivory by imposing impossible documentary demands, I 
would suggest making all reputable museums self-enforcing agents of the 
FWS. Simple documents could be filed for each antique export or import, 
which could be periodically audited by FWS, if that were deemed 
necessary. I would go further and deputize such institutions to do the 
same for registered collectors of antique ivory objects.

    I would commend to this subcommittee, indeed to Congress itself 
that the FWS can continue to restrict and prohibit the illegal trade of 
African elephant ivory in the United States with methods that encourage 
the cooperation of all reputable actors. Better cooperation among 
responsible parties will have substantial results--far more so than 
trying to effect a complete ban on antique cultural articles by 
criminalizing the trade in the United States with new documentation 
requirements that are inordinately expensive and impossible to comply 
with by even the most well-meaning and law-abiding antiques collector.

            Sincerely,

                                          Richard L. Huber.
                               EXHIBIT A
         Three Centuries of Iberian Colonial Art (c. 1500-1800)
[GRAPHIC] [TIFF OMITTED] T8502.023

.eps[GRAPHIC] [TIFF OMITTED] T8502.024

.eps[GRAPHIC] [TIFF OMITTED] T8502.025

.eps[GRAPHIC] [TIFF OMITTED] T8502.026

                             .epsEXHIBIT B
[GRAPHIC] [TIFF OMITTED] T8502.027


                                 .eps__
                                 

                   Center for Conservation Biology,
                                  University of Washington,
                                                       Seattle, WA.

Hon. Peter DeFazio, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman DeFazio:

    Thank you for your participation in the House Natural Resources 
Committee hearing on the African elephant ivory trade held on June 24, 
2014.
    As you know, the hearing was introduced by first citing a recent 
report from the Convention on Trade in Endangered Species of Wild Fauna 
and Flora (CITES) Secretariat on the number of elephants killed last 
year in the illegal trade. That was followed by a description of a 
report I prepared for INTERPOL on poaching hot spots across Africa. 
Given how my INTERPOL report was described at the hearing, I am 
concerned that its findings were misunderstood and that this 
misunderstanding could jeopardize acceptance of the report and its 
recommendations for action. A copy of the report is attached for your 
information.
    The INTERPOL report describes the results and implications of an 
investigation my laboratory has been conducting since 2004. We use DNA 
analyses of large seizures (* 0.5 tons) of African elephant ivory made 
in Africa and Asia to determine the locations of the major poaching hot 
spots in Africa. These analyses can reliably determine the origin of a 
large seizure to within 300 km (180 mi) of its true origin. Our work is 
conducted in collaboration with INTERPOL, the United Nations Office on 
Drugs and Crime (UNODC), CITES Secretariat, World Customs Organization 
and World Bank. We also collaborate with United States Fish and 
Wildlife Service (USFWS) Office of Law Enforcement, and that 
collaboration recently led to the successful conviction in Togo of the 
largest ivory dealer in West Africa.
    Our findings to date suggest that the majority of large ivory 
seizures are derived from a fairly small number of locations across 
Africa. If this pattern persists, it offers an effective strategy to 
thwart this Transnational Organized Crime (TOC) that is consistent with 
the UNODC 2010 report: The globalization of crime: A transnational 
organized crime threat assessment. As the UNODC report argues, the 
elaborate networks that enable TOCs to operate make TOCs particularly 
difficult to contain. Thus, the most effective way to combat TOCs is to 
make their networks inoperative. Our project aims to provide the 
intelligence needed to achieve that by identifying and directing 
concerted law enforcement efforts to the major poaching hot spots in 
Africa. We hope that such law enforcement efforts will stop the major 
flows of ivory from entering these networks and thus choke this illegal 
trade at its source. This may also be the most effective way to 
urgently stop the unsustainable slaughter of elephants that continues 
across Africa.
    By definition, major poaching hot spots supply many tons of ivory 
into the illegal trade repeatedly across years. Such hot spots can only 
provide that much ivory if they contain many thousands of live 
elephants and present a relatively low risk of apprehension for 
poachers. Few remaining places in Africa can still provide that. We 
believe that is why the same major hot spots keep appearing repeatedly 
in our analyses, and this also makes them slow to change. These same 
features are what makes the above mentioned law enforcement strategy 
feasible. The locations of recent large ivory seizures provide some of 
the best predictors of areas that continue to experience the heaviest 
poaching, and the small number of these major hot spots is what makes 
their containment possible.
    I was very proud to hear my report used to introduce the June 24 
hearing. However, the following statement gave me concern that its 
important findings were misunderstood: ``Based on a report to INTERPOL 
by Dr. Samuel Wasser of the University of Washington, who performs the 
DNA testing on seized ivory, we now know that poachers are killing over 
75 percent of all elephants in about three locations in Africa.''
    My report did indicate that the majority of large ivory seizures 
analyzed to date came from a small number of locations across Africa 
and recommended that these poaching hot spots be immediately targeted 
by law enforcement. However, in no way did the report suggest that 75 
percent of all elephants were being killed in just 2-3 locations across 
Africa. To the contrary, the report emphasizes that a primary objective 
of our ivory tracking program is to analyze a more representative 
number of ivory seizures so we can be confident that we have identified 
all current major ivory poaching hot spots in Africa. Once identified, 
the majority of those hot spots would also need to be targeted to 
successfully choke this TOC at its source. If all goes as planned, we 
hope to have all of the current major poaching hot spots identified 
within the next 12 months.
    I am concerned that the apparent misunderstanding of my INTERPOL 
report at the June 24 congressional hearing, oversimplified one of the 
few effective strategies to significantly thwart this TOC. While it is 
vital to target the major poaching hot spots prescribed in that report, 
those few areas are certainly not the only ones that need to be 
targeted to stop the slaughter of elephants. Finally, of all the hot 
spots our analyses have identified to date, the worst hot spot by far 
is the game reserves in southern Tanzania. I did not hear that point 
brought out at the hearing, and I wanted to be sure you were aware of 
it, as it provides strong justification for the USFWS decision to 
prohibit importations of ivory trophies from that country.
    Thank you for your understanding and attention to this matter.

            Sincerely,

                                   Samuel K. Wasser, Ph.D.,

                         Director, Center for Conservation Biology,
                                  Professor, Department of Biology,
                             Endowed Chair in Conservation Biology.

Attachment

      Report to INTERPOL on DNA Assignment of Large Ivory Seizures

by Samuel K Wasser, Ph.D., Center for Conservation Biology, University 
                   of Washington, Seattle, Washington

Executive Summary
    Since 2005, the Center for Conservation Biology has been 
collaborating with INTERPOL to identify the major elephant poaching 
hotspots across Africa. We developed a DNA reference map for forest and 
savanna elephants across the continent and use this to assign origin to 
genotyped ivory seizures that constitute large seizures of * 0.5 tons. 
The report clearly identifies two current major hotspots. The most 
significant hotspot is in SE Tanzania, including the Selous Game 
Reserve, with recent infusion into Ruaha National Park, along with the 
adjacent Nyasa Game Reserve in northern Mozambique. The second current 
hotspot is in the TRIDOM area of Central Africa, especially in NE Gabon 
and NW Congo-Brazzaville. A third hotspot was also identified in Zambia 
but no longer appears to be current. Our work continues to search for 
additional hotspots. However, there is little doubt that the two areas 
we identified as the most important current hotspots warrant immediate 
law enforcement action aimed at shutting these areas down.
Introduction
    Transnational organized crime (TOC) has placed considerable 
challenges on law enforcement agencies, partly due to the complexities 
of the networks that enable them to operate. Over the past decade, 
wildlife crime has emerged as among the top four or five TOCs, partly 
due to their high profit margin and low risk or apprehension and/or 
prosecution. The problem is compounded by wildlife being a relatively 
non-renewable resource, where losses can be associated with 
considerable, long-lasting environmental damage. The illegal elephant 
ivory trade has rapidly escalated in this environment, particularly 
since 2006. Insurgents have capitalized on this trade to support their 
operations and line their pockets, further compounding the problem. We 
may now be losing more than 10 percent of Africa's elephant population 
annually. Given the key roles that elephants play in the ecosystem, 
this has created a considerable urgency to stop the killing.
    Fortunately, the Center for Conservation Biology, working largely 
in collaboration with INTERPOL, has developed intelligence-gathering 
methods aimed at identifying the major African elephant poaching 
hotspots across Africa, with the ultimate goal of targeting those areas 
for future law enforcement. This approach may also serve as a model for 
attacking TOCs in general.
    We developed unique genetic methods to determine the origin of 
large ivory seizures. These origin assignments are accurate to within 
260 km of the seizure's actual origin, from anywhere in Africa. At 
least two lines of evidence strongly suggest that the origin 
assignments of large ivory seizures (* 0.5 tons) are highly reliable 
predictors of the most significant current poaching hotspots. (1) The 
vast majority of ivory in single seizures tends to come from the same 
localized area(s), poached repeatedly over time. Thus, poachers appear 
to be targeting the same locations to meet their quota. (2) The same 
locations keep recurring over and over again as the places of origin of 
major ivory seizures, suggesting that the number of major hotspots may 
be far more limited than previously thought. This makes sense since, by 
necessity, hotspots are areas that have enough elephants to supply 
multiple tons of ivory repeatedly over multiple years, where the risk 
of apprehension to poachers is also low. Relatively few remaining 
elephant populations have those characteristics, limiting both the 
number of hotspots and the speed with which hotspots change over time. 
These combined features make the origin of large ivory seizures highly 
predictive of future poaching hotspots, offering a powerful forensic 
tool for targeting the highest risk areas for future poaching. Properly 
applied, this information could focus law enforcement on the most 
significant poaching hotspots across Africa, potentially choking the 
networks, at their source. This approach could provide a highly 
efficient, cost-effective way to tackle TOC, simultaneously serving as 
a model for attacking TOCs in general.
    The figures below illustrate these points. They show the origins of 
13 large ivory seizures analyzed since the inception of our program, 11 
of which were conducted in direct collaboration with INTERPOL. They 
reveal three major hotspots: The first major hotspot we identified was 
in Zambia (Figure 1), but may no longer be current. The second and by 
far the biggest current hotspot is in the Selous Game Reserve and 
neighboring parks in SE Tanzania along with the adjacent Nyassa Game 
Reserve in northern Mozambique (Figures 2-6). The third major and still 
current hotspot is in Gabon and Congo-Brazzaville, especially in the 
TRIDOM area in NE Gabon and NW Congo (Figure 7). Results also show how 
the transit but not the source locations have changed over time.
Zambia
    In 2002, the largest ivory seizure since the 1989 ivory ban was 
seized in Singapore in a joint operation by INTERPOL, LATF and Zambia 
and Malawi Wildlife Authorities. The 6.5 ton seizure was shipped from 
Malawi, transiting Durbin, South Africa before being seized in 
Singapore. The seizure contained 531 very large tusks and 42,000 
hankos. The ivory was sampled by INTERPOL and LATF and sent to our lab 
for analysis in 2006. The majority of tusks (Figure 1a) and hankos 
(data not shown) were assigned to Zambia. Documents recovered at the 
Malawi ivory carving factory where the samples were shipped indicated 
19 other shipments with the same modus operandi (MO). In 2005, another 
6 tons were seized in the Philippines, again with the same MO. However, 
the tusks were stolen from their storage area before they could be 
analyzed. In 2006, a joint operation by INTERPOL, LATF and the CITES 
Secretariat recovered another shipment with the same MO. That shipment 
was used in a controlled delivery, cut short and seized in Singapore. 
Our lab determined that those tusks also originated in Zambia (Figure 
1b). No subsequent seizures from this area has since been recovered, 
leading us to speculate that this area no longer constitutes the major 
poaching hotspot that it was in the past.

[GRAPHIC] [TIFF OMITTED] T8502.011


    .epsFigure 1. DNA assignment results of two large ivory seizures, 
respectively made in Singapore during 2002 and 2006. Each black circle 
indicates the median assigned location of a separate tusk in the 
seizure. The red crosses indicate the respective locations of savanna 
reference samples using to make the assignments. Since the ivory was 
initially determined to be from savanna elephants, only savanna 
elephant reference samples were used to make these assignments. The 
black arrows represent the transit routes. The curved red arrows point 
to the assigned origin of the ivory.

Southern Tanzania/Northern Mozambique
    In 2006, Tanzania exported 11 tons of ivory seized within a 1.5 
month period. The first two seizures (3 tons and 2.2 tons) were made, 
one day apart, in Taiwan. The third seizure (2.6 tons) occurred 4 days 
later in Hong Kong, and the fourth (2.8 tons) 1 month later in Japan. 
The first three seizures were all genetically assigned to the Selous 
Game Reserve in SE Tanzania and the adjacent Nyassa Game Reserve in 
northern Mozambique (Figure 2). Japan refused to provide their seized 
ivory for these analyses. However, many of the tusks had Swahili 
writing on them, also suggesting an East African origin.

[GRAPHIC] [TIFF OMITTED] T8502.012


    .epsFigure 2. DNA assignment results from three ivory seizures, 
shipped from Tanzania within a 5-day period in 2006. Each black circle 
indicates the median assigned location of a separate tusk in the 
seizure. The orange and green crosses indicate the respective locations 
of savanna and forest reference samples. The ivory was initially 
determined to be from savanna elephants. Thus, only savanna elephant 
reference samples were used to make these assignments. The black arrows 
represent the transit routes. The curved red arrows point to the 
assigned origin of the ivory. The picture in the bottom is from a 
fourth seizure shipped out of Tanzania the following month. We were not 
given the samples to assign. However, the photo shows Swahili writing 
on the tusk, further indicating East African origin.

    In 2009, Tanzania shipped 14 tons of ivory seized between March and 
August in Vietnam (9 tons) and the Philippines (5 tons). All of these 
tusks had similar MOs. We did not acquire those seizures at the time. 
However, the Philippines recently crushed their ivory stockpiles and 
provided us samples from these seizures prior to carrying out the 
crush. Two of these seizures were among the 5 tons seized in 2009. 
Those seizures were assigned to the Selous Game Reserve in SE Tanzania 
and the adjacent Nyassa Game Reserve in northern Mozambique (Figure 3).
[GRAPHIC] [TIFF OMITTED] T8502.013


    .epsFigure 3. DNA assignment results of two large ivory seizures, 
respectively made in the Philippines in 2009. Each blue circle 
indicates the median assigned location of a separate tusk in the 
seizure. The orange crosses indicate the respective locations of 
savanna reference samples using to make the assignments. Since the 
ivory was initially determined to be from savanna elephants, only 
savanna elephant reference samples were used to make these assignments. 
The black arrows represent the transit routes. The curved red arrows 
point to the assigned origin of the ivory.

    In August 2010 and May 2011, Kenya made two seizures with similar 
MOs of 1.5 and 1.3 tons respectively. These two seizures also came from 
Tanzania (Figure 4, but with two notable differences. They were from 
widely dispersed, versus highly concentrated areas, across Tanzania, 
following a pattern more consistent with stockpiled ivory and, for the 
first time, the Tanzania-derived contraband was transited out of Africa 
from a country other than Tanzania. Perhaps coincidentally, these 
seizures occurred just following Tanzania's failed petition to sell 
their stockpiled ivory at the CITES COP15 (March 2010), when all eyes 
were on them.
[GRAPHIC] [TIFF OMITTED] T8502.014


    .epsFigure 4. DNA assignment results of two large ivory seizures, 
respectively made in the Kenya during August 2010 and May 2011. Each 
blue circle indicates the median assigned location of a separate tusk 
in the seizure. The red crosses indicate the respective locations of 
savanna reference samples using to make the assignments. Since the 
ivory was initially determined to be from savanna elephants, only 
savanna elephant reference samples were used to make these assignments. 
The black arrows represent the transit routes. The curved red arrows 
point to the assigned origin of the ivory.

    There has been a lot of recent speculation on militias poaching 
ivory to support their regimes by trading ivory directly for arms. This 
was partly fueled by a rapid increase in ivory smuggled from Kampala, 
Uganda to Mombassa, Kenya prior to being shipped to Asia. Since 2011, 
17 tons of ivory was seized in Mombassa after transiting Kampala, with 
13.5 tons seized in 2013. Militias in eastern DRC were believed to have 
been the perpetrators. In May, 2012, 359 tusks were seized in Sri Lanka 
after transiting Kampala and being shipped out from Mombasa. INTERPOL 
sent a rapid response team to Sri Lanka to sample those tusks and sent 
them to our lab for analysis. Once again, the ivory came from the 
Selous Game Reserve and Ruaha National Park, both in SE Tanzania with 
some potential spill over into the adjacent Nyassa Game Reserve in 
northern Mozambique (Figure 5).
[GRAPHIC] [TIFF OMITTED] T8502.015


    .epsFigure 5. DNA assignment results of the Sri Lanka ivory 
seizure, May 2012 (southern Tanzania). Each black circle indicates the 
median assigned location of a separate tusk in the seizure. The orange 
crosses indicate the respective locations of savanna reference samples 
used to make these assignments. Since the ivory was initially 
determined to be from savanna elephants, only savanna elephant 
reference samples were used to make these assignments. The black arrows 
represent the transit routes. The curved red arrows point to the 
assigned origin of the ivory.

    In June 2013, 781 tusks were seized in Malawi, implicating a high 
level officer from the Tanzania military. This seizure is also alleged 
to involve the same dealer responsible for the 1.8 tons of ivory seized 
in the house of a Chinese national in Dar es Salaam in November 2013. 
INTERPOL worked with NCB in Malawi and Tanzania to sample the Malawi 
seizure. The tusks varied widely in size, but included some very large 
samples (>1.6 m in length). The tusks also had four different types of 
writing on them: 1 = Blue writing, 2 = Green writing, 3 = Red writing, 
4 = ``777'' written in Red.
    DNA analyses revealed that all of the tusks were from savanna 
elephants. The overall assignment of the 65 samples that amplified DNA 
suggest they were derived from an area spanning SE Tanzania and 
northern Mozambique, with the largest concentration likely derived from 
the Selous Game Reserve in Tanzania and the Nyasa Game Reserve in 
northern Mozambique, and a possible second distribution slightly more 
north spanning Ruaha National Park/Mikumi National Park/northern Selous 
Game Reserve (Figure 6).
[GRAPHIC] [TIFF OMITTED] T8502.016


    .epsFigure 6. Group assignment of savanna elephant tusks from the 
June 2013 Malawi seizure. Each tusk assignment in the overall group 
assignment is indicated by a blue circle. Orange crosses represent the 
savanna reference samples locations used to make the group assignments.

    Separating the analyses into their four separate groups suggested 
that these groups represent at least three different groups of 
poachers/dealers (Figure 7A-D). The distribution of poached ivory in 
groups 1 (blue writing) and 2 (green writing) spanned the entire range 
where poaching occurred (i.e., were similar in distributions to the 
overall pattern seen in Figure 6). However, groups 3 (red writing) and 
4 (777 written in red) appear to be distinct. Group 3 was more 
concentrated in the northern part of the overall distribution, on the 
Tanzania side, whereas group 4 appears to be more concentrated in the 
southern part of the distribution, on the Mozambique side. The combined 
results suggest that at least three separate groups of poachers/dealers 
contributed ivory to this overall seizure.
    Based on these seizures, there is no doubt that SE Tanzania is the 
most significant major poaching hotspot in Africa. The transit 
locations have progressively moved outside of Tanzania, but the source 
has remained firmly within Tanzania, bleeding the largest protected 
area in Africa of its enormous natural elephant population.

[GRAPHIC] [TIFF OMITTED] T8502.017


    .epsFigure 7. Separate group assignments of savanna elephant tusks 
from the June 2013 Malawi seizure, based on the color of ink and 
specific writing on the surface of the tusks: A. Group 1 = blue writing 
on outside of tusks; B. Group 2 = green writing; C. Group 3 = red 
writing; D. Group 4 = ``777'' written in red. Each tusk assignment in 
the sub-group assignment is indicated by a colored circle. Orange 
crosses represent the savanna reference samples locations used to make 
the group assignments.

Gabon/Congo-Brazzaville
    In 2006, a seizure was made in Hong Kong when a container was X-
rayed and found to have a false compartment containing 4 tons of ivory. 
The tusks in this seizure were very large tusks, on average. The 
container was shipped from Cameroon. However, our analyses assigned the 
ivory to an area covering central Gabon and Congo-Brazzaville, 
potentially overlapping the elephant rich TRIDOM area of NE Gabon and 
NW Congo (Figure 8a). Documents uncovered at the dealers home in 
Cameroon revealed at least 12 similar shipments, with the same 3 
containers returning to Cameroon carrying used tires for resale. The 
next two returning containers were searched, and found to also have 
false compartments. Scraps of ivory recovered from the compartments of 
these two containers were also assigned to the same area as the 4 ton 
seizure (data not shown).
    In July 2103, Hong Kong seized 1,148 tusks, after transiting Togo. 
Unlike the previous seizure, these tusks were remarkable in that they 
were all very small in size (1.0-1.5 kg on average), suggesting they 
came from small elephants. Those tusks were once again assigned to the 
TRIDOM area of NE Gabon and NW Congo-Brazzaville (Figure 8b), 
suggesting this area to have undergone considerable poaching pressure 
over time.

[GRAPHIC] [TIFF OMITTED] T8502.018


    .epsFigure 8. DNA assignment results of two ivory seizures made in 
Hong Kong during 2006 and 2013. Each black circle indicates the median 
assigned location of a separate tusk in the seizure. The green crosses 
indicate the locations of forest reference samples. The ivory was 
initially determined to be from forest elephants. Thus, only forest 
elephant reference samples were used to make these assignments. The 
black arrows represent the transit routes. The curved red arrows point 
to the assigned origin of the ivory.

    On January 22 and 29, 2014, Togo authorities seized nearly 4 tons 
of ivory in Lome, Togo, en route to Vietnam. INTERPOL sent a rapid 
response team to Togo to sample the seizures for DNA analyses. The 
samples were imported into the United States by the USFWS under an 
``Lo'' CITES designation and sent to the Center for Conservation 
Biology (CCB) for DNA assignment.
    When INTERPOL arrived in Togo, the two seizures were already merged 
with no way to separate them. Since it was suspected that the two 
seizures were actually part of the same shipment, the January 22 and 29 
seizures were treated as one, with a total of 200 samples collected 
from the entire shipment according to previously established protocols. 
Of these, 86 samples reached the inclusion criterion of amplifying DNA 
at 10 or more of the 16 loci examined. Of these, 79 samples were from 
forest elephants and 7 from savanna elephants.
    The forest elephant samples were largely from the TRIDOM area, 
including NE Gabon, NW Congo-Brazzaville, and SW Cameroon, including 
also the Dzanga Sanga area of CAR. A few samples in that cluster may 
also have come from Central DRC. There was also a second cluster of 
eight samples that had a West African origin, concentrated in the 
western part of Cote d'Ivoire (Figure 9).
    Four of the savanna elephant samples came from SW Chad and perhaps 
Cameroon, with one additional sample from CAR and two from Tanzania. 
The two samples from Tanzania are noteworthy because they suggest a 
potential connection between dealers operating in eastern and western 
Africa.
[GRAPHIC] [TIFF OMITTED] T8502.019


    .epsFigure 9. Assignment of: (a) forest and (b) savanna elephant 
tusks seized in Togo, January 2014. Each blue circle represents the 
assignment of one forest or savanna elephant tusk. Green and orange 
crosses respectively represent forest and savanna elephant reference 
samples used to make the assignments.

    The above results suggest the emergence of another major and still 
current elephant poaching hotspot in Africa, this one involving the 
last remaining healthy population of forest elephants in the TRIDOM 
area of Central Africa.
Current Plan
    Our program had a slow start, obtaining only a small portion of all 
seizures made between 2006 and 2010. Countries were reluctant to hand 
over their seizures and the vast majority of the seizures we acquired 
were at the bequest of INTERPOL. Publication of our results (Wasser et 
al 2004, 2007, 2008, 2009) and presentations at CITES COPs eventually 
raised awareness of the value of this method. By COP16 held in Thailand 
last March, it was clear that the remaining elephants in Africa were 
being poached at a scale not seen since the ivory ban and this could 
drive the remaining African elephants to near extinction in the next 
decade. In response, the parties unanimously passed resolution 16.83, 
urging all countries making large ivory seizures to rapidly turn them 
over to an established laboratory for origin assignment. At that same 
meeting, ICCWC requested our lab to lead the origin assignments and for 
the first time, we are acquiring large numbers of seizures on a 
frequent basis. Indeed, we are now positioned to identify all major 
current poaching hotspots in Africa by mid-2015. We already have firm 
commitments from the seizing countries to acquire 31 (in orange) of the 
39 large ivory seizures documented between 2011 to present. Ten of 
those seizures (in boxes) have already been sampled and shipped to our 
lab, eight of which have already been analyzed this year (Table 1).
[GRAPHIC] [TIFF OMITTED] T8502.020

.epsTaking Action
    We are now working on a plan to make these results actionable, by 
cooperative law enforcement efforts that target these major hotspots. 
Our goal is to focus initial actions on the two largest, current 
hotspots, beginning with southern Tanzania and then the TRIDOM area of 
NE Gabon/NW Congo-Brazzaville. If successful, this will pave the way to 
bring down all the major hotspots we hope to identify over the next 12 
months, offering the real opportunity to choke this burgeoning 
transnational crime at its source.
Supporting Literature

Wasser SK, A Shedlock, K Comstock, E Ostrander, B Mutayoba, M Stephens. 
2004. Assigning African elephant DNA to geographic region of origin. 
Applications to the ivory trade. Proceedings National Academy of 
Sciences 101: 14847-1485.

Wasser SK, C Mailand, R Booth, B Mutayoba, ES Kisamo, B Clark, M 
Stephens. 2007. Using DNA to track the origin of the largest ivory 
seizure since the 1989 trade ban. Proceedings of the National Academy 
of Sciences 104(10): 4228-4236.

Mailand C, SK Wasser. 2007. Isolation of DNA from small amounts of 
elephant ivory. Nature Protocols 2: 2228-2232.

Wasser SK, WJ Clark, O Drori, ES Kisamo, C Mailand, B Mutayoba, M 
Stephens. 2008. Combating the illegal trade in African elephant ivory 
with DNA forensics. Conservation Biology 22: 1065-1071.

Wasser SK, B Clark, C Laurie. 2009. The Ivory Trail. Scientific 
American July, 2009.

Wasser SK, et al. 2010. Elephants, ivory and trade. Science 327: 1331-
1332.

                                 ______
                                 

                    2012 Data from Elephant Database
[GRAPHIC] [TIFF OMITTED] T8502.021

.eps[GRAPHIC] [TIFF OMITTED] T8502.022


                                 .eps__
                                 

      Elephant Poaching and Ivory Smuggling Figures Released Today

                  CITES--PRESS RELEASE--June 16, 2014

Poaching levels remain alarmingly high at over 20,000. More large ivory 
            seizures in Africa than Asia for the first time
    Geneva, 13 June 2014--Over 20,000 African elephants were poached 
across the continent in 2013 according to a report released today by 
the Secretariat of the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES). Although the sharp upward 
trend in illegal elephant killing observed since the mid-2000s, which 
had peaked in 2011, is levelling off, poaching levels remain alarmingly 
high and continue to far exceed the natural elephant population growth 
rates, resulting in a further decline in elephant populations across 
Africa.
    The report also shows a clear increase in the number of large 
seizures of ivory (shipments over 500 kg) made in 2013, before the 
ivory left the African continent. For the first time, the number of 
such seizures made in Africa exceeded those made in Asia. Just three 
African countries--Kenya, Tanzania and Uganda--accounted for 80% of 
those seizures. Large-scale ivory seizures are indicative of 
transnational organized crime being involved in the illicit ivory 
trade.
    ``Africa's elephants continue to face an immediate threat to their 
survival from high-levels of poaching for their ivory and with over 
20,000 elephants illegally killed last year the situation remains dire. 
Due to the collective efforts of so many, we also see some encouraging 
signals, but experience shows that poaching trends can shift 
dramatically and quickly, especially when transnational organized crime 
is involved,'' said John E. Scanlon, Secretary-General of CITES.
    Southern Africa continues to hold the lion's share of Africa's 
elephants, holding close to 55% of the known elephants on the 
continent. Eastern Africa holds 28% and Central Africa 16%. In West 
Africa, less than 2% of the continent's known elephants are spread over 
13 countries.
    Poverty (measured by infant mortality rates) and weak governance 
(measured by law enforcement capacity and corruption levels), together 
with demand for illegal ivory in consuming nations are three key 
factors linked to higher poaching levels.
    Overall poaching numbers were lower in 2013 than in 2012 and 2011--
but they continue to exceed 20,000. The report warns that poaching 
levels will lead to continuing declines in the African elephant 
population.
    The report identifies monitored sites where poaching is increasing 
(33% of monitored sites), including Dzanga Sangha (Central African 
Republic), as well as those sites where a decline in poaching has been 
observed (46%), such as Zakouma National Park (Chad). Some populations 
of elephants continue to face an immediate threat of local extinction.
    The report containing the latest figures (2013) from the CITES 
Monitoring Illegal Killing in Elephants (MIKE) programme and the 
Elephant Trade Information System (ETIS) will be discussed at the 65th 
meeting of the CITES Standing Committee taking place in Geneva from 7 
to 11 July 2014.
    The monitoring data from the field is unique and it is the most 
comprehensive global survey of any of the 35,000 CITES-listed species. 
It is collected by law enforcement patrols and other means, who try to 
establish the cause of death and other details, every time a carcass is 
found. CITES then collates and analyses this data thanks to funds 
provided by the European Union.
    Commenting on the scope of the report, Julian Blanc, responsible 
for the MIKE programme, said: ``We are monitoring 30 to 40% of the 
elephant population, through a peer reviewed process that gives us the 
best available global estimates on the illegal killing of elephants. We 
hope to expand this coverage to improve on our estimates. We are 
supporting countries that do not have the capacity or the funds to 
monitor MIKE sites and are seeking further support for field rangers.''
    In March 2013, based on the findings of ETIS, CITES identified 
eight countries (Kenya, Tanzania, Uganda, China, Malaysia, The 
Philippines, Thailand, and Vietnam) as the most heavily implicated in 
the illegal ivory trade chain as source, transit or destination 
countries. CITES took decisions at that time requesting all eight 
countries to develop and implement National Ivory Action Plans to 
tackle the elephant poaching and smuggling crisis.
    These decisions are being translated into a wide-range of actions 
and initiatives--improved protection in the field, stronger Customs 
controls, better use of modern technologies and forensics--such as DNA 
testing and isotopes, strengthened legislation and policies, targeted 
investigations and more prosecutions, new public awareness campaigns, 
the destruction of confiscated ivory stockpiles, and the allocation of 
dedicated funding to combat wildlife crime.
    ``We are seeing better law enforcement and demand-reduction efforts 
across multiple countries, as well as greater political and public 
attention to this unfolding crisis and CITES decisions and compliance 
processes underpin the global effort,'' said Scanlon.
    ``The momentum generated over the past three years must now 
translate into deeper and stronger efforts to fight these crimes on the 
front line, where it is needed most--from the field, to Customs, to 
illicit markets, and only then can we hope to reverse the devastating 
poaching trends of the past decade,'' added Scanlon.
    Several conferences held since CITES Parties met in 2013, including 
in Gaborone, London and New York, have further contributed to securing 
high-level political support across all continents.
    The CITES Standing Committee next month will assess the eight 
countries National Ivory Action Plans, and will discuss the next steps 
to stop illegal ivory trade, including whether additional countries 
should develop National Ivory Action Plans.
    The Committee will also consider the roll out of a wide-range of 
enforcement-related decisions taken by CITES in March 2013 on other 
species being pressured by illegal trade, including rhinos, Asian big 
cats, rosewood, pangolins, freshwater turtles and tortoises, great 
apes, and snakes, as well as a study of the legal and illegal trade in 
wild cheetahs.

                                 ______
                                 

Endangered Species: African Poaching Down and Ivory Seizures Up--Report

                       EE news.net--June 13, 2014

    Poaching of African elephants in 2013 decreased from the previous 
two years, but some populations are still threatened with local 
extinction, according to international wildlife regulators.
    The Convention on International Trade in Endangered Species of Wild 
Fauna and Flora reported that more than 20,000 elephants were poached 
last year, but for the first time, Africa seized more large shipments 
of smuggled ivory than Asia.
    ``We are seeing better law enforcement and demand-reduction efforts 
across multiple countries, as well as greater political and public 
attention to this unfolding crisis,'' said John Scanlon, secretary-
general of CITES.
    Kenya, Tanzania and Uganda constituted 80 percent of the seizures. 
The countries are among eight nations that CITES required to create 
plans to curb ivory smuggling.
    Even though total poaching numbers were down on the continent, the 
practice increased last year in the Central African Republic.
    Eastern Africa is home to 28 percent of the continent's elephants, 
and the majority--55 percent--live in southern Africa.

 1996-2014 E&E Publishing, LLC

                                 ______
                                 

  Wildlife: GOP Lawmakers, Witnesses Blast FWS Ivory Ban Proposal at 
                             House Hearing

                              E&ENews.net

                             June 25, 2014

                      By Dylan Brown, E&E reporter

    With stuffed elephants donated by conservation groups lining 
lawmakers' desks, everyone at a House Natural Resources subpanel 
hearing yesterday agreed that African elephants could be driven to 
extinction within a decade if something is not done about poaching 
driven by demand for ivory.
    ``The plight of the elephants demands our undivided attention,'' 
said Ian Somerhalder, ``Vampire Diaries'' star and president of his own 
foundation dedicated to environmental issues, during his testimony.
    All present said it is necessary to undermine the illicit ivory 
trade, which has become a billion-dollar funding source for 
international crime syndicates, militias and terrorist groups in Africa 
and Asia, where ivory is seen as a status symbol.
    The international side of the equation appeared settled.
    Domestic issues, however, especially the Fish and Wildlife 
Service's proposed commercial ivory ban, generated disagreement and 
prompted strong criticisms from Alaska Rep. Don Young (R) and other 
Republicans.
    ``For those in the audience who think you're saving elephants, 
you're going to be killing these elephants,'' Young said.
    The United States remains the second-largest market for ivory in 
the world, but how much of it is illegal remains unclear, said FWS 
Associate Director Robert Dreher.
    Echoing the concerns of sportsmen, musicians and auction houses 
worried that the ban, which eliminates commercial imports and restricts 
exports to all but verified antiques containing ivory, would have a 
detrimental effect on the value of ivory owned by millions of 
Americans, Young and other members of his party castigated FWS and 
lambasted the ban as another federal regulatory overreach, arguing that 
the ban would unfairly put the burden of proof on American owners to 
prove their ivory was not the product of poaching.
    ``Uncle Sam is going to say you have to prove it, you're guilty 
because we say you are. That is wrong, and this is not going to save 
the elephants,'' Young said.
    With many older instruments containing ivory, National Music Museum 
stringed instruments curator Arian Sheets testified about musicians' 
concerns over the effect of the ban on older, valuable instruments like 
ivory-keyed pianos and some guitars. Montana Republican Steve Daines 
pointed out earlier this month that violin bows belonging to the 
Budapest Festival Orchestra were seized temporarily at John F. Kennedy 
International Airport.
    According to fellow panelist Matthew Quinn of Quinn's Auction 
Galleries, museums and auction houses could essentially see the 
devaluation of great swaths of items--hundreds of millions, he 
estimated. Many Americans looking to sell grandma's ivory figurine 
collection would be out of luck.
    ``Such quick administrative actions . . . will adversely impact 
millions of unknowing Americans,'' Quinn said in his written testimony, 
arguing that the guidelines laid out by the FWS are far too rigorous 
for cases in which people have little to no documentation of items.
Impact of FWS Ban on Hunting
    The ban's effect on hunting also raised Young's hackles.
    ``There is a value when they can be hunted; there is a value when 
they can in fact be managed; there is a value when you let a country 
manage its game,'' he said.
    According to letters obtained by Greenwire under the Freedom of 
Information Act, sportsmen have been in representatives' ears about the 
restrictions on importing elephant trophies (Greenwire, June 23). 
Elephant hunts that cost upward of $10,000 in countries like Zimbabwe 
were stamped out by the ban, Dreher said, due to questionable 
management practices and weak governance in some African nations.
    Republicans touted Zimbabwe, one of the few nations that opposed 
the 1989 international ivory trade ban, as a model for using hunting 
revenue and management to benefit impoverished people.
    ``The simple truth is that if wildlife have no economic value, 
there is little if any incentive for people who live in that habitat to 
conserve or save them,'' said subcommittee Chairman John Fleming (R-
La.).
    At the hearing, Itai Hilary Tendaupenyu, principal ecologist for 
the Zimbabwe Parks and Wildlife Management Authority, said the United 
States failed to notify his government prior to making a decision on 
the ban. He said hunting revenue is critical to Zimbabwe's economy, 
with approximately 67 percent of proceeds going to local communities. 
Furthermore, he said, Zimbabwe's elephant population is actually 
increasing thanks to hunting.
    Democrats asked to see the data, but International Fund for Animal 
Welfare President Azzedine Downes said the evidence for hunting being a 
boon for local communities simply doesn't exist.
    ``It's a great sound bite, but there is no evidence to really back 
it up,'' he said. ``One person comes and shoots an elephant . . . the 
money goes to the safari company, to the people who issued the permit, 
and what does the community get? Literally a carcass.''
    Downes doesn't buy the argument that the domestic ban isn't 
necessary, because he says it targets the demand fueling poaching.
    ``I think people would like people to think that, that it's not 
going to have any impact. It's not about dry regulations; it's actually 
about preventing elephants from being killed--demand drives it,'' he 
said. ''You have a piece of ivory? You have to make a decision: the 
elephant or this? There are losers, but it's worth it.''
    Both sides agreed on one other thing: Figuring out the age of ivory 
is a fool's errand.
    Testing requires destroying part of the ivory, and criminals are 
adept at making new ivory look old.
    Allan Thornton, president of the nonprofit Environmental 
Investigation Agency, who also testified at a Democratic press 
conference preceding the hearing, said allowing ivory that was 
harvested pre-ban to be traded gives criminals a loophole large enough 
to drive a truck through.
    Downes agreed: ``If someone on the street has to figure out `Is 
this piece legal or illegal?' it won't work.''
    Conservationists applauded the ban as an indication that the United 
States is taking the lead on the issue. Essentially, Crawford Allan, 
senior director of TRAFFIC, a partnership between the World Wildlife 
Fund and the International Union for Conservation of Nature, said it 
gives the United States the high ground from which to influence other 
countries.
    ``Let's not lose sight of the main prize here . . . and the fact 
that it's like a catalytic knock-on effect around the world,'' Allan 
said.
    Three hours after it was scheduled to start, the end of the healing 
was marked by bipartisan calls to refocus on that main prize: saving 
elephants.
    How that will be done remains to be seen, but while he said he 
didn't believe FWS's ban would be effective, former Texas Rep. Jack 
Fields implored his former colleagues to work together to attack the 
root of the problem. Fields suggested they hark back to the passage of 
the original 1989 ban he helped pass.
    'We decided that we were going to put collateral issues aside . . . 
if you're really looking at trying to preserve the elephant 
population,'' he said.

                                 ______
                                 

                  It's All About Saving The Elephants

                              Forbes Op-Ed

                             June 23, 2014

         Guest Post Written By Judith McHale and David J. Hayes

    Doug Bandow recently published an opinion piece in Forbes in which 
he argues that the President is fighting the elephant poaching crisis 
by targeting U.S. citizens who own ivory. He asserts that the 
Administration's policy is all about ideological politics, rather than 
actually ``fight[ing] poaching.'' (Italics in original.) He could not 
be more wrong.
    Contrary to Mr. Bandow's inference, the Administration's anti-
poaching strategy is not proceeding on the backs of U.S. citizens and 
it is all about, in fact, fighting poaching. Unmentioned by Mr. Bandow, 
the President's Executive Order on Combating Wildlife Trafficking, 
issued last July, and the follow-up National Strategy document issued 
by his cabinet last February, lays out a comprehensive strategy that 
takes the fight directly to the poachers and the organized and 
sophisticated criminal syndicates that are behind them. The threat is 
an extremely serious one, both because the syndicates are devastating 
economically and culturally important elephant, rhino and other iconic 
wildlife populations, but also because this lucrative criminal activity 
is fueling instability and corruption, and strengthening armed militias 
and terrorist groups.
    Picking on one aspect of a multi-dimensional, comprehensive 
strategy, Mr. Bandow argues that the U.S. Fish & Wildlife Service is 
engaged in a misguided and pointless exercise in restricting domestic 
commercial trade in ivory. He fails to note, however, that U.S. law 
already restricts commercial trade in ivory. The current restrictions 
flow from a 1989 U.S. import ban under the African Elephant 
Conservation Act, followed by a global ban on commercial import and 
export of ivory established by the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES) in 1990 to protect 
elephant populations that were under enormous poaching pressure at the 
time. These actions took hold and worked, shutting down vibrant ivory 
markets in the U.S. and Europe. Without an easily accessible market, 
the massive killings of elephants declined precipitously in the early 
1990s.
    In the last few years, unfortunately, the ban on commercial trade 
in ivory has deteriorated under the weight of lax enforcement, 
misguided ``one time'' sales of national ivory stocks, and other 
loopholes. Coincidentally, new markets for ivory in China and Southeast 
Asia have opened up and the world is now experiencing a dangerous spike 
in wildlife killings and related organized criminal activity.
    Because the U.S. remains an important market for ivory--albeit not 
the largest market--it is appropriate for FWS to clarify what type of 
commercial trade in ivory is legal, and what is not. FWS is taking 
steps to remind Americans that U.S. law prohibits commercial imports of 
ivory and trade in ivory or ivory products that entered the United 
States illegally. The agency also is seeking to clarify what type of 
evidence must be provided to satisfy the ``burden of proof'' that U.S. 
law puts on individuals who are seeking to sell ``antique'' and pre-ban 
ivory products.
    Ivory owners in the U.S. can continue to own ivory, of course, and 
trade it if they can make required showings. We agree with Mr. Bandow 
that in clarifying the proof needed to establish legality under the 
law, FWS should adopt a common sense approach that offers law-abiding 
ivory owners reasonable avenues to obtain required certifications. But 
the showings must be vigorous enough so as to prevent fraudulent claims 
by agents of the sophisticated traffickers who are making billions from 
the sale of ivory from freshly-killed elephants.
    As a final point, by taking steps to reconfirm and clarify existing 
restrictions on commercial trade in ivory, the U.S. strengthens its 
hand in insisting that China and other Asian nations take similar steps 
and shut down the rampant illegal trading activity that has infected 
their domestic ivory markets. If they do not, the U.S. can and should 
demand that offending nations either get in line, or suffer the 
consequences of trade sanctions imposed under the authority of U.S. law 
(the Pelly Amendment) or in concert with other nations, under the CITES 
treaty.

   Ms. McHale is Chair, and Mr. Hayes is Vice-Chair, of the Wildlife 
                     Trafficking Advisory Council.

                                 ______
                                 

                   The Wrong Way to Protect Elephants

                   The New York Times--Op-Ed Article

          By Godfrey Harris and Daniel Stiles--March 26, 2014

    The year was 1862. Abraham Lincoln was in the White House. ``Taps'' 
was first sounded as a lights-out bugle call. And Steinway & Sons was 
building its first upright pianos in New York.
    The space-saving design would help change the cultural face of 
America. After the Civil War, many middle-class families installed them 
in their parlors. The ability to play the piano was thought to be 
nearly as important to the marriage potential of single ladies as their 
skill in cooking and sewing, signaling a young woman's gentility and 
culture.
    The keys on those pianos were all fashioned from the ivory of 
African elephants. And that is why one of these uprights, the oldest 
one known to survive, in fact, is stuck in Japan.
    The director of the United States Fish and Wildlife Service 
recently issued an order prohibiting the commercial importation of all 
African elephant ivory into the United States. (Commercial imports had 
been allowed in some instances, including for certain antiques.)
    The Obama administration is also planning to implement additional 
rules that will prohibit, with narrow exceptions, both the export of 
African elephant ivory and its unfettered trade within the United 
States.
    The Fish and Wildlife Service has said that these new rules will 
help stop the slaughter of elephants. But we believe that unless demand 
for ivory in Asia is reduced--through aggressive education programs 
there, tougher enforcement against the illegal ivory trade and the 
creation of a legal raw ivory market--these new American regulations 
will merely cause the price to balloon and the black market to 
flourish, pushing up the profit potential of continued poaching.
    In short, these new rules proposed by the Fish and Wildlife Service 
may well end up doing more harm than good to the African elephant.
    What these regulations will also do is make the import, export and 
interstate sale of almost any object with African elephant ivory 
virtually impossible. Anyone who owns any antique African elephant 
ivory--whether it is an Edwardian bracelet inherited from a grandmother 
or an ivory-handled Georgian silver tea set owned by an antiques 
dealer--will be unable to ship or sell it without unimpeachable 
documentation that proves it is at least 100 years old, has not been 
repaired or modified with elephant ivory since 1973, and that it 
arrived in the United States through one of 13 ports of entry.
    The story of the Steinway underscores the complexity, rigidity and 
absurdity of these rules. The piano was salvaged years ago by Ben 
Treuhaft, a professional piano technician. When his wife took an 
academic job in Japan, he shipped the piano along with their other 
household possessions to Tokyo. They moved to Scotland after the 
Fukushima nuclear accident three years ago, leaving the piano in 
storage in Japan to be shipped later. Now Mr. Treuhaft is ready to 
return the piano to the United States and place it in the hands of a 
friend who planned to display it at her piano shop.
    But the piano remains in Japan. It lacks the paperwork necessary to 
clear customs in the United States because Mr. Treuhaft failed, when he 
shipped the piano abroad, to obtain the required export permit 
identifying the ivory keys and the piano's provenance. In the past, the 
government might have exercised some discretion over Mr. Treuhaft's 
oversight. But no more. Moreover, to meet the personal-use exception 
for an import, the piano would have to be shipped back as part of a 
household move, and he wants to send it to a friend.
    So the piano that Steinway says is its oldest known upright is 
stuck in Japan.
    Of course, Mr. Treuhaft is not the only one who is or will be hurt 
or inconvenienced by this draconian order from the Fish and Wildlife 
Service, or the new rules that the administration seeks to impose. 
Musicians already complain of a burdensome process and months-long 
delays in securing permits to take their instruments containing ivory 
abroad. And collectors, gun owners and antiques dealers say they have 
been blind sided by the proposed rules, which will effectively render 
their African elephant ivory pieces worthless unless they can meet the 
extremely difficult standards necessary to sell them.
    We suggest a different approach. We should encourage China, where 
much of the poached ivory ends up, to start a detailed public education 
campaign that underscores the damage done to elephant populations by 
the illegal trade in ivory. We also need more aggressive enforcement of 
anti-poaching efforts in Africa. And we should figure out a way to 
manage the trade in raw ivory to protect elephants. For instance, 
several years ago, ivory stockpiles owned by several African countries 
were sold in a series of United Nations-approved auctions in an effort 
to undercut illegal ivory trafficking. The proceeds went to elephant 
conservation efforts. This is a better approach than destroying these 
stockpiles, as the United States did last fall to six tons of ivory.
    Leaving Mr. Treuhaft's piano in Japan will not save African 
elephants. But it will further endanger them and diminish the lives of 
those who recognize and value the role of ivory in history and culture.

      Godfrey Harris directs the Political Action Network of the 
  International Ivory Society, and Daniel Stiles is a wildlife trade 
                              consultant.

A version of this op-ed appears in print on March 27, 2014, on page A31 
  of the New York edition with the headline: The Wrong Way to Protect 
                               Elephants.

 2014 The New York Times Company

                                 ______
                                 

              Grandma's Cameo Becomes Yard-Sale Contraband

How will a government ban on selling or trading antique ivory help save 
                         endangered elephants?

                   Wall Street Journal--Op-Ed Article

                     By John Leydon, June 23, 2014

    On June 26 countless antiques, musical instruments and other 
objects made from ivory or decorated with it will be effectively banned 
by the federal government from sale or trade within the U.S. Coupled 
with tough new international import-export restrictions, the value of 
these objects, once in the hundreds of millions of dollars, will 
evaporate.
    The expressed aim of the U.S. Fish and Wildlife Service is to 
discourage the ivory trade and protect endangered African elephants, 
though it is difficult to discern how that effort is aided by 
attacking, say, collectors of Victorian or Art Deco treasures.
    To avoid having the ban termed a ``blanket prohibition,'' which 
would require congressional legislation, the Fish and Wildlife Service 
has granted a ``regulatory exception'' that covers a minuscule number 
of ivory-laden objects that can meet its elaborate requirements. In 
addition to proving that a particular object is at least 100 years old, 
its owner must possess official paperwork showing that it was imported 
to America before 1990, or legally thereafter, and provide unspecified 
evidence that the object has not been repaired or modified since 
December 1973. In other words, the bar has been set so high by the Fish 
and Wildlife Service that very few items will qualify, and then only at 
great expense and months of research and bureaucratic wrangling.
    The message is clear to those who possess ivory-detailed objects 
including clarinets, canes, pistols, crucifixes, timepieces, chess 
sets, cameos, guitars, mahjong sets, pianos or furniture: You own it, 
you're stuck with it. The objects shortly will be worthless and 
uninsurable by government decree, and the IRS is unlikely to allow you 
to write it off as an investment loss, no matter how much you or your 
family paid for it--a few hundred dollars at an estate sale or $20,000 
at Christie's.
    The impracticality of monitoring every flea market, auction and 
estate sale in the country will force the Fish and Wildlife Service to 
selectively enforce the new regulations. Worse, many buyers and 
sellers--from hobbyists to professionals--may be unaware that they will 
be vulnerable to confiscation, fines and arrest for violating the new 
regulations.
    When the Fish and Wildlife Service does step in to prosecute owners 
and confiscate the ivory goods, it will be doing so in the misguided 
belief that it is helping to save endangered elephants in Africa by 
demonizing all ivory, no matter the vintage. As someone who collects 
ivory-detailed walking canes and who counts himself as a dedicated 
environmentalist, I think the government is overreaching by creating 
this new criminal class.
    If you see the increasingly common signs saying ``Support the 
Ban,'' remember that the new federal rule is not directed against the 
brutal mercenaries and terrorist organizations whose present-day 
poaching is endangering the last remaining members of a magnificent 
African species. The domestic ban is aimed indiscriminately at you or 
your family or your neighbors, and at heirlooms, collections and 
investments.
    Conservation organizations and lovers of cultural treasures must 
work together to stop the tragedy unfolding in Africa by supporting 
forceful interdiction efforts. A first step toward encouraging such a 
sensible alliance might be for Congress to impose a time-out on the 
Fish and Wildlife Service, delaying the implementation of its misguided 
ban and giving thoughtful people who understand its impact, and its 
folly, more time to weigh in.
    The House Subcommittee on Fisheries, Wildlife, Oceans and Insular 
Affairs is scheduled to meet Tuesday to discuss the domestic ivory ban. 
Let's hope our elected representatives can bring some sense to the 
discussion and reverse this new and faulty regulation.

      Mr. Leydon, a retired telecom executive, is a member of the 
  International Society of Cane Collectors and a staunch supporter of 
           international wildlife conservation organizations.

                                 ______
                                 

  Obama's Ivory-Trade Regulatory Overkill--Turning Antique Collectors 
               into Criminals will Boost the Black Market

                          The Washington Times

                   By Doug Bandow--February 18, 2014

    The Obama administration is preparing to treat virtually every 
antique collector, dealer and auctioneer in America as a criminal. In 
the name of saving elephants, the administration is effectively banning 
the sale of all ivory objects, even if acquired legally decades ago.
    Doing so will weaken conservation efforts and enrich those engaged 
in the illegal ivory trade.
    Elephants are being killed in Africa. Under the Convention on the 
International Trade in Endangered Species of Wild Fauna and Flora, only 
ivory from before 1989 can be sold. Unfortunately, ivory-sale 
prohibition has not stopped the slaughter.
    The greatest demand for new ivory comes from Asia. Most ivory in 
America arrived legally, many years ago. The owners followed the rules 
as they invested hundreds, thousands or tens of thousands of dollars in 
art objects.
    Until now, the rules were simple and sensible. Ivory imported 
legally--that is, prior to 1989 or after 1989 with convention 
certification--could be sold. Older ivory usually can be identified by 
coloring, stains, style, wear, quality, subject and more. Most of the 
older work simply isn't replicated today.
    Moreover, the burden of proof fell on the government, which had to 
prove that an individual violated the law to convict him of violating 
the law. That's the way America normally handles both criminal and 
civil offenses.
    However, in mid-February the administration issued what amounted to 
a ban on ivory sales. In practice, virtually every collector, dealer, 
auctioneer and other person in America is prohibited from selling ivory 
items--even if acquired legally, owned for decades, and worth hundreds 
or thousands of dollars.
    Every flea market, junk shop, estate sale, antique store, auction 
showroom and antique show is at risk of raids, confiscations and 
prosecutions.
    First, no imports are allowed, not even of antiques, which before 
could be brought to America with a convention certificate.
    Second, all exports are banned, except antiques (defined as more 
than a century old) in what the U.S. Fish and Wildlife Service says are 
``exceptional circumstances.''
    At best, the administration is raising the administrative and cost 
burdens of exporting to countries that already limit ivory imports to 
items with appropriate documentation. Or the new rule may restrict the 
sale of items previously allowed, thereby hindering Americans in 
disposing of their legal collections.
    Third, interstate transactions are prohibited, except for antiques. 
Explains Fish and Wildlife: ``Sellers of antiques in interstate 
commerce must prove through documented evidence that items qualify as 
bona fide antiques.'' Unfortunately, such evidence rarely exists. Thus, 
the sale of almost all ivory across state lines is effectively banned.
    Fourth, intrastate commerce, said the agency, is ``prohibited 
unless seller can demonstrate item was lawfully imported prior to'' 
1990, when the international ban took effect.
    But how does someone ``demonstrate'' when, say, a gift from his 
parents was imported? Without such proof, the item is not marketable--
even though brought to America legally.
    By any standard, the administration rule is grossly unfair to 
thousands of Americans. Why is the administration penalizing the law-
abiding?
    The U.S. officials complained about the difficulty in 
distinguishing ivory imported legally and illegally. No doubt, banning 
everything eases enforcement, but the policy fails to distinguish 
between guilt and innocence.
    Moreover, much older ivory, given its manifold unique 
characteristics, is easily distinguishable from new work.
    The illegal ivory supply also is small compared with that of legal 
ivory. Rather than ban the latter in an attempt to limit the former, 
the government should concentrate resources on aiding African countries 
in protecting their elephants, better interdicting illegal imports, and 
identifying sellers who specialize in new ivory.
    In fact, targeting owners of legal ivory will perversely undermine 
such enforcement efforts. Making most ivory in America illegal will 
vastly expand the ivory black market and dramatically dilute 
enforcement resources.
    Ivory commerce will continue, only more often underground. More 
objects will privately pass among dealers and collectors, never 
reaching public view.
    The interstate ban, too, will be flouted. Owners also may hand-
carry items to other nations without similar restrictions. Moreover, 
documentation will be faked.
    Collectors and dealers will turn to those already participating in 
the illegal market, helping criminals expand their networks and 
increase their profits. Finally, overtaxed federal Fish and Wildlife 
agents may prefer to go after easy targets, such as local antique flea 
markets, rather than secretive smugglers.
    If the administration does not withdraw its rules, Congress should 
overturn this unfair attack on the law-abiding. Washington should 
penalize poachers and their seller allies--not collectors and dealers 
who have followed the rules.
    The administration's new regulations will divert enforcement 
resources, and push owners of legal ivory into the illegal trade, 
meaning more elephants are likely to die.

   Doug Bandow is a senior fellow at the Cato Institute and a former 
                 special assistant to President Reagan.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

--Lark Mason Associates, April 2014, ``The Scope of the Antique 
Ivory and Endangered Species Market in the United States''

--Carolina Clavier Collection, ``Historical stringed keyboards 
from the beginning of their construction through the middle of 
the 19th century''

                                 [all]
                                 
</pre></body></html>
